App. 1
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-10312
-----------------------------------------------------------------------

D.C. Docket No. 1:15-cv-23616-DPG
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
$70,670.00 IN U.S. CURRENCY, et al.,
Defendants,
KURVAS SECRET BY W,
WILSON COLORADO,
MILADIS SALGADO,
Interested Parties-Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Florida
-----------------------------------------------------------------------

(July 8, 2019)
Before WILLIAM PRYOR, NEWSOM, and BRANCH,
Circuit Judges.

App. 2
WILLIAM PRYOR, Circuit Judge:
This appeal requires us to decide whether the district court abused its discretion when it permitted the
government to dismiss its complaint for forfeiture
without prejudice and whether the dismissal entitled
the claimants to attorney’s fees under the Civil Asset
Forfeiture Reform Act, see 28 U.S.C. § 2465(b)(1). The
government filed a complaint for forfeiture against certain funds as the proceeds of criminal activity. Wilson
Colorado and his business Kurvas Secret by W claimed
most of the funds, and Miladis Salgado claimed the remainder. During the litigation, AnnChery Fajas USA,
the victim of the alleged criminal activity, obtained a
state judgment against Colorado and Kurvas Secret.
To satisfy the judgment, the state court transferred the
judgment debtors’ interests in the funds to AnnChery.
The government then moved to dismiss its complaint
voluntarily without prejudice on the ground that the
state-court judgment made the outcome of the forfeiture action irrelevant. The district court granted the
motion, denied the claimants’ motion to dismiss the action with prejudice, and denied the claimants’ motion
for an award of attorney’s fees. Because the district
court did not abuse its discretion in dismissing the action without prejudice and the claimants did not “substantially prevail[ ],” id., we affirm.
I.

BACKGROUND

AnnChery Fajas USA, Inc., a company based in
Colombia and Florida, manufactures and sells fajas, a

App. 3
genre of garments that includes corsets, girdles, and
waist cinchers. In response to growing demand—apparently a result of unofficial endorsements by celebrities such as Kim Kardashian—AnnChery instituted a
policy limiting the number of fajas a retailer could purchase to 1,500 per week.
In late 2014, Wilson Colorado moved from Spain
to Miami, where he resided with his ex-wife, Miladis
Salgado. At the suggestion of Tatiana Narvaez-Caicedo,
the general manager of AnnChery in Florida, Colorado
decided to enter the faja retail business. He established Kurvas Secret by W, Inc., a Florida corporation,
for that purpose.
In April 2015, AnnChery determined that Narvaez-Caicedo was helping Colorado and Kurvas Secret
circumvent its quota system and receive AnnChery
merchandise without paying for it. AnnChery fired
Narvaez-Caicedo; sent Colorado a demand letter alleging that he had stolen its merchandise; and filed a
complaint in Florida court against Narvaez-Caicedo,
Colorado, Kurvas Secret, and two other defendants alleging that they had conspired to steal from and defraud the company.
After receiving the demand letter, Colorado liquidated his Wells Fargo and Chase bank accounts and
secured the funds at his home. These withdrawals consisted of a Wells Fargo cashier’s check for $101,629.59
and a Chase cashier’s check for $30,000, both made
payable to Colorado. Colorado purchased these checks
using proceeds from the sale of AnnChery fajas.

App. 4
Meanwhile, the Drug Enforcement Administration received a tip asserting that Colorado was a cocaine distributor and money launderer and that he
used several south Florida residences to store currency
and narcotics. The tipster said that Narvaez-Caicedo
lived in one of the “stash houses” and provided her address and an accurate description of her car, including
the license-plate number. Law-enforcement officers
searched Narvaez-Caicedo’s home and found no currency or contraband. But she provided them with the
address of the residence where Colorado was living
with Salgado.
The officers searched Salgado’s home. There, they
discovered and seized potential drug paraphernalia
and—more importantly for this appeal—both cashier’s
checks and $15,070 in cash in Salgado’s master bedroom closet. They found and seized $55,600 more in
cash beneath a nightstand in Colorado and Salgado’s
daughter’s bedroom.
The government filed a complaint in rem against
the $70,670 seized in cash, the value of the Wells Fargo
cashier’s check, and the value of the Chase cashier’s
check, stating three claims for forfeiture. First, the
complaint alleged that the funds were the proceeds of
drug crimes, see 21 U.S.C. §§ 841(a), 846, 881(a)(6). Second, it alleged that the funds were derivative proceeds
either of drug trafficking or of the interstate transportation of stolen property, see 18 U.S.C. §§ 981(a)(1)(C),
2314; 21 U.S.C. §§ 841(a)(1), 846. Third, it alleged that
the funds were property involved in or traceable to knowing monetary transactions or attempted transactions

App. 5
involving the proceeds of criminal activity, see 18 U.S.C.
§§ 981(a)(1)(A), 1956(a)(1), 1957.
Colorado, Salgado, and Kurvas Secret filed claims
to the funds. Colorado and Kurvas Secret claimed ownership of the cashier’s checks and the $55,600 seized
from the nightstand, as well as a possessory interest in
the $15,070 seized from Salgado’s bedroom closet. Salgado claimed ownership of the cash seized from her
closet and a possessory interest in the rest of the funds.
While this action was being litigated in the district
court, the state court entered a default judgment in favor of AnnChery’s second amended complaint based on
what the state court found was Colorado and Kurvas
Secret’s “willful and deliberate failure to comply with
[its] Orders on discovery.” And the state court entered
a permanent injunction against Colorado and Kurvas
Secret that required them to “preserve and segregate
any funds in their financial and bank accounts or elsewhere that constitute[d] proceeds from the sale of
AnnChery products and merchandise.”
Under Florida law, the default judgment against
Colorado and Kurvas Secret conclusively established
“all factual allegations in [AnnChery’s] Second Amended
Complaint.” See N. Am. Accident Ins. Co. v. Moreland,
53 So. 635, 637 (Fla. 1910) (“A judgment by default . . .
operates as an admission by the defendants of the
truth of the definite and certain allegations and the
fair inferences and conclusions of fact to be drawn from
[them].”); Ellish v. Richard, 622 So. 2d 1154, 1155 (Fla.
Dist. Ct. App. 1993) (“[A] party against whom a default

App. 6
judgment is entered admits all well-pleaded facts as
true.”). AnnChery had alleged that any and all funds
in Colorado’s bank accounts or to which he had access
were derived from the sale of stolen fajas. So, after entry of the state judgment and injunction, Colorado and
Kurvas Secret could no longer dispute in that proceeding that any of the defendant properties they owned
were subject to the preservation-and-segregation order
in the permanent injunction.
The government moved for summary judgment
in favor of two of its forfeiture claims and, in the alternative, for leave to dismiss the complaint without prejudice, see Fed. R. Civ. P. 41(a)(2), because the
state judgment and permanent injunction “effectively
render[ed] the outcome of th[e] [civil forfeiture] case
moot.” The government explained that, regardless of
the outcome of its in rem action, the funds would be
transferred to AnnChery:
In the unlikely event that Claimants prevail
on any of their claims, the Defendants In Rem
would be subject to the Miami-Dade Circuit
Court’s permanent injunction, resulting in
such funds being awarded to AnnChery, and
not Claimants. If the United States were to
prevail, the United States would return, in
accordance with the Department of Justice
victims’ policy, any forfeited funds required
to make AnnChery, the victim, whole. Consequently, in an effort to avoid unnecessary litigation, the United States seeks, in the
alternative, leave to permit the United States
to voluntarily dismiss this matter so that

App. 7
ownership of the Defendants In Rem can be
resolved by the Miami-Dade Circuit Court.
In their joint response to the government’s motion
for summary judgment or voluntary dismissal, the
claimants protested that a voluntary dismissal without prejudice would be “contrary to law and a manifest
injustice,” but they failed to explain how they would be
prejudiced by such a dismissal. The state court later
entered judgment in favor of AnnChery against Colorado and Kurvas Secret in the amount of $318,019.70
plus costs, and the government filed the state judgment in the district court as a supplement to its motion
for summary judgment or voluntary dismissal.
The district court granted the government’s motion in part, “find[ing] good cause to permit the United
States to voluntarily dismiss this action without prejudice based on the parallel state action” and “order[ing] that th[e] action [be] closed administratively.”
The government filed a proposed final order of dismissal and, with it, an order in which the state court had
assigned and transferred to AnnChery, in satisfaction
of its judgment, “[a]ny and all rights, title, claims, or
interests of any kind of [Colorado and Kurvas Secret]
in the seized cash and cashier’s checks at issue in the
Forfeiture Action.”
The claimants filed a notice of objection to the order dismissing the action without prejudice and moved
that the district court “dismiss th[e] forfeiture action
with prejudice so that [the claimants’ attorney could]
pursue attorney[’]s fees pursuant to the Civil Asset

App. 8
Forfeiture Reform Act and 28 USC § 2465.” The claimants argued that they would “suffer legal prejudice in
the form of a denial of attorney fees . . . if this action
[were] dismissed without prejudice, rather than with
prejudice.” See McCants v. Ford Motor Co., 781 F.2d
855, 857 (11th Cir. 1986) (explaining that a district
court should deny a motion for voluntary dismissal
without prejudice when to grant it would cause “plain
legal prejudice” to the defendant). And they suggested
that they were eligible for an award of attorney’s fees
even if the dismissal remained without prejudice.
The next day, the district court entered an order of
dismissal. The order stated that “the Miami-Dade Circuit Court has entered decisions in a parallel state action . . . which effectively render the outcome of this
action moot.” It also provided, “Should the United
States re-file this action, the Court will award costs to
the Claimants pursuant to Rule 41(d) of the Federal
Rules of Civil Procedure.” See Fed. R. Civ. P. 41(d)-(d)(1)
(“If a plaintiff who previously dismissed an action . . .
files an action based on or including the same claim
against the same defendant, the court . . . may order
the plaintiff to pay all or part of the costs of that previous action. . . .”).
The claimants moved to alter or amend the order
to dismiss the action with prejudice. They argued that
the duration of the action, the amount of resources expended, alleged dilatory tactics by the government,
and the pendency of dispositive motions all counseled
in favor of a dismissal with prejudice. They construed the
government’s assertion that the action was “effectively”

App. 9
moot as an admission of jurisdictional mootness, and
they argued that this admission too supported a dismissal with prejudice. And they repeated their argument that they were entitled to attorney’s fees in any
event but insisted that, if the label on the dismissal
mattered, the district court should consider their loss
of a right to attorney’s fees sufficient legal prejudice to
require a dismissal with prejudice. Concurrently, the
claimants moved for attorney’s fees, costs, and interest
under the Civil Asset Forfeiture Reform Act, see 28
U.S.C. § 2465(b)(1).
Before the district court ruled on the claimants’
motions, Salgado, AnnChery, and the claimants’ attorney executed and filed a “Stipulation for Settlement in
Forfeiture Action,” in which the signatories “stipulate[d] to the entry of an Order in the Forfeiture Action” distributing $10,387.92 of the defendant funds to
Salgado, $128,920.61 to AnnChery, and $62.991.06 to
the claimants’ attorney to hold in escrow pending the
resolution of the motion for attorney’s fees. The district
court ordered the release of the funds and directed the
parties to distribute them in accordance with the stipulation.
The district court denied the claimants’ motion to
alter or amend the order of dismissal and their motion
for attorney’s fees. The district court reasoned that the
length of the litigation and that it had progressed to
the summary-judgment stage did not require that the
voluntary dismissal be with prejudice because “[n]othing
suggest[ed] . . . that the government acted in bad
faith or that the government did not believe it had a

App. 10
meritorious case for forfeiture.” And it stated that it
had made the government responsible for the claimants’ costs if the government refiled the action.
The district court also rejected the claimants’ argument that the dismissal prejudiced them because it
barred their statutory right to attorney’s fees. The district court deemed the argument forfeited because the
claimants had not raised it in their response to the government’s motion for voluntary dismissal. The district
court also stated that it was an open question “whether
loss of an argument for attorney’s fees . . . constitutes
legal prejudice that should preclude voluntary dismissal without prejudice,” but it concluded “that the facts
of this case [did not] warrant that determination” because the government had not acted in “bad faith” but,
instead, had chosen to forgo “trial on what it believed
to be a meritorious forfeiture complaint in light of the
alleged victim’s state court judgment.” And the district
court denied the motion for attorney’s fees on the
ground that a dismissal without prejudice does not alter the legal relationship of the parties, so the claimants had not “substantially prevail[ed],” 28 U.S.C.
§ 2465(b)(1).
II.

STANDARD OF REVIEW

“Dismissal on motion of the plaintiff pursuant to
Rule 41(a)(2) is within the sound discretion of the district court, and its order may be reviewed only for an
abuse of discretion.” McCants, 781 F.2d at 857. We also
“review the denial of a motion for attorneys’ fees and

App. 11
costs for abuse of discretion.” Friends of the Everglades
v. S. Fla. Water Mgmt. Dist., 678 F.3d 1199, 1201 (11th
Cir. 2012). Under the abuse-of-discretion standard, “[a]
district court’s underlying legal conclusions are reviewed de novo and its factual findings for clear error.”
Bradley v. King, 556 F.3d 1225, 1229 (11th Cir. 2009).
A district court abuses its discretion when it applies an
incorrect legal standard, relies on clearly erroneous
factual findings, or commits a clear error of judgment.
See id.; Klay v. United Healthgroup, Inc., 376 F.3d 1092,
1096 (11th Cir. 2004).
III.

DISCUSSION

We divide our discussion in two parts. First, we explain that the district court did not abuse its discretion
when it granted the government’s motion to dismiss
the action without prejudice. Second, we explain that
the district court did not abuse its discretion when it
denied the claimants’ motion for attorney’s fees.
A. The District Court Did Not Abuse Its
Discretion when It Allowed the Government
to Dismiss Its Complaint Without Prejudice.
The claimants argue that the district court abused
its discretion when it permitted the government to dismiss its complaint voluntarily without prejudice instead of with prejudice. After an opposing party has
served an answer or a motion for summary judgment,
“an action may be dismissed at the plaintiff ’s request
only by court order, on terms that the court considers

App. 12
proper.” Fed. R. Civ. P. 41(a)(2). In considering such a
request, “the district court must exercise its broad equitable discretion under Rule 41(a)(2) to weigh the relevant equities and do justice between the parties in
each case, imposing such costs and attaching such conditions to the dismissal as are deemed appropriate.”
McCants, 781 F.2d at 857.
We have explained that “in most cases a dismissal
should be granted unless the defendant will suffer
clear legal prejudice, other than the mere prospect of a
subsequent lawsuit, as a result.” Id. at 856-57 (emphasis omitted). “The crucial question to be determined is,
Would the defendant lose any substantial right by the
dismissal.” Pontenberg v. Boston Sci. Corp., 252 F.3d
1253, 1255 (11th Cir. 2001) (quoting Durham v. Fla. E.
Coast Ry. Co., 385 F.2d 366, 368 (5th Cir. 1967)). We
have made clear that “the sanction of dismissal [with
prejudice] is the most severe sanction that a court may
apply, and its use must be tempered by a careful exercise of judicial discretion.” Durham, 385 F.2d at 368
(alteration adopted) (emphasis omitted) (quoting Durgin v. Graham, 372 F.2d 130, 131 (5th Cir. 1967)). In
Durham, we explained that “[t]he decided cases . . .
have generally permitted it only in the face of a clear
record of delay or contumacious conduct by the plaintiff.” Id.
The district court did not abuse its broad discretion when it granted the government’s motion for a
voluntary dismissal without prejudice. Although the
claimants opposed the motion in the district court
as “contrary to law and a manifest injustice,” they

App. 13
identified no “substantial right” that they “would . . .
lose . . . by the dismissal,” id. At most, their protest
that the district court should not “allow the government to abuse the federal forfeiture laws . . . and walk
away as if nothing had happened” might liberally be
construed as an argument that the litigation had continued too long for the government to be allowed to
back out of it. But it is well settled that “delay alone, in
the absence of bad faith, is insufficient to justify a dismissal with prejudice, even where a fully briefed summary judgment motion is pending,” Pontenberg, 252
F.3d at 1259, and indeed even on the eve of trial, see
Durham, 385 F.2d at 368-69. The district court found
that nothing in the government’s conduct evinced bad
faith, and nothing in the record proves that the district
court clearly erred in so finding.
Although the claimants argue that the government
litigated in bad faith, their contention makes little
sense. They argue that the government unreasonably
delayed the litigation by failing to interplead the funds
in the state action. But the two actions were of entirely
different kinds: AnnChery sued Colorado and Kurvas
Secret in personam for alleged civil torts under Florida
law, and the government sued the funds in rem as subject to forfeiture for alleged violations of federal law.
The success of AnnChery’s suit in personam would—
and ultimately did—result in Colorado and Kurvas Secret being personally liable to AnnChery with respect
to the obligations and in the amounts imposed by
the state judgment. By contrast, the success of the
federal suit in rem would have “determine[d] the

App. 14
Government’s title to the property as against the whole
world.” United States v. Certain Real & Pers. Prop. Belonging to Hayes, 943 F.2d 1292, 1295 (11th Cir. 1991).
AnnChery’s in personam suit asserted no property interest in any of the funds because AnnChery had none
to assert. Its property interest in the funds came into
being only after it had secured a judgment of liability
in personam against Colorado and Kurvas Secret and
only after the state court had transferred their in rem
interests in the funds to AnnChery in satisfaction of
that personal judgment. Even then, the respective claims
to the funds remained unsettled, and the government
could have persevered in this forfeiture action to establish its “title . . . as against the whole world,” id.
The government made clear that even if it prevailed in this forfeiture action, it intended to transfer
the funds to AnnChery, so the district court reasonably
concluded that the state judgment made the action “effectively . . . moot.” The claimants argue that this conclusion was a legal error because the action was not
“moot” in the jurisdictional sense of the word. But it is
obvious from the record that the government never argued, and the district court never ruled, that the state
judgment eliminated the in rem case or controversy.
Instead, the district court reached the commonsense
conclusion that it no longer mattered whether the government or the claimants had superior title to the
funds because, either way, the money would end up
with AnnChery.
The claimants contend that the dismissal without prejudice deprived them of their right to collect

App. 15
attorney’s fees upon “substantially prevail[ing],” 28
U.S.C. § 2465(b)(1), but the district court acted within
its discretion to reject this argument as untimely. The
claimants made no reference to attorney’s fees in their
opposition to the government’s motion. They raised the
issue for the first time only after the district court had
entered an order granting the motion for voluntary dismissal without prejudice and administratively closing
the case. District courts have the discretion not to consider belated arguments, see, e.g., Young v. City of Palm
Bay, 358 F.3d 859, 863-64 (11th Cir. 2004), and the district court did not abuse its discretion to do so in this
case.
Even if we overlook the untimeliness of the claimants’ argument, it does not entitle them to a dismissal
with prejudice. The parties dispute whether the right
to statutory attorney’s fees is a “substantial right” the
deprivation of which by a plaintiff ’s voluntary dismissal without prejudice constitutes “legal prejudice.” We
agree with the district court that “the facts of this case”
do not require a definitive answer to this question.
Even if we assume that a meritorious claimant’s loss
of a right to statutory attorney’s fees constitutes legal
prejudice, it cannot constitute clear legal prejudice unless it is in turn clear that the claimants would indeed
“substantially prevail[ ],” 28 U.S.C. § 2465(b)(1), were
the action litigated to judgment. See United States v.
$32,820.56, 106 F. Supp. 3d 990, 997 (N.D. Iowa 2015)
(“Finding plain legal prejudice on th[is] basis would
necessarily presume that the party resisting voluntary
dismissal would have prevailed on the merits if the

App. 16
case continued to a conclusion.”), aff ’d, 838 F.3d 930
(8th Cir. 2016). And in this appeal, it is not clearly apparent from the record—nor have the claimants bothered to argue on appeal—that they ultimately would
have prevailed, so the district court did not abuse its
discretion in dismissing the complaint without prejudice.
The claimants also contend that, because the government had no intention of refiling the complaint,
“there is no reason why the action should not have
been dismissed with prejudice,” but this argument
misses the mark. Dismissal without prejudice is the
general rule, not the other way around. See Fed. R. Civ.
P. 41(a)(2) (“Unless the order states otherwise, a dismissal under this paragraph (2) is without prejudice.”).
And we have explained that a district court should depart from the general rule only when failing to do so
would work “clear legal prejudice” to the opposing
party. McCants, 781 F.2d at 856-57.
The claimants’ one remaining argument is that
the state judgment and levy provided no basis for the
dismissal of the federal action with respect to Salgado’s
claim of ownership in the $15,070 found in her closet
because Salgado was not a party to the state action and
the state judgment affected none of her rights to the
funds. But the claimants did not raise this argument
in their one timely response to the government’s motion for voluntary dismissal. Their untimely motion for
dismissal with prejudice, filed after the government’s
motion had been granted, “raised” it only in an oblique
fashion. And the claimants did not raise this argument

App. 17
at all in their motion to alter or amend the order of
dismissal. The district court did not abuse its discretion by ignoring an argument that was not squarely
presented to it.
In any event, Salgado has not established that she
suffered clear legal prejudice by the government’s voluntary dismissal. She belabors the argument that the
state judgment did not “moot” her claims in the jurisdictional sense of the word, but we have explained that
this argument is beside the point. And she has established no more than the other claimants that she
would have prevailed if the action had been fully litigated, so she was not clearly prejudiced by the loss of
her potential claim for attorney’s fees. The district
court did not abuse its discretion when it granted the
government’s motion to dismiss this action without
prejudice.
B. The Claimants Are Not
Entitled to Attorney’s Fees.
The claimants argue that they are entitled to attorney’s fees on three grounds. First, assuming that the
district court should have dismissed the action with
prejudice, they contend that they would be entitled to
statutory attorney’s fees because they would have
“substantially prevail[ed],” 28 U.S.C. § 2465(b)(1). Second, they contend that they have substantially prevailed even under the existing order of dismissal
without prejudice because the government did not
prevail on any of its claims for forfeiture. Third, the

App. 18
claimants argue that the district court should have
made the government responsible for their attorney’s
fees and costs as a condition of voluntary dismissal under Rule 41(a)(2).
The claimants’ first argument fails because, as we
have explained, the district court did not abuse its discretion by permitting the government to dismiss its
complaint without prejudice, and their second and
third arguments fare no better. We consider the latter
arguments in turn.
The claimants have not substantially prevailed
because a dismissal without prejudice places no “judicial imprimatur” on “the legal relationship of the parties,” which is “the touchstone of the prevailing party
inquiry.” CRST Van Expedited, Inc. v. Equal Emp’t Opportunity Comm’n, 136 S. Ct. 1642, 1646 (2016) (citations and internal quotation marks omitted); see also
Loggerhead Turtle v. Cty. Council of Volusia Cty., 307
F.3d 1318, 1322 n.4 (11th Cir. 2002) (explaining that
we interpret “substantially prevailed” fee-shifting statutes consistently with “prevailing party” fee-shifting
statutes). A voluntary dismissal without prejudice “renders the proceedings a nullity and leaves the parties as
if the action had never been brought.” Univ. of S. Ala.
v. Am. Tobacco Co., 168 F.3d 405, 409 (11th Cir. 1999)
(alterations adopted) (quoting Williams v. Clarke, 82
F.3d 270, 273 (8th Cir. 1996)). As the government
points out, the order of dismissal poses “no legal bar
precluding the government from refiling the same forfeiture action in the future.” True, the government admits that, “as a practical matter, it might be difficult

App. 19
for the government to pursue a subsequent civil forfeiture action against the defendant properties . . . because they may be difficult to bring back within the
district court’s in rem jurisdiction.” But this practical
difficulty is irrelevant. What matters is that the claimants have not obtained a “final judgment reject[ing]
the [government’s] claim” to the defendant funds.
CRST Van Expedited, 136 S. Ct. at 1651; cf. Buckhannon Bd. & Care Home, Inc. v. W. Va. Dep’t of Health &
Human Res., 532 U.S. 598, 605 (2001) (holding that “[a]
defendant’s voluntary change in conduct”—the mirror
image of a plaintiff ’s voluntary decision to withdraw a
claim—“lacks the necessary judicial imprimatur” to
qualify the defendant as a prevailing party).
The claimants suggest that Salgado obtained a judicially sanctioned recognition of her right to the funds
because the district court instructed “[t]he parties [to]
distribute the funds pursuant to their Stipulation,” but
this argument is unpersuasive. The settlement stipulation embodied an agreement between AnnChery, Salgado, and the claimants’ attorney concerning their
rights to the funds as to one another, but it said nothing
about the United States’ right to the funds, which
was the whole subject of this civil forfeiture action.
See Prop. Belonging to Hayes, 943 F.2d at 1295. With
or without the settlement stipulation, Salgado has
not substantially prevailed because the government’s
claim of superior title to her share of the funds remains
unadjudicated.
Finally, we agree with the government that the district court lacked the authority to make the government

App. 20
responsible for the claimants’ attorney’s fees as a condition of dismissal under Rule 41(a)(2). Any provision
of law that “renders the United States liable for attorney’s fees for which it would not otherwise be liable . . .
amounts to a partial waiver of sovereign immunity.”
Ardestani v. Immigration & Naturalization Serv., 502
U.S. 129, 137 (1991). And “any waiver of the National
Government’s sovereign immunity must be unequivocal.” U.S. Dep’t of Energy v. Ohio, 503 U.S. 607, 615
(1992); accord United States v. Mitchell, 445 U.S. 535,
538 (1980). The general language of Rule 41(a)(2)—
which provides only that the district court may impose
“terms that [it] considers proper” on the grant of a motion for voluntary dismissal by leave of the court—is
not an “unequivocal” waiver of the sovereign immunity
of the United States. The claimants cite some nonprecedential decisions suggesting that Rule 41(a)(2) permits an award of fees against the government, but
those decisions overlook the sovereign-immunity problem entirely. See, e.g., United States v. 2007 BMW 335i
Convertible, 648 F. Supp. 2d 944, 955 (N.D. Ohio 2009)
(assuming that a discretionary award of attorney’s fees
is possible under Rule 41(a)(2), but declining to grant
it). And in any event, even if the district court had the
authority to award fees, it was no abuse of its discretion not to do so. See 9 Charles Alan Wright et al., Federal Practice and Procedure § 2366 (3d ed. May 2019
update) (“The district judge is not obliged to order payment of the fee.”).

App. 21
IV.

CONCLUSION

We AFFIRM the orders dismissing this action
without prejudice and denying the claimants’ motion
for attorney’s fees.

App. 22
UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
-----------------------------------------------------------------------

No. 18-10312
-----------------------------------------------------------------------

District Court Docket No.
1:15-cv-23616-DPG
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
$70,670.00 IN U.S. CURRENCY, et al.,
Defendants,
KURVAS SECRET BY W,
WILSON COLORADO,
MILADIS SALGADO,
Interested Parties - Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Florida
-----------------------------------------------------------------------

JUDGMENT
It is hereby ordered, adjudged, and decreed that the
opinion issued on this date in this appeal is entered as
the judgment of this Court.

App. 23
Entered: July 08, 2019
For the Court: DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch

App. 24
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 15-CV-23616-GAYLES/TURNOFF
UNITED STATES
OF AMERICA,
Plaintiff,
v.
$70,670 IN U.S. CURRENCY,
et al.,
Defendants.

/
ORDER

(Filed Jan. 3, 2018)
THIS CAUSE comes before the Court on Claimants’ Motion to Alter or Amend Order Dismissing Case
Entered on August 10, 2017 [ECF No. 139] and Claimants’ Motion for Attorney Fees, Costs, and Interest
[ECF No. 141]. The Court held a hearing on the motions on December 15, 2017. [ECF No. 165]. The Court
has carefully reviewed the motions, the record, arguments of counsel, and the applicable law, and is otherwise fully advised. For the reasons that follow, the
motions are denied.
I.

BACKGROUND

In September 2015, the government filed its Complaint for Forfeiture In Rem [ECF No. 1], alleging that

App. 25
over $200,000 in cash and cashier’s checks were the
proceeds of or traceable to drug trafficking, transportation of stolen goods in interstate commerce, and
money laundering by Wilson Colorado (“Colorado”).
[Id. at 6-7]. The assets were found and seized when law
enforcement officers conducted a search of the home
Colorado shared with Miladis Salgado (“Salgado”), his
ex-wife. In November 2015, Colorado, Salgado, and a
company owned by Colorado, Kurvas Secret by W, Inc.
(“Kurvas Secret”) (collectively, “Claimants”), entered
verified claims for the assets. [ECF No. 22].
Meanwhile, AnnChery Fajas USA, Inc. (“AnnChery”)
—a company that employed an associate of Colorado’s,
Tatiana Alejandra Narvaez-Caicedo (“Narvaez-Caicedo”)
—filed an action in the Eleventh Judicial Circuit in
and for Miami-Dade County, Florida, alleging that Colorado had aided a scheme to steal clothing from
AnnChery. [ECF No. 110-3]. The stolen goods counts
alleged in the federal forfeiture action are related to
AnnChery’s claims—in other words, AnnChery is the
victim of some of the alleged crimes forming the basis
of the federal forfeiture action. In November 2016, the
state court entered judgment in favor of AnnChery and
against Colorado and Kurvas Secret, but reserved ruling on the award of damages and attorney’s fees. [ECF
No. 110-8]. In April 2017, the state court awarded
AnnChery $318,520.70 in damages and attorney’s fees.
[ECF No. 117-1]. In July 2017, the state court authorized AnnChery to levy on property of Colorado and
Kurvas Secret, including its claims in this federal

App. 26
forfeiture action, and assigned Colorado’s rights in the
Defendants In Rem to AnnChery. [ECF No. 134-1].
On March 27, 2017, Claimants moved for summary judgment. [ECF No. 108]. Four days later, the
government filed its Motion for Summary Judgment on
Second and Third Claims of the Verified Complaint, or
in the Alternative, Motion for Leave to Dismiss Action
Without Prejudice [ECF No. 110]. The government argued that in light of the state court action, there were
no genuine issues of triable fact as to the second and
third forfeiture counts relating to stolen property, but
argued in the alternative that the Court should allow
the government “to voluntarily dismiss this matter so
that ownership of the Defendants In Rem can be resolved by the Miami-Dade Circuit Court.” [Id. at 4].
The Court granted the motion in part, finding good
cause to permit the government to voluntarily dismiss
the action without prejudice in light of the parallel
state court action. [ECF No. 133]. Only after the Court
granted the government’s motion, Claimants objected
that the dismissal should be with prejudice so that
they could seek statutory attorney’s fees. [ECF No.
136]. The Court entered a final order of dismissal without prejudice on August 10, 2017. [ECF No. 138].
In the instant motions, Claimants seek (1) to alter
the dismissal without prejudice to a dismissal with
prejudice and (2) to be awarded attorney’s fees in light
of the dismissal with prejudice.

App. 27
II.

MOTION TO ALTER OR AMEND ORDER
DISMISSING CASE

A.

Legal Standard

Under Rule 41 of the Federal Rules of Civil Procedure, a plaintiff may unilaterally voluntarily dismiss
an action only before the opposing party has served either an answer or a motion for summary judgment. See
Fed. R. Civ. P. 41(a)(1). After the defendant has answered or moved for summary judgment, a plaintiff
seeking to voluntarily dismiss her complaint must obtain a court order, which the court may issue “on terms
that the court considers proper.” See id. 41(a)(2). “Unless the order states otherwise, a dismissal under [Rule
41(a)(2)] is without prejudice.” Id. “The purpose of Rule
41(a)(2) ‘is primarily to prevent voluntary dismissals
which unfairly affect the other side, and to permit the
imposition of curative conditions.’ ” Arias v. Cameron,
776 F.3d 1262, 1268 (11th Cir. 2015) (quoting McCants
v. Ford Motor Co., Inc., 781 F.2d 855, 856 (11th Cir.
1986)).
In most circuits, the district courts must apply
some variation of a multi-factor test to determine if
voluntary dismissal under Rule 41(a)(2) should be permitted. See 9 FED. PRAC. & PROC. CIV. § 2364 (3d ed.),
Westlaw (database updated April 2017). Unlike other
circuits, however, “the Eleventh Circuit does not rely
on a list of factors to examine when considering a Rule
41 motion.” Bradley v. MARTA, 2014 WL 4449874, *1
(N.D. Ga. 2014). Instead, in the Eleventh Circuit, a
“district court must ‘weigh the relevant equities and do

App. 28
justice between the parties in each case, imposing such
costs and attaching such conditions to the dismissal as
are deemed appropriate.’ ” Pontenberg v. Bos. Sci. Corp.,
252 F.3d 1253, 1256 (11th Cir. 2001) (quoting McCants,
781 F.2d at 857).
Thus, “[t]he district court enjoys broad discretion
in determining whether to allow a voluntary dismissal
under Rule 41(a)(2).” Pontenberg, 252 F.3d at 1255.
“Generally speaking, a motion for voluntary dismissal
should be granted unless the defendant will suffer
clear legal prejudice other than the mere prospect of a
second lawsuit.” Arias, 776 F.3d at 1268.
B.

Discussion

Claimants point out that although no set list of
factors must be weighed, in determining whether legal
prejudice precludes a Rule 41 dismissal without prejudice, courts in this circuit have frequently considered
“the length of time and amount of resources spent by
the defendant in litigating the case, dilatory tactics by
the plaintiff, and whether the defendant had a motion
for summary judgment pending when the dismissal
was requested.” Jones v. Smartvideo Techs., No. 06cv-2760, 2007 WL 1655855, *3 (N.D. Ga. 2007). Here,
Claimants argue that the duration of the litigation and
their pending dispositive motion at the time the government requested dismissal weigh against voluntary
dismissal without prejudice. They further argue that
loss of a basis for statutory attorney’s fees constitutes
plain legal prejudice.

App. 29
It is true that the government’s request for voluntary dismissal in the instant action came after eighteen months of litigation. But while the duration of the
litigation may be relevant to determine whether the
balance of equities makes voluntary dismissal without
prejudice appropriate, it is not dispositive. See Pontenberg, 252 F.3d at 1256 (“Neither the fact that the litigation has proceeded to the summary judgment stage
nor the fact that the plaintiff ’s attorney has been negligent in prosecuting the case, alone or together, conclusively or per se establishes plain legal prejudice
requiring the denial of a motion to dismiss.”). Here, the
voluntary dismissal also came after the alleged victim
of the fraud underlying one of the bases for forfeiture
prevailed in a private civil suit in state court. The government then sought either summary judgment or voluntary dismissal without prejudice to allow the funds
to be distributed to the alleged victim. So while Claimants indeed had a motion for summary judgment pending at the time of dismissal, so too did the government.
Nothing suggests to the Court that the government
acted in bad faith or that the government did not believe it had a meritorious case for forfeiture. Rather, it
determined that in light of the state court judgment
and AnnChery’s claim to the assets, voluntary dismissal without prejudice would be an adequate alternate
resolution. In the interests of justice and to limit waste
of both judicial resources and the resources of the
parties, this Court found voluntary dismissal without
prejudice to be the appropriate resolution of the instant action.

App. 30
The cases Claimants rely on are inapposite. In
United States v. Certain Real Property, 543 F. Supp. 2d
1291 (N.D. Ala. 2008), for instance, the district court
found a dismissal with prejudice appropriate where
the claimant had been acquitted of the alleged offense
that formed the basis for the forfeiture action. Id. at
1292. The facts here are readily distinguishable. Although the government did not ultimately indict Mr.
Colorado for offenses relating to the bases for forfeiture, he was found liable to the alleged victim in a related state court action.
Further, here, as in other cases upheld by the Eleventh Circuit, the Court imposed “curative conditions”
on the voluntary dismissal. See, e.g., Pontenberg, 252
F.3d at 1256 (“Although the district court found dismissal appropriate, it ordered that the court ‘should assess
costs against Plaintiff pursuant to Fed.R.Civ.P. 41(d)’ if
Pontenberg re-files her action against Boston Scientific.”). The Court’s Order Dismissing Case [ECF No.
138] mandated that if the government refiles the case,
Claimants will then be entitled to costs expended in
defending this dismissed action. The Court believes
that under the unique circumstances here, this condition was all that was necessary to do justice among the
parties.
Finally, Claimants argue that a dismissal without
prejudice here plainly prejudices Claimants because it
prevents them from obtaining statutory attorney’s fees
pursuant to the Civil Asset Forfeiture Reform Act of
2000, 28 U.S.C. § 2465(b)(1) (2012) (“CAFRA”). First,
this argument is untimely. Claimants did not raise the

App. 31
issue of attorney’s fees in response to the government’s
motion. Rather, they raised the issue for the first time
only after the Court had granted the motion for voluntary dismissal without prejudice. Thus, the Court finds
that Claimants waived this argument and that reconsideration on this basis is inappropriate.1 But even absent waiver, the Eleventh Circuit has not addressed
whether loss of an argument for attorney’s fees pursuant to CAFRA constitutes legal prejudice that should
preclude voluntary dismissal without prejudice, and
the Court does not believe that the facts of this case
warrant that determination. Nothing before the Court
indicates bad faith on the part of the government.
Here, the government determined that it was willing
to forego trial on what it believed to be a meritorious
forfeiture complaint in light of the alleged victim’s
state court judgment.
For the foregoing reasons, the Court determines
that its dismissal without prejudice pursuant to Rule
41(a)(2) was appropriate given the equities in this case,
and therefore declines to alter or amend its Order.

1

See United States v. $32,820.56 in U.S. Currency, 106
F. Supp. 3d 990, 996-97 (N.D. Iowa 2015) (“In resisting the Government’s motion to dismiss without prejudice, the Claimants did
not argue that they would suffer legal prejudice in the form of a
denial of fees under CAFRA. . . . If the Claimants would have
raised this issue in response to the Government’s motion to dismiss, it could have been fully briefed and argued at that time.
Unfortunately, that did not happen and the case has been dismissed without prejudice. . . . I find that the Claimants waived
this argument and that reconsideration is therefore not appropriate.”).

App. 32
III. MOTION FOR ATTORNEY’S FEES
Pursuant to 28 U.S.C. § 2465(b)(1), a claimant who
“substantially prevails” in a civil forfeiture action is
entitled to collect from the United States “reasonable
attorney fees and other litigation costs reasonably incurred by the claimant,” together with statutory postjudgment interest. The parties agree that CAFRA’s
“substantially prevails” standard is equivalent to a
“prevailing party” standard. Thus, a dismissal without
prejudice cannot trigger the statutory entitlement because such a dismissal lacks the necessary “material
alteration of the legal relationship of the parties” with
a corresponding “judicial imprimatur on the change.”
Buckhannon Bd. & Home Care, Inc. v. W. Va. Dept. of
Health & Hum. Servs., 532 U.S. 598, 604-05 (2001)
(quoting Tex. State Teachers Assn. v. Garland Indep.
Sch. Dist., 489 U.S. 782, 792-93 (1989)). Having determined that a voluntary dismissal without prejudice
was appropriate given the equities in the instant matter, the Court finds no basis on which to award statutory attorney’s fees.
IV. CONCLUSION
Based on the foregoing, it is ORDERED AND
ADJUDGED as follows:
1.

Claimants’ Motion to Alter or Amend Order
Dismissing Case Entered on August 10, 2017
[ECF No. 139] is DENIED; and

2.

Claimants’ Motion for Attorney Fees, Costs, and
Interest [ECF No. 141] is DENIED. DONE

App. 33
AND ORDERED in Chambers at Miami,
Florida, this 3rd day of January, 2018.
/s/ Darrin P. Gayles
DARRIN P. GAYLES
UNITED STATES
DISTRICT JUDGE

App. 34
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 15-CV-23616-GAYLES/TURNOFF
UNITED STATES
OF AMERICA,
Plaintiff,
v.
$70,670 IN U.S. CURRENCY,
et al.,
Defendants.

/

ORDER REGARDING RELEASE
OF DEFENDANTS IN REM
(Filed Dec. 19, 2017)
WHEREAS, on July 31, 2017, the Court entered
an Endorsed Order [ECF No. 133], finding good cause
to permit the United States to voluntarily dismiss
the above-captioned action and granting, in part, the
United States’ motion for summary judgment or for
leave to dismiss the action without prejudice [ECF No.
110];
WHEREAS, on August 10, 2017, the Court entered
an Order Dismissing Case [ECF No. 138], which dismissed the above-captioned action without prejudice
and denied as moot all other pending motions [ECF No.
138];

App. 35
WHEREAS, on or about November 6, 2017, AnnChery,
Berrio & Berrio P.A., and Salgado, reached a Stipulation for Settlement in Forfeiture Action [ECF No. 155],
memorializing their agreement regarding the release
of Defendants In Rem from the custody of the United
States; and
WHEREAS, the Debt Collection Improvement Act
of 1996, as codified at 31 U.S.C. § 3716 and administered through the Treasury Offset Program (“TOP”),
requires the United States Treasury to offset federal
payments to collect certain delinquent debts owed by a
payee to the United States, a United States agency, or
a state, including delinquent child-support obligations
enforced by the states;
It is ORDERED that:
1. The U.S. Marshals Service, or any duly authorized law enforcement official, is authorized and directed to release the Defendants In Rem, which total
$202,299.59 in U.S. currency in value, in the following
manner:
a.

The sum of $128,920.61 in U.S. currency
(plus proportionately accrued interest
and less the amount of any delinquent
debt that the United States Treasury is
required to collect through the Treasury
Offset Program) shall be released to Salazar Law’s Trust Account, c/o Luis Salazar, Esq., Salazar Law, 2000 Ponce de
Leon Boulevard, Penthouse Suite, Coral
Gables, Florida 33134 (“Salazar Law”);
and

App. 36
b.

The sum of $73,378.98 in U.S. currency
(plus proportionately accrued interest
and less the amount of any delinquent
debt that the United States Treasury is
required to collect through the Treasury
Offset Program) shall be released to Berrio & Berrio, P.A.’s Trust Account, c/o
Juan D. Berrio, Berrio & Berrio, P.A.,
2333 Brickell Avenue, Suite A-1, Miami,
Florida 33129 (“Berrio Berrio P.A.”);

2. Salazar Law and Berrio & Berrio, P.A. shall
each provide the requisite documentation to process
the transfer of funds, including a completed United
States Department of Justice’s Unified Financial Management System (“UFMS”) Vendor Request Form.
3. The parties shall then distribute the funds
pursuant to their Stipulation for Settlement in Forfeiture Action [ECF No. 155].
DONE AND ORDERED in Chambers at Miami,
Florida, this 19th day of December, 2017.
/s/ Darrin P. Gayles
DARRIN P. GAYLES
UNITED STATES
DISTRICT JUDGE

App. 37
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 15-CV-23616-GAYLES/TURNOFF
UNITED STATES
OF AMERICA,
Plaintiff,
vs.
$70,670 IN U.S. CURRENCY,
$101,629.59 IN U.S. CURRENCY
SEIZED FROM WELLS
FARGO BANK CASHIER’S
CHECK NO. 6648201039,
AND $30,000.00 IN U.S.
CURRENCY SEIZED FROM
CHASE BANK CASHIER’S
CHECK NO. 1178710368,
Defendants In Rem. /
STIPULATION FOR
SETTLEMENT IN FORFEITURE ACTION
(Filed Nov. 6, 2017)
THIS STIPULATION is made and entered into by
and among (i) Miladis Salgado (“Salgado”); (ii) Juan
D. Berrio and the law firm of Berrio & Berrio, P.A. (together, the “Berrio Firm”); and (iii) AnnChery Fajas
USA, Inc. (“AnnChery”). Salgado, the Berrio Firm,
and AnnChery are each referred to as “Party” or collectively referred to as the “Parties.”

App. 38
RECITALS
WHEREAS, on April 28, 2015, AnnChery commenced a civil action to obtain an emergency injunction
and other relief against defendants, Wilson Colorado
(“Colorado”), Kurvas Secret By W, Inc. (“Kurvas Secret”) (together, the “Colorado Entities”), Tatiana
Alejandra Narvaez-Caicedo, Wilmer Ocampo, and Wilmer Ocampo Investments Corp. (the “State Court
Action”),1 arising from an alleged scheme to defraud
AnnChery and to steal thousands of AnnChery’s highquality luxury garments, including, among other things,
waist trainers, waist cinchers, hourglass body shapers,
powernet body girdles, designer fajas, and other merchandise. AnnChery ultimately filed its Second Amended
Complaint on September 3, 2015 asserting multiple
claims against defendants for (i) Injunctive Relief (as
to all defendants); (ii) Breach of Fiduciary Duty (as to
defendant Narvaez-Caicedo); (iii) Aiding and Abetting
Breach of Fiduciary Duty (as to defendants Colorado
and Ocampo); (iv) Civil Conspiracy (as to all defendants); (v) Constructive Fraud (as to all defendants);
(vi) Conversion (as to all defendants); (vii) Tortious
Interference with Business Relationship (as to all defendants); (viii) Violation of Florida Deceptive and Unfair Trade Practice Act (as to all defendants); and
(ix) Unjust Enrichment (as to all defendants);
1

State Court Action. AnnChery Fajas USA, Inc. filed a
civil action in the Circuit Court for the Eleventh Judicial Circuit
in and for Miami-Dade County, Florida styled AnnChery Fajas
USA, Inc. v. Tatiana Alejandra Narvaez-Caicedo, et al., Case No.
2015-009539-CA-05.

App. 39
WHEREAS, on or about September 28, 2015, the
United States of America filed its Verified Complaint
for Forfeiture In Rem (the “Forfeiture Action”), alleging, among other things, that cash and cashier’s
checks seized from the residence of Salgado (totaling
$202,299.59) are subject to forfeiture, pursuant to 21
U.S.C. § 881(a)(6) and 18 U.S.C. §§ 981(a)(1)(C), (A),
calculated as follows:
a.

$70,670.00 in U.S. currency seized on or
about May 11, 2015, in Miami, Florida
(“Defendant Cash”);

b.

$101,629.59 in U.S. currency seized on or
about May 13, 2015, from Wells Fargo
Bank Cashier’s Check No. 6648201039,
made payable to Wilson Colorado and
dated April 25, 2015 (“Defendant Wells
Fargo Cashier’s Check”); and

c.

$30,000.00 in U.S. currency seized on or
about May 13, 2015, from Chase Bank
Cashier’s Check No. 1178710368, made
payable to Wilson Colorado and dated
April 25, 2015 (“Defendant Chase Cashier’s Check”).

(collectively, the “Defendant Currency”).
WHEREAS, the Colorado Entities claim an ownership and possessory interest in the Defendant Currency
as evidenced by the Verified Claims dated November 3,
2015 and Amended Verified Claims dated February 3,
2016 filed in the Forfeiture Action;

App. 40
WHEREAS, Miladis Salgado, Colorado’s former
spouse, claims a possessory and/or ownership interest
in all of the Defendant Currency but in the interest of
resolving this matter without the need for further litigation hereby limits her claims to a portion of the Defendant Cash (or $15,070.00), as evidenced by the
Verified Claim dated November 3, 2015 and Amended
Verified Claim dated February 3, 2016 filed in the Forfeiture Action;
WHEREAS, on April 24, 2017, a Final Judgment
in the amount of $318,520.70 (plus interest at the rate
prescribed by law) was entered in favor of AnnChery
and against the Colorado Entities in the State Court
Action;
WHEREAS, on July 13, 2017, an Order Invoking
Proceedings Supplementary was issued in the State
Court Action and authorized AnnChery to levy on property of the Colorado Entities subject to execution of
the Final Judgment, and found that such property includes the Colorado Entities’ claims to and interests in
the Defendant Currency at issue in the Forfeiture Action. The Order Invoking Proceedings Supplementary
further provides that any and all rights, title, claims,
or interests of any kind of the Colorado Entities in the
seized cash and cashier’s checks vested in AnnChery
and deemed assigned and transferred to AnnChery, effective immediately;
WHEREAS, on September 1, 2017, the Colorado
Entities and Salgado along with their counsel Juan D.
Berrio, Esq. of the law firm of Berrio & Berrio, P.A. filed

App. 41
their Motion to Alter or Amend Order Dismissing Case
Entered on August 10, 2017, and Request for Fifteen
(15) Minute Hearing [ECF No. 139], Motion for Return
of Property [ECF No. 140], and Motion for Attorney
Fees, Costs, and Interest [ECF No. 141] in the Forfeiture Action;
WHEREAS, the Parties desire to avoid the further costs, burdens, or distractions associated with litigating the rights, title, claims, and interests in the
Defendant Currency being held by the United States
and in order to avoid the cost and uncertainties of litigation, the Parties desire to settle the claims asserted
as to the Defendant Currency; and
WHEREAS, the Parties agree that AnnChery
shall be entitled to enforce the Final Judgment entered
in the State Court Action by execution, garnishment,
or other appropriate process or proceeding as permitted under applicable law to satisfy any portion of the
Final Judgment that remains unpaid after application of the Defendant Currency to be disbursed to
AnnChery under this Stipulation.
NOW, THEREFORE, in consideration of the foregoing facts and the terms, agreements, representations, and covenants set forth herein, the receipt and
sufficiency of which are hereby acknowledged, the Parties agree as follows:

App. 42
TERMS AND CONDITIONS
1. Incorporation of Recitals. The Recitals and
prefatory phrases and paragraphs set forth above are
hereby incorporated in full and made a part of this
Stipulation.
2. Effective Date. This Stipulation shall become effective as of the date when the last signature is
placed on this Stipulation, subject to entry of an Order
in the Forfeiture Action approving the Stipulation.
3. Allocation and Distribution of Defendant
Currency. The Parties stipulate to the entry of an Order in the Forfeiture Action as to the allocation and
distribution of the Defendant Currency in the sum of
$202,299.59, being held by the United States, on the
following terms and conditions:
a.

Miladis Salgado: $10,387.92 plus any
and all proportionately accrued interest
from May 11, 2015.

b.

AnnChery Fajas USA, Inc.: $128,920.61
plus any and all proportionately accrued
interest from May 11, 2015.

c.

Berrio & Berrio, P.A. Trust Account:
$62,991.06 plus any and all proportionately accrued interest from May 11, 2015.
This amount includes $2,301.18 in out-ofpocket costs incurred by the Berrio Firm.

4. First Disbursement. Payments to be made
to Salgado and AnnChery in accordance with paragraph 3(a) and 3(b) above shall be delivered to their

App. 43
respective counsel at the addresses set forth below in
paragraph 11 immediately upon entry of an Order in
the Forfeiture Action approving this Stipulation. Payment to be made to BERRIO & BERRIO, P.A. TRUST
ACCOUNT in accordance with paragraph 3(c) above
shall be delivered to BERRIO & BERRIO, P.A. to be
held in escrow pending resolution of the Motion to
Amend Order of Dismissal [ECF No. 139], Motion for
Return of Property [ECF No. 140], and Motion for Attorney Fees, Costs, and Interest [ECF No. 141] filed by
the Colorado Entities, Salgado, and the Berrio Firm in
the Forfeiture Action.
5. Second Disbursement. In the event that the
Colorado Entities, Salgado, and the Berrio Firm prevail on their Motion for Attorney Fees, Costs, and Interest [ECF No. 141], Salgado and the Berrio Firm
agree that they shall waive any claims of entitlement
to receive any portion of the $58,308.98 from the Defendant Currency held in the BERRIO & BERRIO, P.A.
TRUST ACCOUNT in accordance with paragraph 3(c).
In such event, the funds held in escrow by BERRIO &
BERRIO, P.A. in an amount of $58,308.98 plus any accrued interest shall be disbursed to AnnChery upon
entry of an Order in the Forfeiture Action on the Motion [ECF No. 141] and the expiration of all applicable
appeal time periods for the Motions [ECF No. 139],
[ECF No. 140], and [ECF No. 141]. The remaining
funds held in escrow by BERRIO & BERRIO, P.A. in
an amount of $4,682.08 plus any accrued interest shall
be disbursed to Salgado upon entry of an Order in the
Forfeiture Action on the Motion [ECF No. 141] and the

App. 44
expiration of all applicable appeal time periods for the
Motions [ECF No. 139], [ECF No. 140], and [ECF No.
141]. In the event that the Colorado Entities, Salgado,
and the Berrio Firm do not prevail on their Motion
[ECF No. 141] in an amount that is at least equal to
30% of the Defendant Currency (or equal to or greater
than $60,689.88), AnnChery agrees that it shall waive
any claims of entitlement to receive any funds held in
escrow by BERRIO & BERRIO, P.A. In such event, the
funds held in escrow by BERRIO & BERRIO, P.A. in
the amount of $62,991.06 plus accrued interest shall
be disbursed to the Berrio Firm upon entry of an Order
in the Forfeiture Action on the Motion [ECF No. 141]
and the expiration of all applicable appeal time periods
for the Motions [ECF No. 139], [ECF No. 140], and
[ECF No. 141].
6. Escrow Account. The Parties agree that payment to be made to BERRIO & BERRIO, P.A. TRUST
ACCOUNT in accordance with paragraph 3(c) above
shall be delivered to BERRIO & BERRIO, P.A. to be
held in escrow pending resolution of the Motion to
Amend Order of Dismissal [ECF No. 139], Motion for
Return of Property [ECF No. 140], and Motion for Attorney Fees, Costs, and Interest [ECF No. 141] filed by
the Colorado Entities, Salgado, and the Berrio Firm in
the Forfeiture Action. The Berrio Firm shall, upon request of any party to this Agreement, furnish to such
party and counsel statements of transactions regarding the portion of the Defendant Currency held in
trust, pursuant to paragraph 3(c) above, and include

App. 45
an acknowledgement as to the accuracy of the reporting contained therein.
7. Release of AnnChery. Except as otherwise set forth herein, Salgado and the Berrio Firm on
behalf of themselves and on behalf of their respective
present, former, and future agents, affiliates, accountants, attorneys, directors, employees, officers, parents,
predecessors, principals, representatives, shareholders, subsidiaries, heirs, and successors and assigns (the
“Releasors”), release and forever discharge AnnChery
and its present, former, and future agents, affiliates,
accountants, attorneys, directors, employees, officers,
parents, predecessors, principals, representatives, shareholders, subsidiaries, and successors and assigns (the
“Releasees”) from any and all actions, causes, claims,
demands, proceedings, or suits of any kind whatsoever,
in law or in equity, for damages or any other relief,
monetary or otherwise, whether known or unknown,
direct or indirect, asserted or unasserted, contingent,
absolute, or matured, that the Releasors ever had, now
have, or may ever claim to have against the Releasees,
relating to or arising from the Defendant Currency, the
Forfeiture Action, or the State Court Action; provided,
that nothing contained herein shall be deemed or construed to be a release or discharge by the Releasors of
any action, cause, claim, demand, proceeding, or suit
with respect to the obligations and liabilities of the Releasees under this Stipulation.
8. Release of Salgado and the Berrio Firm.
Except as otherwise set forth herein, AnnChery and its
present, former, and future agents, affiliates, accountants,

App. 46
attorneys, directors, employees, officers, parents, predecessors, principals, representatives, shareholders,
subsidiaries, and successors and assigns (the “Releasors”), release and forever discharge Salgado and
the Berrio Firm and their respective present, former,
and future agents, affiliates, accountants, attorneys,
directors, employees, officers, parents, predecessors,
principals, representatives, shareholders, subsidiaries,
and successors and assigns (the “Releasees”) from
any and all actions, causes, claims, demands, proceedings, or suits of any kind whatsoever, in law or in equity, for damages or any other relief; monetary or
otherwise, whether known or unknown, direct or indirect, asserted or unasserted, contingent, absolute, or
matured, that the Releasors ever had, now have, or
may ever claim to have against the Releasees, relating
to or arising from the Defendant Currency or the Forfeiture Action; provided, that nothing contained herein
shall be deemed or construed to be a release or discharge by the Releasors of any action, cause, claim,
demand, proceeding, or suit with respect to the obligations and liabilities of the Releasees under this Stipulation.
9. Enforcement of Final Judgment in State
Court Action. Except as expressly set forth herein
(i) nothing contained in this Stipulation nor in any of
SALAZAR LAW’s discussion with representatives or
agents of the Colorado Entities before or after the date
hereof shall be a waiver, limitation, or release of any
rights or remedies available to AnnChery with respect
to enforcement of the Final Judgment entered in favor
of AnnChery in the State Court Action to satisfy any

App. 47
portion of the Final Judgment that remains unpaid after application of funds received by AnnChery in accordance with this Stipulation (all of which rights and
remedies are expressly reserved); (ii) nothing contained
in this Stipulation nor in any of SALAZAR LAW’s discussions with representatives or agents of the Colorado Entities either before or after the date hereof
shall constitute an agreement to adjourn, delay, or refrain from any action to enforce the Final Judgment
entered in the State Court Action by execution, garnishment, or other appropriate process or proceeding
as permitted under applicable law.
10. Covenant of Further Assurances. The
Parties covenant and agree to execute and deliver such
other and further documents and instruments as may
be reasonably necessary, required, or requested by the
other Party or the United States to obtain approval of
or to implement the terms of this Stipulation.
11. Notices. Any and all notices or other communications required or permitted to be given under
any of the provisions of this Stipulation shall be delivered by first class U.S. mail, postage prepaid, and electronic mail as follows:
If to AnnChery Fajas USA, Inc.:
Luis Salazar, Esq.
SALAZAR LAW
2000 Ponce de Leon Boulevard
Penthouse Suite
Coral Gables, Florida 33134
Telephone: (305) 374-4848
Facsimile: (305) 397-1021
Email: Luis@Salazar.Law

App. 48
If to Wilson Colorado, Kurvas Secret
By W, Inc., Miladis Salgado, and/or
the Berrio Firm:
Juan D. Berrio, Esq.
BERRIO & BERRIO, P.A.
2333 Brickell Avenue, Suite A-1
Miami, Florida 33129
Telephone: (305)358-0940
Facsimile: (305)359-9844
Email: jdberrio@hotmail.com
12. Entire Agreement. This Stipulation constitutes the entire agreement of the Parties as to the subject matter addressed herein. Each Party represents
that they have full power and authority to execute and
deliver this Stipulation, to incur and perform the obligations provided for herein, and to compromise the
claims or potential claims referred to herein. The Parties acknowledge that there are no communications or
oral understandings contrary, different, or that in any
away restrict this Stipulation, and that all prior agreements or understandings within the scope of the subject matter of this Stipulation are, upon the execution
and delivery of this Stipulation, superseded, null, and
void. In the event any dispute arises among the Parties
as to the interpretation of this Stipulation, all Parties
shall be considered collectively to be the drafter of this
Stipulation and any rule of construction to the effect
that ambiguities are to be resolved against the drafter
shall be inapplicable.
13. Waiver of Conditions. To the extent that
they are not otherwise required by law, any or all of the
conditions for making this Stipulation effective may be

App. 49
waived by written agreement of the Parties; provided,
however, that the agreement to waive any condition or
to waive a condition in any particular instance shall
not be construed as an agreement to waive any other
condition or to waive a condition in any other instance.
14. Attorneys’ Fees and Costs. The Parties
and their respective counsel acknowledge and agree
that each Party shall bear their own costs, expenses,
and attorneys’ fees arising out of, or connected with, or
related to their respective prosecution or defense of
claims as to the Defendant Currency, as well as those
costs, expenses, and attorneys’ fees incurred in connection with negotiating the terms of this Stipulation,
drafting, revising, and finalizing this Stipulation, and
obtaining court approval of this Stipulation. Notwithstanding the foregoing, nothing contained in this Stipulation is or shall be construed as a waiver, limitation,
or release of the rights of the Colorado Entities, Salgado
or the Berrio Firm to recover attorney fees and costs in
this Forfeiture Action from the United States Government including attorneys’ fees and costs incurred in
negotiating this Stipulation. In any enforcement action
relating to this Stipulation, the prevailing party shall
be entitled to recover from the non-prevailing party its
reasonable costs, reasonable expenses, and reasonable
attorneys’ fees.
15. Jurisdiction and Governing Law. The
Parties agree that any dispute regarding the interpretation, effectuation, and enforcement of the terms
and conditions set forth in this Stipulation shall be
adjudicated in a court of competent jurisdiction in

App. 50
Miami-Dade, Florida. The Parties further agree that
this Court has jurisdiction to dispose of their respective claims to the Defendant Currency, approve this
Stipulation, and that jurisdiction will remain vested in
this Court to enforce the terms of this Stipulation
should it be deemed necessary..
16. Binding Effect. This Stipulation shall be
binding upon and inure to the benefit of the parties and
their respective heirs, successors, assigns, and personal representatives.
17. No Assignment. The Parties expressly represent and warrant that they have not assigned to any
third party any claims being released pursuant to this
Stipulation.
18. Modifications, Amendments, and Waiver.
No waiver, modification, or amendment of the terms of
this Stipulation shall be valid or binding unless made
in writing, signed by the Parties, and then only to the
extent as set forth in such written waiver, modification,
or amendment.
19. Division, Headings, and Counterparts.
The division of this Stipulation into sections and subsections and the use of captions and headings in connection therewith are solely for convenience and shall
have no legal effect in construing the provisions of this
Stipulation. This Stipulation may be executed in two
or more counterparts, each of which will be deemed an
original, but all of which together will constitute one
and the same instrument. The exchange of a fully executed Stipulation (in counterparts or otherwise) by

App. 51
facsimile or by electronic delivery in PDF format shall
be sufficient to bind the parties to the terms and conditions of this Stipulation, subject to entry of an Order
in the Forfeiture Action approving this Stipulation.
20. Parties. This Stipulation is intended to confer rights and benefits only on the Parties to this
Agreement. No entity, person, nor the United States
of America shall have any legally enforceable rights
under this agreement or by reason of its existence. Specifically, this Stipulation is not and shall not be interpreted or construed as creating any rights or benefits
in the United States Government and the United
States Government is not an intended beneficiary in
any way to this Stipulation.
Dated: November 3, 2017

ANNCHERY FAJAS USA, INC.
/s/ Angelica M Riveros
By: Angelica Maria Riveros
Its: President and Authorized
Representative

Dated: November 3, 2017
/s/ Miladis Salgado
Miladis Salgado,
individually
Dated: November 3, 2017

BERRIO & BERRIO, P.A.
/s/ Juan D. Berrio
By: Juan D. Berrio
Its: Partner and Authorized
Representative

App. 52
Dated: November 6, 2017
SALAZAR LAW
By: /s/ Luis Salazar
Luis Salazar
Florida Bar No. 147788
Luis@Salazar.Law
SALAZAR LAW
2000 Ponce de Leon Boulevard
Penthouse Suite
Coral Gables, Florida 33134
Telephone: (305) 374-4848
Facsimile: (305) 397-1021
Counsel for
AnnChery Fajas USA, Inc.
Dated: November 3, 2017
BERRIO & BERRIO, P.A.
By: /s/ Juan D. Berrio
Juan D. Berrio
Florida Bar No. 0236070
jdberrio@hotmail.com
BERRIO & BERRIO, P.A.
2333 Brickell Avenue,
Suite A-1
Miami, Florida 33129
Telephone: (305) 358-0940
Facsimile: (305) 359-9844
Counsel for Wilson Colorado,
Kurvas Secret By W, Inc.,
and Miladis Salgado

App. 53
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 15-cv-23616-GAYLES
UNITED STATES
OF AMERICA,
Plaintiff,
v.
$70,670 IN U.S. CURRENCY,
et al.,
Defendants in rem. /
WILSON COLORADO,
KURVAS SECRET BY W,
and MILADIS SALGADO
Claimants.

/

ORDER DISMISSING CASE
(Filed Aug. 10, 2017)
THIS CAUSE comes before the Court on the
United States of America’s Motion for Summary Judgment on Second and Third Claims of the Verified Complaint, or in the Alternative, Motion for Leave to
Dismiss Action Without Prejudice [ECF No. 110] and
the United States’ Notice of Filing Proposed Final Order of Dismissal [ECF No. 134]. Being fully advised,
the Court makes the following findings:
1. On or about March 31, 2017, the Government
requested that the Court grant summary judgment

App. 54
against Claimants Wilson Colorado, Kurvas Secret by
W, and Miladis Salgado, or in the alternative, for leave
to voluntarily dismiss the above-captioned action without prejudice so that ownership of the Defendants In
Rem can be resolved by Eleventh Judicial Circuit in
and for Miami-Dade County (“Miami-Dade Circuit
Court”). See [ECF No. 110 at 3-4, 21-22]. As set forth
in the Government’s Motion, the Miami-Dade Circuit
Court has entered decisions in a parallel state action,
AnnChery Fajas USA Inc. v. Narvaez-Caicedo, No. 20159539 CA 01 (Eleventh Judicial Circuit, Miami-Dade
County), which effectively render the outcome of this
action moot. [See ECF No. 110 at 2].
2. The Court deems the Government’s Motion to
be a motion to voluntarily dismiss this action under
Rule 41(a)(2) of the Federal Rules of Civil Procedure.
Pursuant to Rule 41(a)(2), “an action may be dismissed
by the plaintiffs request only by court order, on terms
that the court considers proper.” Fed. R. Civ. P. 41(a)(2).
3. On July 31, 2017, the Court entered an Endorsed Order which granted, in part, the Government’s
Motion, and found “good cause to permit the United
States to voluntarily dismiss this action without prejudice based on the parallel state action.” [ECF No.
133]. The Court further ordered that this action be
closed administratively. [Id.]
Accordingly, it is ORDERED AND ADJUDGED
that
Plaintiff United States of America’s Motion for
Summary Judgment on Second and Third Claims of

App. 55
the Verified Complaint, or in the alternative, Motion
for Leave to Dismiss Action Without Prejudice [ECF
No. 110] is GRANTED in part. This action is DISMISSED WITHOUT PREJUDICE, pursuant to Rule
41(a)(2) of the Federal Rules of Civil Procedure.
Should the United States re-file this action, the
Court will award costs to the Claimants pursuant to
Rule 41(d) of the Federal Rules of Civil Procedure.
All other pending motions are DENIED AS
MOOT.
DONE AND ORDERED in Chambers at Miami,
Florida, this 10th day of August, 2017.
/s/ Darrin P. Gayles
DARRIN P. GAYLES
UNITED STATES
DISTRICT JUDGE

App. 56
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 15 V 23616 DPG
UNITED STATES
OF AMERICA,
Plaintiff,
vs.
$70,670 IN U.S. CURRENCY,
$101,629.59 IN U.S. CURRENCY SEIZED FROM
WELLS FARGO BANK CASHIER’S CHECK NO. 6648201039,
AND $30,000 IN U.S. CURRENCY SEIZED FROM
CHASE
BANK CASHIER’S
CHECK NO. 117810368,
Defendants In Rem.

/
2333 Brickell Avenue
Suite A-1
Miami, Florida 33129
Tuesday, September 27, 2016
1:20 p.m. – 3:53 p.m.

DEPOSITION
of
JOSE MANTILIA

App. 57
Taken by the Defendants before ZOILI ALONSO,
Court Reporter in and for the State of Florida at Large,
pursuant to Notice of Taking Deposition issued herein.
APPEARANCES
UNITED STATES ATTORNEY’S OFFICE
NALINA SOMBUNTHAM,
ASSISTANT UNITED STATES ATTORNEY
99 N.E. 4th Street
7th Floor
Miami, Florida 33132
On behalf of Plaintiff.
BERRIO & BERRIO, P.A.
JUAN D. BERRIO, ESQ.,
2333 Brickell Avenue
Suite A-1
Miami, Florida 33129
On behalf of Defendants.
*

*

*

[76] Q Do you have – have you identified any transaction, drug transaction, that generated the $55,000,
the $55,000 that were recovered in this case?
A No.
Q How about the two cashier’s checks. Have you
identified any drug transaction where those – that generated those two cashier’s checks?
A No.
Q Have you identified or associated Wilson Colorado with any Mexican cartel?

App. 58
A No.
Q Have you found any evidence showing that
Wilson Colorado moved $450,000 from drug proceeds
from Spain to Miami?
A No.
Q Have you located any additional stash houses,
in the South Florida area, where Wilson Colorado is
said to store bulk cash or cocaine?
A No.
Q

Drug money?

A No.
Q Have you identified any stash house location
where Wilson Colorado is said to maintain bulk cash
or drugs, in the South Florida area?
[77] A No.
Q Have you identified any money laundering
transaction where the seized cash was involved in?
A No.
Q How about any money laundering transaction
where the two cashier’s checks were involved in, or derived from?
A No.
Q No money laundering transaction that you can
identify these cashier’s checks from?

App. 59
A I have not.
Q Have you identified any merchandise stolen by
Claimant Colorado or Kurvas Secret by W, from Ann
Cherry, like any merchandise that he stole from there?
A I’m sorry?
Q

Identified or located?

A I haven’t.
Q Have you identified any merchandise that
Claimant Colorado and Kurvas Secret by W obtained
through theft, from Ann Cherry?
A No.
Q Have you identified any merchandise that
they obtained through fraud from Ann Cherry?
A I have not identified.
*

*

*

[90] A Yes.
Q

When?

A I don’t remember the exact date. But it was at
the U.S. Attorney’s Office.
Q
tion?

Was that before or after she gave her deposi-

A That was the deposition.
Q

That was at the deposition?

A Yes, sir.

App. 60
Q So aside from that deposition you haven’t conducted any interviews or other meetings with her?
A Correct.
Q Have you conducted any surveillance, during
the past year and a half on Wilson Colorado?
A No, sir.
Q Do you have any reason to believe that William Colorado is a narcotics trafficker, who works out
of Spain; any evidence that would identify Wilson Colorado as a narcotics trafficker out of Spain?
A No.
Q Any evidence that Wilson Colorado is a money
launderer for the Mexican cartel?
A No.
Q Any evidence that Wilson Colorado is a [91]
thief that stole merchandise from Ann Cherry?
A If I have any evidence – I don’t have any evidence that he stole anything.
Q Do you have any evidence that Wilson Colorado defrauded Ann Cherry, in any way?
A I don’t have any evidence.
Q Have you looked at all the documentation provided by Wilson Colorado to show where his monies –
where he says his monies originated from, the monies
that were seized?

App. 61
A I have looked at some financial documents. I
have looked at spreadsheets.
Q Does it seen that money came from selling girdles and waist cinchers, and things of that nature?
A I’m sorry?
Q Does it look like the cashier’s checks derive
from selling this product that he says he sells, through
Kurvas Secret by W?
A I’m not a financial expert.
Q Do you have any evidence that, that money
does not derive from the sale of merchandise through
Kurvas Secret by W, evidence that, that money does
not come from what he says it comes from, which is the
sale of merchandise through Kurvas Secret?
[92] A No.
Q So everything seems to indicate that those
monies came from his business, Kurvas Secret by W?
A It’s hard to say, at this point.
Q Are you satisfied that the money did not come
drug dealing, by Wilson Colorado, the money that was
seized from his home and the cashier’s checks?
A At this point I don’t have any evidence.
Q That it comes from drug dealing or money
laundering or theft?
A That it comes from drug dealing.

App. 62
Q You don’t have any evidence that it comes from
money laundering?
A No.
Q And you don’t have any evidence that it canes
from his theft from Ann Cherry?
A We have received evidence that there is theft
from Ann Cherry. But like I said, I don’t – I don’t know
specifically what transactions match up with which.
I’m still reviewing that.
Q But you don’t know if the theft was by Wilson
Colorado?
A I don’t know who stole the products.
*

*

*

App. 63
JUNE 1, 2016
Cashing In? Small business owner out $200K after DEA raid
Craig Stevens | Robin Cross
WSVN – Forty-two years ago, Florida lawmakers
passed a law intended to punish drug dealers and
crooks by taking away their assets. In a few weeks,
that law is being overhauled . . . after many people
started to ask who has been policing the police. Craig
Stevens takes a look in the special report “Cashing In?”
May 11th, 2015 was a quiet, sunny morning. Wilson
Colorado’s 14-year-old daughter was at the kitchen table doing homework. He was at the computer filling out
customer orders for his thriving business.
There was a knock at the front door.
Wilson Colorado, small business owner: “Once I opened
the door, they come inside, they throw me in the floor.
One of the guys put his gun to my head.”
It was chaotic. Wilson was confused.
Wilson Colorado: “They didn’t give me no answer, nothing like that.”
The feds raided Wilson’s house, looking for cash and
drugs after a confidential informant claimed Wilson
was crooked.
The DEA confiscated $200,000 in cash and checks,
money that belonged to his business.

App. 64
Wilson Colorado: “Is it possible that they take all your
dreams away in a second?”
Wilson was not arrested and has never been charged
with a crime. But the feds kept his money, and now he
must sue them to get it back.
The Civil Asset Forfeiture law gives police the authority to take someone’s cash and assets if they suspect
criminal activity.
Justin Pearson, Institute for Justice, Miami: “This is
not a rare occurrence. It might even be a majority of
the time where people have never been arrested in civil
forfeiture, and they lose their money anyway.”
Justin Pearson with the Institute for Justice in Miami
says a big problem with the law is that it allows police
agencies to keep some of the money they seize.
Justin Pearson: “It’s this perverse incentive of being allowed to keep the money for themselves that causes
the police to chase money instead of chasing criminals.”
And, Pearson says, it’s not chump change.
Justin Pearson: “Police are taking over $5 billion from
Americans every year. That’s more than burglars take
from Americans every year.”
We looked at the numbers. Twenty-five South Florida
police agencies collected more than $6.1 million in
2015. The money paid for things like bicycles, an animal rescue facility and a police dog.

App. 65
Former DEA Agent Robert Crispin has been on thousands of raids and says cops do their best to get it right.
Robert Crispin: “The government agent or the local law
enforcement agent is only as good as the information
he has. The agent has to be trained enough to show up
on a situation, meet with people and find out if what
they were told is actually really happening.”
After two years of haggling, lawmakers agreed to overhaul the law.
Justin Pearson: “Thankfully, the Florida legislature realized that reforms were needed, and they did these
reforms in multiple ways.”
Now agencies are required to make an arrest before
seizing most property, and cops are required to account
for every penny they seize.
Pearson thinks the changes are a step in the right direction.
Justin Pearson: “But they won’t take care of all the
problems. Frankly, civil forfeiture shouldn’t exist.”
As for Wilson, a year after his horrifying ordeal, he’s
not giving up.
Wilson Colorado: “I have been working all my life since
I come to this country, and I’m going to fight until the
end.”
Wilson is suing the DEA to get his money back. He
thinks agents were given a false tip by a disgruntled

App. 66
business associate, who was trying to get revenge on
him.
Copyright 2019 Sunbeam Television Corp. All rights reserved. This material may not be published, broadcast,
rewritten or redistributed.

App. 67
H.R. REP. 106-192, H.R. Rep. No. 192, 106TH Cong.,
1ST Sess. 1999, 1999 WL 406892 (Leg.Hist.)
P.L. 106-185, CIVIL ASSET
FORFEITURE REFORM ACT
HOUSE REPORT NO. 106–192
June 18, 1999
Mr. Hyde, from the Committee on the Judiciary,
submitted the following
REPORT
together with
DISSENTING VIEWS
[To accompany H.R. 1658]
The Committee on the Judiciary, to whom was referred the bill (H.R. 1658) to provide a more just and
uniform procedure for Federal civil forfeitures, and for
other purposes, having considered the same, reports favorably thereon with amendments and recommends
that the bill as amended do pass.
CONTENTS
Page
The Amendment ..................................................

2

Purpose and Summary ........................................

2

Background and Need for the Legislation...........

2

Hearings .............................................................. 19
Committee Consideration .................................... 20
Vote of the Committee ......................................... 20

App. 68
Committee Oversight Findings ........................... 20
Committee on Government Reform Findings ..... 21
New Budget Authority and Tax Expenditures .... 21
Committee Cost Estimate .................................... 21
Constitutional Authority Statement ................... 21
Section-by-Section Analysis and Discussion ....... 21
Changes in Existing Law Made by the Bill, as
Reported ........................................................... 27
Dissenting Views ................................................. 34
[2] The amendments (stated in terms of the page
and line numbers of the introduced bill) are as follows:
Page 6, line 7, strike “receive” and insert “acquired”.
Page 6, line 8, insert “or inheritance” after
“probate”.
Page 6, line 9, strike “receipt” and insert “acquisition”.
Page 10, beginning on line 17 strike “CONFORMING” and all that follows through
“AND” on line 18 and insert “AMENDMENT”.
Page 10, strike line 20 and all that follows
through page 11, line 13.
Page 11, line 14, strike “(b) Controlled Substances Act.–”.

App. 69
PURPOSE AND SUMMARY
H.R. 1658, as reported by the Committee, would
create general rules relating to federal civil forfeiture
proceedings designed to increase the due process safeguards for property owners whose property has been
seized.
BACKGROUND AND
NEED FOR THE LEGISLATION
I.

Antecedents of Civil Asset Forfeiture

Civil asset forfeiture is based on the legal fiction
that an inanimate object can itself be “guilty” of wrongdoing, regardless of whether the object’s owner is
blameworthy in any way. This concept descends from a
medieval English practice whereby an object responsible for an accidental death was forfeited to the king,
who “would provide the [proceeds, the ‘deodand’] for
masses to be said for the good of the dead man’s soul
. . . or [would] insure that the deodand was put to charitable uses.”1
The immediate ancestor of modern civil forfeiture
law is English admiralty law. As Oliver Wendell
Holmes noted, “a ship is the most living of inanimate
things. . . . [E]very one gives a gender to vessels. . . . It
is only by supposing the ship to have been treated as if
endowed with personality, that the arbitrary seeming

1

Calero-Toledo v. Pearson Yacht Leasing Co., 416 U.S. 663,
681 n.16 (1974).

App. 70
peculiarities of the maritime law can be made intelligible.”2
Justice Holmes used this example:
A collision takes place between two vessels,
the Ticonderoga and the Melampus, through
the fault of the Ticonderoga alone. That ship
is under a lease at the time, the lessee has his
own master in charge, and the owner of the
vessel has no manner of control over it. The
owner, therefore, is not to blame, and he cannot even be charged on the ground that the
damage was done by his servants. He is free
from personal liability on elementary principle. Yet it is perfectly settled that there is a
lien on his vessel for the amount of the damage done, and this [3] means that the vessel
may be arrested and sold to pay the loss in
any admiralty court whose process will reach
her. If a livery-stable keeper lets a horse and
wagon to a customer, who runs a man down by
careless driving, no one would think of claiming a right to seize the horse and the wagon.3
Holmes then provided the rationale:
The ship is the only security available in dealing with foreigners, and rather than send
one’s own citizens to search for a remedy
abroad in strange courts, it is easy to seize the
vessel and satisfy the claim at home, leaving

2
3

Holmes, Jr., The Common Law 25 (1881).
Id.

App. 71
the foreign owners to get their indemnity as
they may be able.4
II.

Federal Civil Asset Forfeiture Statutes

Soon after the creation of the United States, ships
and cargo violating the customs laws were made subject to federal civil forfeiture.5 Such forfeiture was vital
to the federal treasury for, at that time, customs duties
constituted over 80% of federal revenues.6
Today, there are scores of federal forfeiture statutes, both civil and criminal.7 They range from the forfeiture of animals utilized in cock-fights and similar
enterprises,8 to cigarettes seized from smugglers9 to
property obtained from violations of the Racketeer Influenced and Corrupt Organizations Act.10
The Comprehensive Drug Abuse Prevention and
Control Act of 1970 made civil forfeiture a weapon in
the war against drugs. The Act provides for the forfeiture of:

4

Id. at 26.
See Act of July 31, 1789, secs. 12, 36, 1 Stat. 39, 47.
6
See Piety, Scorched Earth: How the Expansion of Civil Forfeiture Doctrine Has Laid Waste to Due Process, 45 U. Miami L.
Rev. 911, 940 n.137 (1991).
7
Criminal forfeiture requires an antecedent criminal conviction of the property owner.
8
See 7 U.S.C. S 2156.
9
See 18 U.S.C. S 2344.
10
See 18 U.S.C. S 1963.
5

App. 72
[a]ll controlled substances which have been
manufactured, distributed, dispensed, or acquired in violation of this subchapter . . . [a]ll
raw materials, products, and equipment of
any kind which are used, or intended for use,
in manufacturing . . . delivering, importing, or
exporting any controlled substance[s] . . . in
violation of this subchapter . . . [a]ll property
which is used, or intended for use, as a container for [such controlled substances, raw
materials, products or equipment] . . . [a]ll
conveyances, including aircraft, vehicles or
vessels, which are used, or intended for use, to
transport, or in any manner to facilitate the
transportation, sale, receipt, possession, or
concealment [of such controlled substances,
raw materials, products or equipment].11
In 1978, the Act was amended to provide for civil
forfeiture of:
[a]ll moneys, negotiable instruments, securities, or other things of value furnished or intended to be furnished by any person in
exchange for a controlled substance in violation of this subchapter, all proceeds traceable
to such an exchange, and all moneys, negotiable [4] instruments, and securities used or intended to be used to facilitate any violation of
this subchapter. . . .”12

11

21 U.S.C. S 881(a).
Section 301(a)(1) of the Psychotropic Substances Act of
1978 (found at 21 U.S.C. S 881(a)(6)).
12

App. 73
In 1984, the Act was amended to provide for the
forfeiture of:
[a]ll real property . . . which is used, or intended to be used, in any manner or part, to
commit, or to facilitate the commission of, a
violation of this subchapter punishable by
more than one year’s imprisonment. . . .13
III. The Success – and Abuse – of Forfeiture
Prior to 1984, the monies realized from federal forfeitures were deposited in the general fund of the
United States Treasury. Now they primarily go to the
Department of Justice’s Assets Forfeiture Fund14 and
the Department of the Treasury’s Forfeiture Fund.15
The money is used for forfeiture-related expenses and
various law enforcement purposes.16
In recent years, enormous revenues have been
generated by federal forfeitures. The amount deposited
in Justice’s Assets Forfeiture Fund (from both civil and
criminal forfeitures) increased from $27 million in fiscal year 1985 to $556 million in 1993 and then decreased to $449 million in 1998.17 Of the $338 taken in
13

Section 306(a) of the Comprehensive Crime Control Act of
1984 (found at 21 U.S.C. S 881(a)(7)).
14
See 28 U.S.C. S 524(c)(4)).
15
See 31 U.S.C. S 9703.
16
See 28 U.S.C. S 524(c)(1)).
17
See Office of National Drug Control Policy, National Drug
Control Strategy: Budget Summary 1999, at 107 (hereinafter
cited as “National Drug Control Strategy”); Civil Asset Forfeiture
Reform: Hearing Before the House Comm. on the Judiciary, 105th

App. 74
1996, $250 million was in cash and $74 million was in
proceeds of forfeitable property; $163 million of the total was returned to state and local law enforcement
agencies who helped in investigations.18 As of the end
Cong., 1st Sess. 116 (1997) (statement of Stefan Cassella) (hereinafter cited as “1997 Hearing”); U.S. Dept. Of Justice, Asset Forfeiture Fact Sheet (1993); Annual Report of the Dept. Of Justice
Asset Forfeiture Program: 1993, at 15.
18
See 1997 Hearing at 116 (statement of Stefan Cassella).
Under “adoptive forfeiture”, state and local law enforcement officers seize property and then bring it to a federal agency for forfeiture (provided that the property is forfeitable under federal law).
The federal government then returns as much as 80% of the net
proceeds to the state or local agency that initiated the case. Also,
state and local law enforcement agencies that have cooperated in
federal law enforcement actions often receive a percentage of the
net proceeds.
The Committee is concerned about two aspects of adopted forfeiture. The first is that since property or funds returned to state
or local law enforcement agencies through adoptive forfeiture can
be kept by these entities, the process can be used to bypass provisions of state laws or state constitutions that dictate that property
forfeited (pursuant to state forfeiture provisions) should be used
for non-law enforcement purposes such as elementary and primary education. A recent series in the Kansas City Star highlighted this problem in Missouri. See Karen Dillon, Missouri
Police Find Ways to Keep Cash Meant for Schools, Kansas City
Star, Jan. 2, 6, 11, 20, 21, Feb. 5, 9, 10, 12, 27, Mar. 14, 25, Apr.
23, May 7, 8, 1999. Second, while the property returned through
adoptive forfeiture must be used for law enforcement purposes,
state and local governing bodies do not exercise their normal oversight role over how the property is used since it is not appropriated through the normal legislative process. Consequently, there
have been many disturbing reports of state and local law enforcement using forfeited property, or the proceeds from its sale, for
unnecessary or needlessly extravagant expenditures and uses.
See, e.g., Hyde, Forfeiting Our Property Rights: Is Your Property
Safe from Seizure? 37 (1995) (hereinafter cited as “Forfeiting Our

App. 75
of 1998, a total of 24,903 seized assets valued at $1 billion were on deposit – 7,799 cash seizures valued at
$349 million, [5] 1,181 real properties valued at $205
million, 45 businesses valued at $49 million, and
15,878 other assets valued at $398 million.19
So, federal forfeiture has proven to be a great monetary success. And, as former Attorney General Richard Thornburgh said: “[I]t is truly satisfying to think
that it is now possible for a drug dealer to serve time
in a forfeiture-financed prison, after being arrested by
agents driving a forfeiture-provided automobile, while
working in a forfeiture-funded sting operation.”20
The purposes of federal forfeiture were set out by
Stefan Cassella, Assistant Chief, Asset Forfeiture and
Money Laundering Section, Criminal Division, U.S.
Department of Justice, in testimony before this Committee:21
Asset forfeiture has become one of the most
powerful and important tools that federal law
enforcement can employ against all manner of
Property Rights”). The Committee plans to continue to closely
monitor these two issues. In addition, the Committee urges state
and local law enforcement agencies to use forfeited property only
for legitimate purposes and urges local communities to engage in
oversight over the use by their law enforcement agencies of forfeited property (while not unduly limiting the flexibility of law enforcement).
19
See National Drug Control Strategy at 108.
20
Richard Thornburgh, Address Before the Cleveland City
Club Forum Luncheon (May 11, 1990).
21
1997 Hearing at 112.

App. 76
criminals and criminal organizations – from
drug dealers to terrorists to white collar criminals who prey on the vulnerable for financial
gain. . . .
Federal law enforcement agencies use the forfeiture laws for a variety of reasons, both
time-honored and new. . . . [They] allow the
government to seize contraband – property
that it is simply unlawful to possess, such as
illegal drugs, unregistered machine guns, pornographic materials, smuggled goods and
counterfeit money.
Forfeiture is also used to abate nuisances and
to take the instrumentalities of crime out of
circulation. If drug dealers are using a “crack
house” to sell drugs to children as they pass
by on the way to school, the building is a danger to the health and safety of the neighborhood. Under the forfeiture laws, we can shut
it down. If a boat or truck is being used to
smuggle illegal aliens across the border, we
can forfeit the vessel or vehicle to prevent its
being used time and again for the same purpose. The same is true for an airplane used to
fly cocaine from Peru into Southern California, or a printing press used to mint phony
$100 bills.
The government also uses forfeiture to take
the profit out of crime, and to return property
to victims. No one has any right to retain the
money gained from bribery, extortion, illegal
gambling, or drug dealing. With the forfeiture
laws, we can separate the criminal from his

App. 77
profits – and any property traceable to it –
thus removing the incentive others may have
to commit similar crimes tomorrow. And if the
crime is one that has victims – like carjacking
or fraud – we can use the forfeiture laws to
recover the property and restore it to the owners far more effectively than the restitution
statutes permit.
Finally, forfeiture undeniably provides both a
deterrent against crime and a measure of
punishment for the criminal. Many criminals
fear the loss of their vacation homes, fancy
cars, businesses and bloated bank accounts
far more than the prospect of a jail sentence.
[6] However, a number of years ago, as forfeiture
revenues were approaching their peaks, some disquieting rumblings were heard. The Second Circuit stated
that “[w]e continue to be enormously troubled by the
government’s increasing and virtually unchecked use
of the civil forfeiture statutes and the disregard for due
process that is buried in those statutes.”22 Newspaper
and television exposes appeared alleging that apparently innocent property owners were having their
property taken by federal and local law enforcement
officers with nothing that could be called due process.23
22

United States v. All Assets of Statewide Auto Parts, Inc.,
971 F.2d 896, 905 (2nd Cir. 1992).
23
See, e.g., Brazil & Berry, Tainted Cash or Easy Money?,
Orlando Sentinel, June 14–17, 1992; Schneider & Flaherty, Presumed Guilty: The Law’s Victims in the War on Drugs, Pitt.
Press, Aug. 11–16, 1991; Poor & Rose, Hooked on the Drug War,
St. Louis Post-Dispatch, Apr. 28-May 5, 1991, Oct. 6–11, 20, 1991.

App. 78
Congress investigated these charges through a series of hearing held by the House Committee on Government Operations’ Subcommittee on Legislation and
National Security under then-Chairman John Conyers24 and then by this Committee.25
The stories of two of the witnesses at the Judiciary
Committee hearings provide a sampling of the types of
abuses that have surfaced. Willie Jones (and his attorney E.E. (Bo) Edwards III) testified before the Judiciary Committee on July 22, 1996. Mr. Jones’ testified as
follows:26
[Chairman] Hyde: Would you please state
your name and where you live.
Mr. Jones: My name is Willie Jones. I live in
Nashville, Tennessee.
1Mr. Hyde: Very well, sir. Would you tell us
your story involving asset forfeiture.
Mr. Jones: Yes. On February 27, 1991, I went
to the Metro Airport to board a plane for

24

See Review of Federal Asset Forfeiture Program: Hearing
Before the Subcomm. on Legislation and National Security of the
House Comm. on Government Operations, 103rd Cong., 1st Sess.
(1993); Department of Justice Asset Forfeiture Program: Hearing
Before the Subcomm. on Legislation and National Security of the
House Comm. on Government Operations, 102nd Cong., 2nd Sess.
(1992).
25
See 1997 Hearing; Civil Asset Forfeiture Reform Act:
Hearing Before the House Comm. on the Judiciary, 104th Cong.,
2nd Sess. (1996) (hereinafter cited as “1996 Hearing”).
26
1996 Hearing at 12–14.

App. 79
Houston, TX, to buy nursery stock. I was
stopped in the airport after paying cash for
my ticket.
Mr. Hyde: What business are you engaged in
or were you engaged in?
Mr. Jones: I am engaged in landscaping.
Mr. Jones: I paid cash for a round-trip ticket
to Houston, TX, and I was detained at the
ticket agent. The lady said no one ever paid
cash for a ticket. And as I went to the gate,
which was gate 6, to board the plane, at that
time three officers came up to me and called
me by my name, and asked if they could have
a word with me, and told me that they had
reason to believe that I was carrying currency,
had a large amount of currency, drugs. So at
that time—
Mr. Hyde: Proceeds of a drug transaction;
you had money that was drug money then,
that’s what they charged you with?
Mr. Jones: Yes, sir.
Mr. Hyde: Were you carrying a large amount
of cash?
Mr. Jones: Yes, sir. I had $9,000.
Mr. Hyde: $9,000 in cash. Why was that, sir?
Was your business a cash business?
Mr. Jones: Well, it was going to be if I had
found the shrubbery that I liked, by me being
– going out of town, and the nursery business

App. 80
is kind of like the cattle business. You can always do better with cash money.
Mr. Hyde: They would rather be paid in cash
than a check, especially since you are from out
of town?
Mr. Jones: That is correct.
Mr. Jones: So we proceeded to go out of the
airport. . . . I was questioned about had I ever
been involved in any drug-related activity,
and I told them, no, I had not. So they told me
I might as well tell the truth because they was
going to find out anyway. So they ran it
through on the computer after I presented my
driver’s license to them, which everything was
– I had – it was all in my name. And he ran it
through the computer, and one officer told the
other one, saying, he is clean. But [7] instead,
they said that the dogs hit on the money. So
they told me at that time they was going to
confiscate the money.
Mr. Hyde: They determined from the dog’s
activities that there were traces of drugs on
the money?
Mr. Jones: That is what they said.
Mr. Hyde: That is what they claimed?27
27

A federal court later found that “[t]he presence of trace
narcotics on currency does not yield any relevant information
whatsoever about the currency’s history. A bill may be contaminated by proximity to a large quantity of cocaine, by its passage
through the contaminated sorting machines at the Federal Reserve Banks, or by contact with other contaminated bills in the

App. 81
Mr. Jones: Yes, sir.
Mr. Hyde: Therefore, they kept the money?
Mr. Jones: They kept the money.
Mr. Hyde: Did they let you go?
Mr. Jones: They let me go.
Mr. Hyde: Were you charged with anything?
Mr. Jones: No. I asked them to, if they would,
if they would count the money and give me a
receipt for it. They refused to count the money,
and they took the money and told me that I
was free to go, that I could still go on to Texas
if I wanted to; that the plane had not left.
Mr. Hyde: Of course, your money was gone.
You had no point in going to Texas if you can’t
buy shrubs.
Mr. Jones: No.
Willie Jones did not challenge the forfeiture under
the normal mechanism provided by law28 because he

wallet or at the bank.” Jones v. U.S. Drug Enforcement Administration, 819 F. Supp. 698, 720 (M.D. Tenn. 1993) (citation omitted).
28
The money was seized pursuant to 21 U.S.C. S 881(a)(6),
under which “[a]ll moneys . . . furnished or intended to be furnished by any person in exchange for a controlled substance . . . ”
are subject to civil forfeiture. If Jones challenged the forfeiture,
he would have the burden of proving by a preponderance of the
evidence that the currency was not subject to forfeiture, provided
that the government first showed probable cause that the currency was subject to forfeiture. See 19 U.S.C. S 1615.

App. 82
could not come up with the 10% cost bond required.29
He instead filed suit in federal district court alleging
that his Fourth Amendment right to be secure against
unreasonable searches and seizures had been violated.30 The court determined that the “frisk” which
produced the $9,000 in currency was an unconstitutional search,31 and that the seizure of the currency
was undertaken with no probable cause and therefore
an unconstitutional seizure.32 The court did determine
that there was “insufficient proof that the officers’ investigation of Mr. Jones [who is African-American]
himself was racially motivated[,]” but that other investigations were so motivated.33
The court’s final comments gave rise for pause:
The Court also observes that the statutory
scheme as well as its administrative implementation provide substantial opportunity for
abuse and potentiality for corruption. [Drug
Interdiction Unit] personnel encourage airline employees as well as hotel and motel employees to report “suspicious” travelers and
reward them with a percentage of the forfeited proceeds. The forfeited monies are divided and distributed by the Department of
29

See 1996 Hearing at 15 (statement of E.E. (Bo) Edwards
III). See 19 U.S.C. S 1608.
30
Jones, 819 F. Supp. at 716.
31
See id. at 718.
32
See id. at 721. Probable cause is “a reasonable ground for
belief of guilt, supported by less than prima facie proof but more
than mere suspicion.” Id. (citation omitted).
33
See id. at 723.

App. 83
Justice among the Metropolitan Nashville
Airport and the Metropolitan Nashville Police
Department partners in the DIU and itself. As
to the local agencies, these monies are “offbudget” in that there is no requirement to account to legislative [8] bodies for its receipt
or expenditure. Thus, the law enforcement
agency has a direct financial interest in the
enforcement of these laws. The previous history in this country of an analogous kind of
financial interest on the part of law enforcement officers – i.e., salaries of constables,
sheriffs, magistrates, etc., based on fees and
fines – is an unsavory and embarrassing scar
on the administration of justice. The obviously
dangerous potentiality for abuse extant in the
forfeiture scheme should trigger, at the very
least, heightened scrutiny by the courts when
a seizure is contested.34
Mr. Jones’s case typifies the kind that this Committee is gravely concerned about – except that this
time there was a happy ending. Individuals very likely
innocent of any crime justifying forfeiture meet some
sort of “drug courier” profile [here, by buying an airplane ticket with cash] and are subject to a search or
investigation. If they have large sums of cash, it is
seized. They may not be tried for a crime (Civil forfeiture requires no related criminal conviction or even
criminal charge. However, if there is a prosecution, acquittal does not bar a subsequent forfeiture action. The
government need only show probable cause for the
34

Id. at 724.

App. 84
seizure to justify a civil forfeiture.). To get their property back, owners have to overcome tremendous procedural hurdles such as posting a cost bond and having
to prove their property was “innocent” (once probable
cause has been shown). The abuse seems even worse
under certain state forfeiture laws.35
Billy Munnerlyn testified before the Judiciary
Committee on June 11, 1997. Following is a short summary of his experience with federal civil forfeiture
laws:
For years Billy Munnerlyn and his wife Karon
owned and operated a successful air charter
service out of Las Vegas, Nevada. In October
1989, Mr. Munnerlyn was hired for a routine
job – flying Albert Wright, identified as a
“businessman,” from Little Rock, Arkansas, to
Ontario, California. When the plane landed,
DEA agents seized Mr. Wright’s luggage and
the $2.7 million inside. Both he and Mr. Munnerlyn were arrested. The DEA confiscated
the airplane, the $8,500 charter fee for the
flight, and all of Munnerlyn’s business records. Although drug trafficking charges
against Mr. Munnerlyn were quickly dropped
for lack of evidence, the government refused
to release his airplane. (Similar charges
against Mr. Wright – who, unbeknownst to
Munnerlyn, was a convicted cocaine dealer –
were eventually dropped as well.) Mr. Munnerlyn spent over $85,000 in legal fees trying
to get his plane back, money raised by selling
35

See Forfeiting Our Property Rights at 38–40.

App. 85
his three other planes. A Los Angeles jury decided his airplane should be returned because
they found Munnerlyn had no knowledge
Wright was transporting drug money – only
to have a U.S. district judge reverse the jury
verdict. Munnerlyn eventually was forced to
settle with the government, paying $7,000 for
the return of his plane. He then discovered
DEA agents had caused about $100,000 of
damage to the aircraft. Under federal law the
agency cannot be held liable for damage. [9]
Unable to raise enough money to restart his
air charter business, Munnerlyn had to declare personal bankruptcy. He is now driving
a truck for a living.36
For Mr. Munnerlyn, there was no happy ending.
Neither the state of the law nor its usage have improved in recent years. Since 1974, many observers assumed that the Constitution mandated an “innocent
owner” defense to a civil forfeiture. However, in 1996,
the Supreme Court in Bennis v. Michigan37 ruled that
the defense was mandated by neither the due process
clause of the Fourteenth Amendment (and presumably
that of the Fifth Amendment) nor the just compensation clause of the Fifth Amendment. The Court found
that “a long and unbroken line of cases holds that an
owner’s interest in property may be forfeited by reason
36

Id. at 12 (based on reporting by Schneider & Flaherty &
Miniter, “Property Seizures on Trial,” Insight, Feb. 22, 1993, at
10, 33).
37
516 U.S. 442 (1996).

App. 86
of the use to which the property is put even though the
owner did not know that it was to be put to such use.”38
The dissenting justices in Bennis argued that:
The logic of the Court’s analysis would permit
the States to exercise virtually unbridled
power to confiscate vast amounts of property
where professional criminals have engaged in
illegal acts. Some airline passengers have marijuana cigarettes in their luggage; some hotel
guests are thieves; some spectators at professional sports events carry concealed weapons;
and some hitchhikers are prostitutes. The
State surely may impose strict obligations on
the owners of airlines, hotels, stadiums, and
vehicles to exercise a high degree of care to
prevent others from making illegal use of
their property, but neither logic nor history
supports the Court’s apparent assumption
that their complete innocence imposes no constitutional impediment to the seizure of their
property simply because it provided the locus
for a criminal transaction.39
And, Justice Thomas stated in his concurrence
that, “[i]mproperly used, forfeiture could become more
like a roulette wheel employed to raise revenue from
innocent but hapless owners whose property is unforeseeably misused, or a tool wielded to punish those who

38

Id. at 446.
Id. at 458–59 (Stevens, J., Souter, J., and Breyer, J., dissenting).
39

App. 87
associate with criminals, than a component of a system
of justice.”40
The Seventh Circuit recently issued a decision
containing a stinging rebuke of the federal government’s use of civil forfeiture. United States v. $506,231
in U.S. Currency41 involved the Congress Pizzeria in
Chicago. In 1997, the court ordered the return to Anthony Lombardo, the owner and proprietor of this family-owned business, of over $500,000 in currency
improperly seized by police from the restaurant in
1993. The court found the need to remind a U.S. Attorney that “the government may not seize money, even
half a million dollars, based on its bare assumption
that most people do not have huge sums of money lying
about, and if they do, they must be involved in narcotics trafficking or some other sinister [10] activity.”42
The court also found the need to say that “[w]e are certainly not the first court to be ”enormously troubled by
the government’s increasing and virtually unchecked
use of the civil forfeiture statutes and the disregard for
due process that is buried in those statutes.”‘43
Civil asset forfeiture does not just impact civil liberties and property rights. It can work at total cross
purposes with the professed public policy goals of the
federal government. Few will argue against the
40

Id. at 456 (Thomas, J., concurring).
125 F.3d 442 (7th Cir. 1997).
42
Id. at 454 (emphasis in original).
43
Id., quoting U.S. v. All Assets of Statewide Auto Parts, 971
F.2d at 905.
41

App. 88
proposition that more private investment needs to be
made in our inner cities in order to offer residents hope
of a better life. How, then, would anyone explain the
actions in 1998 of the U.S. Attorney’s Office in Houston
in seizing a Red Carpet Motel in a high-crime area of
the city?44 There were no allegations that the hotel
owners participated in any crimes. Indeed, motel personnel called the police to the establishment dozens of
times to report suspected drug-related activity in the
motel’s rooms by some of its overnight guests. However,
the government claimed the hotel deserved to be seized
and forfeited because management had failed to implement all of the “security measures” dictated by law enforcement officials, such as raising room rates. This
failure to agree with law enforcement about what security measures were affordable and wise from a legitimate business-operating standpoint was deemed to be
“tacit approval” of illegality, subjecting the motel to forfeiture. The U.S. Attorney bragged to the press that he
envisioned using current civil asset forfeiture laws in
the same fashion against similar types of legitimate
commercial enterprises, such as apartment complexes.
A Houston Chronicle editorial pointed to the absurdity and danger of this government forfeiture theory against legitimate business: “Perhaps another

44

See Deborah Tedford, Hotel Owners Agree to Beef Up Security, Houston Chron., July 18, 1998; Steve Brewer, Seizure of
Hotel Sets Precedent, Houston Chron., March 7, 1998; Deborah
Tedford, No Vacancy for Drug Dealers: Feds Seize Hotel, Houston
Chron., Feb. 18, 1998.

App. 89
time, the advice will be to close up shop altogether.”45
The editorial then correctly noted that:
More than due to shortcomings of the motel
owners, this situation appears to be the result
of ineffective police work and of . . . prosecutors’ inability to build cases against scofflaws
operating in an open drug market.
The prosecution’s action in this case is contrary not only to the reasonable exercise of
government, but it contradicts governmentsupported enticements to businesses that locate in areas where high crime rates have
thwarted development. Good people should
not have to fear property seizure because they
operate business in high-crime areas. Nor
should they forfeit their property because
they have failed to do the work of law enforcement.
. . . . This case demonstrates clearly the need
for lawmakers to make a close-re-examination
of federal drug forfeiture laws.
After much bad publicity, the government dropped
its forfeiture proceedings after exacting a written
“agreement” with the motel [11] owners as to certain
security measures that the owners would undertake.
The motel owners had lost their motel to the government’s seizure for several months, suffered a significant loss of good business reputation, and were forced
to spend substantial amounts of time and money on
45

U.S. Attorney Here Overstepped Bounds in Motel Seizure,
Houston Chron., Mar. 12, 1998.

App. 90
hiring an attorney and defending against the government’s forfeiture action, which should never have been
undertaken in the first place. The resolution does not
detract from the fact that business owners who dare to
invest in high crime areas are at the complete mercy
of our civil asset forfeiture laws and the predilections
of prosecutors.
IV.

H.R. 1658, the Civil Asset Forfeiture Reform Act

H.R. 1658 is designed to make federal civil forfeiture procedures fair to property owners and to give
owners innocent of any wrongdoing the means to recover their property and make themselves whole after
wrongful government seizures. H.R. 1658 amends the
rules governing all civil forfeitures under federal law
except those contained in the Tariff Act of 1930 or the
Internal Revenue Code of 1986.
The Eight Core Reforms of H.R. 1658
1.

BURDEN OF PROOF

When a property owner goes to federal court to
challenge the seizure of property under a federal civil
forfeiture law, the government is required to make an
initial showing of probable cause that the property is
subject to forfeiture. Under current law, the property
owner must then establish by a preponderance of the
evidence that the property is not subject to forfeiture.46
The government can meet its burden without having
46

See 19 U.S.C. S 1615.

App. 91
obtained a criminal conviction or even having charged
the owner with a crime. Since the government doesn’t
need the proof beyond a reasonable doubt required for
a criminal conviction, even the acquittal of the owner
does not bar forfeiture of the property allegedly used
in a crime. The probable cause the government needs
is the lowest standard of proof in the criminal law. It is
the same standard required to obtain a search warrant
and can be established by evidence with a low indicia
of reliability such as hearsay.47
Allowing property to be forfeited upon a mere
showing of probable cause can be criticized on many
levels:
[T]he current allocation of burdens and standards of proof requires that the [owner] prove
a negative, that the property was not used in
order to facilitate illegal activity, while the
government must prove almost nothing. This
creates a great risk of erroneous, irreversible
deprivation. “The function of a standard of
proof, as that concept is embodied in the Due
Process Clause and in the realm of fact finding, is to ‘instruct the fact finder concerning
the degree of confidence our society thinks
he should have in the correctness of factual
conclusions for a particular type of adjudication.”‘ Addington v. Texas, 441 U.S. 418, 423
. . . (1979) . . . The allocation of burdens and
standards [12] of proof implicates similar
47

See United States v. A Single Family Residence and Real
Property Located at 900 Rio Vista Blvd., Ft. Lauderdale, 803 F.2d
625, 629 n.2 (11th Cir. 1986).

App. 92
concerns and is of greater importance since it
decides who must go forward with evidence
and who bears the risk of loss should proof not
rise to the standard set. In civil forfeiture
cases, where claimants are required to go forward with evidence and exculpate their property by a preponderance of the evidence, all
risks are squarely on the claimant. The government, under the current approach, need
not produce any admissible evidence and may
deprive citizens of property based on the
rankest of hearsay and the flimsiest evidence.
This result clearly does not reflect the value of
private property in our society, and makes the
risk of an erroneous deprivation intolerable.48
Some federal courts have even intimated that
probable cause is an unconstitutional standard:
The Supreme Court . . . has recently expanded
the constitutional protections applicable in
forfeiture proceedings to include those of the
Eighth Amendment. . . . We therefore agree
with the Second Circuit: “Good and Austin reopen the question of whether the quantum of
evidence the government needs to show in order to obtain a warrant in rem allowing seizure – probable cause – suffices to meet the
requirements of due process.” United States v.
One Parcel of Property Located at 194 Quaker
Farms Road, 85 F.3d 985, 990 (2nd Cir.), cert
denied . . . 117 S. Ct. 304 . . . (1996).

48

United States v. $12,390, 956 F.2d 801, 811 (8th Cir. 1992)
(Beam, J., dissenting).

App. 93
[W]e observe that allowing the government to
forfeit property based on a mere showing of
probable cause is a “constitutional anomaly. . . .” As the Supreme Court has explained,
burdens of proof are intended in part to “indicate the relative importance attached to the
ultimate decision.” . . . The stakes are exceedingly high in a forfeiture proceeding: Claimants are threatened with permanent
deprivation of their property, from their hardearned money, to their sole means of
transport, to their homes. We would find it
surprising were the Constitution to permit
such an important decision to turn on a meager burden of proof like probable cause.49
This Committee finds probable cause too low a
standard of proof for the government to meet. Therefore, H.R. 1658 provides that the burden of proof
should not shift to a property owner upon a showing of
probable cause, but should remain with the government with a standard of clear and convincing evidence
that the property is subject to forfeiture.
Why “clear and convincing evidence” and not “a
preponderance of the evidence?” The Justice Department used to argue that federal civil forfeiture provisions were not designed to punish anybody. Justice
argued that forfeiture served purely remedial functions – such as to remove the instruments of the drug
trade and thereby protect the community from the
threat of continued drug dealing, and to compensate
49

United States v. $49,576, 116 F.3d 425, 429 (9th Cir. 1997)
(citations omitted).

App. 94
the government for the expense of law enforcement activity and for its expenditure on societal problems resulting from the drug trade. The Department made
this argument [13] in order to provide a rationale for
not applying to civil forfeitures the Eighth Amendment’s prohibition against excessive fines. In its 1993
decision in Austin v. United States,50 the Supreme
Court rejected Justice’s argument, finding that:
In light of the historical understanding of forfeiture as punishment, the clear focus of [the instant forfeiture provisions] on the culpability of the owner, and
the evidence that Congress understood those provisions as serving to deter and to punish, we cannot conclude that [the provisions serve] solely a remedial
purpose. We therefore conclude that forfeiture under
these provisions constitutes “payment to a sovereign as
punishment for some offense. . . .”51
One might ask, punishment for what? Clearly, the
punishment is for a property owner’s alleged involvement in drug trafficking. Civil forfeiture is being used
to punish a property owner for alleged criminal activity. The general civil standard of proof – preponderance
of the evidence – is too low a standard to assign to the
government in this type of case. A higher standard of
proof is needed that recognizes that in reality the government is alleging that a crime has taken place. As
50

509 U.S. 602 (1993).
Id. at 621-22 (footnote omitted), quoting Browning-Ferris
Industries of Vermont, Inc. v. Kelco Disposal, Inc., 492 U.S. 257,
265 (1989).
51

App. 95
the Supreme Court has said, civil forfeiture actions are
in essence “quasi-criminal in character” designed “like
a criminal proceeding . . . to penalize for the commission of an offense against the law.”52 Since civil forfeiture doesn’t threaten imprisonment, proof beyond a
reasonable doubt is not necessary.53 The intermediate
standard – clear and convincing evidence – is more appropriate.
The Florida Supreme Court has ruled that the
Florida Constitution mandates a clear and convincing
evidence standard in civil forfeiture proceedings commenced under Florida law, stating that:
In forfeiture proceedings the state impinges
on basis constitutional rights of individuals
who may never have been formally charged
with any civil or criminal wrongdoing. This
Court has consistently held that the [Florida]
Constitution requires substantial burdens of
proof where state action may deprive individuals of basic rights.54
52

One 1958 Plymouth Sedan v. Pennsylvania, 380 U.S. 693,
700 (1965).
53
Some states do require proof beyond a reasonable doubt.
The Supreme Court of Nevada has ruled that because of the
“quasi-criminal nature of forfeiture actions,” “[p]roof beyond a
reasonable doubt is therefore appropriate in order that the innocent not be permanently deprived of their property.” A 1983
Volkswagen v. Country of Washoe, 101 Nev. 222, 224, 699 P.2d
108, 109 (Nev. 1985). Others provide only for criminal forfeiture
in most situations, which of course leads to the same result. See,
e.g., Cal. Health and Safety Code S 11470.
54
Department of Law Enforcement v. Real Property, 588
So.2d 957, 967 (Fla. 1991). See also Cal. Health and Safety Code

App. 96
Under H.R. 1658, a property owner would still
have the burden of proving affirmative defenses, such
as the “innocent owner” defense, by a preponderance of
the evidence. Also, property can still be initially seized
by the government based on probable cause, and this
standard is sufficient to effect forfeiture in cases where
a claim to the seized property is not filed.
[14] 2.

APPOINTMENT OF COUNSEL

There is no Sixth Amendment right to appointed
counsel for indigents in civil forfeiture cases, since imprisonment is not threatened.55 This is undoubtedly
one of the primary reasons why so many civil seizures
are not challenged. As the cochairs of the National Association of Criminal Defense Lawyers’ Forfeiture
Abuse Task Force stated before this Committee in
1996: “The reason they are so rarely challenged has
nothing to do with the owner’s guilt, and everything to
do with the arduous path one must journey against a
presumption of guilt, often without the benefit of counsel, and perhaps without any money left after the

S 11470 (clear and convincing evidence in cases involving drug
proceeds over $25,000); N.Y. Civ. Prac. L. & R. SS 1311(1),
1310(6) (clear and convincing evidence in drug cases); Wisc. Stat.
Ann. S 973.076(3) (requiring proof “satisfying or convincing to a
reasonable certainty by the greater weight of the credible evidence”).
55
See United States v. $292,888.04 in U.S. Currency, 54 F.3d
564, 569 (9th Cir. 1995); United States v. 7108 West Grand Ave.,
Chicago, Illinois, 15 F.3d 632, 635 (7th Cir. 1994), cert. denied,
114 S. Ct. 2691 (1994).

App. 97
seizure with which to fight the battle.”56 This Committee believes that civil forfeiture proceedings are so punitive in nature that appointed counsel should be
made available for those who are indigent, or made indigent by a seizure, in appropriate circumstances.
H.R. 1658 provides that a federal court may appoint counsel to represent an individual filing a claim
in a civil forfeiture proceeding who is financially unable to obtain representation. In determining whether
to appoint counsel, the court shall take into account
the claimant’s standing to contest the forfeiture and
whether the claim appears to be made in good faith or
to be frivolous. Compensation for appointed counsel
will be equivalent to that provided for court-appointed
counsel in federal felony cases. Currently, maximum
compensation would not exceed $3,500 per attorney for
representation before a U.S. district court and $2,500
per attorney for representation before an appellate
court. These maximums can be waived in cases of “extended or complex” representation where “excess payment is necessary to provide fair compensation and the
payment is approved by the chief judge of the circuit.”57
3.

INNOCENT OWNER DEFENSE

The impact of Bennis58 is limited by the fact that
many federal civil forfeiture provisions contain
56

1996 Hearing at 289-90 (statement of E.E. (Bo) Edwards
III, David Smith, and Richard Troberman).
57
18 U.S.C. S 3006A(d).
58
516 U.S. at 442.

App. 98
statutory innocent owner defenses. For instance, real
property used to commit or to facilitate a federal drug
crime is forfeitable unless the violation was “committed or omitted without the knowledge or consent of
[the] owner.”59 Conveyances used in federal drug
crimes are not forfeitable “by reason of any act or omission established by that owner to have been committed
or omitted without the knowledge, consent, or willful
blindness of the owner.”60 Property involved in certain
money laundering transactions shall not be forfeited
“by reason of any act or omission established by that
owner or lienholder to have been committed without
the knowledge of that owner or lienholder.”61 Other federal civil forfeiture statutes contain no innocent owner
defenses. For instance, the statute providing for forfeiture [15] of any property, including money, used in an
illegal gambling business contains no such defense.62
Many courts require that to qualify as an innocent
owner, an owner have done all that reasonably could
be expected to prevent the illegal use of the property.63
Not only are these statutory innocent owner defenses nonuniform, but the protections of the ones
59

21 U.S.C. S 881(a)(7).
21 U.S.C. S 881(a)(4)(C).
61
18 U.S.C. S 981(a)(2).
62
18 U.S.C. S 1955(d).
63
See, e.g., United States v. One Parcel of Property Located
at 755 Forest Road, Northford, Connecticut, 985 F.2d 70, 72 (2nd
Cir. 1993); United States v. One Parcel of Real Estate at 1012
Germantown Road, Palm Beach County, Fla., 963 F.2d 1496,
1506 (11th Cir. 1992).
60

App. 99
using the “committed or omitted” language have been
seriously eroded by a number of federal courts ruling
that qualifying owners must have had no knowledge of
and provided no consent to the prohibited use of the
property.64 Such an interpretation means that owners
who try to end the illegal use by others of their property cannot make use of the defense simply because
they knew about such use.
Believing that a meaningful innocent owner defense is required by fundamental fairness, the Committee sets out an innocent owner defense in H.R. 1658
designed to provide such a defense for all federal civil
forfeitures, to make that defense uniform, and to ensure that it offers protection in all appropriate cases.
The innocent owner defense in the bill provides
that, with respect to a property interest in existence at
the time the illegal conduct giving rise to the forfeiture
took place, an innocent owner is an owner who did not
know of this conduct or, upon learning of it, did all that
reasonably could be expected under the circumstances
to terminate such use of the property. One way in
which an owner may show that he did all that reasonably could be expected is to demonstrate that he, to the
extent permitted by law, (1) gave timely notice to an
appropriate law enforcement agency of information
that led the person to know the conduct would occur or
has occurred, and (2) in a timely fashion revoked or
64

See, e.g., United States v. Lot 111-B, Tax Map Key 4-4-0371(4), 902 F.2d 1443, 1445 (9th Cir. 1990) (per curiam). See, contra, United States v. 141st St. Corp. by Hersh, 911 F.2d 870, 87778 (2nd Cir. 1990), cert. denied, 111 S. Ct. 1017 (1991).

App. 100
attempted to revoke permission for those engaging in
such conduct to use the property or took reasonable actions in consultation with a law enforcement agency to
discourage or prevent the illegal use of the property.
Thus, a safe harbor is created for an owner who
notifies police and revokes or attempts to revoke (to the
extent permitted by law) permission to use the property by those who are using it in the course of criminal
activity. The owner’s obligations end right there – property owners should not have to assume the responsibilities of police to stop crime. In the Red Carpet Motel
incident described earlier, the hotel owner could have
taken advantage of the bill’s safe harbor by (as he did)
notifying police of drug sales taking place at the motel
and making a good faith attempt to evict the responsible motel guests from their rooms. In the situation of
an apartment building where a tenant is selling illegal
drugs, the owner could take advantage of the safe harbor by notifying police and making a good faith attempt to evict the tenants. The term “good faith
attempt” is used because in many instances, an owner
may be constrained in revoking permission to use
property because of provisions of local, state or federal
law (i.e., contract or landlord-[16]tenant law). For instance, in many parts of the country it is extremely difficult to evict a tenant because of allegations of illegal
drug sales without the tenant having already been convicted of drug trafficking.65

65

In some areas of the country, it might be generally agreed
to be impossible to evict a tenant without a preexisting criminal

App. 101
Finally, an owner is not required – in order to do
“all that can reasonably be expected” – to take steps
that he reasonably believes would be likely to subject
any person (other than the wrongdoer) to physical danger.
With respect to a property interest acquired after
the conduct giving rise to the forfeiture has taken
place, an innocent owner is generally one who, at the
time he acquired the interest in the property, was a
bona fide purchaser or seller for value and reasonably
without cause to believe that the property was subject
to forfeiture. This formulation is required because
much fraud could result were innocent donees allowed
to be considered innocent owners. As Justice Kennedy
noted in dissent in United States v. A Parcel of Land
(92 Buena Vista Ave.),66 criminals would then be allowed to shield their property from forfeiture through
transfers to relatives.
However, the bill makes exceptions to this formulation in two instances to avoid unjust results. First,
a person is considered to be an innocent owner if he
acquired an interest in property through probate or inheritance, and was at the time of acquisition reasonably without cause to believe that the property was
subject to forfeiture. The risk of a moral hazard here
is slight. It is hardly likely that many criminals will
conviction – in such a case, the bill would not require an owner to
go through the futile motion of seeking eviction in order to enjoy
the protection of the safe harbor.
66
113 S. Ct. 1126, 1146 (1993).

App. 102
commit suicide for the express purpose of foiling imminent seizures by having their property devolved to
their heirs. And this policy has a sound basis. A person
may have inherited property from a relative without
cause to believe that it had been involved in some criminal activity. Years later, the government might decide
to institute forfeiture proceedings against the property.
Without the availability of an innocent owner defense,
the inheritor would be put in the position of having to
rebut the government’s case that the property was forfeitable, that it had been involved in criminal activity.
To do this, the inheritor would have to know what a
dead person had done with the property and what was
in the mind of that dead person. It is fundamentally
unfair to put someone in this position.67
Second, if the property is real property, the owner
is the spouse or minor child of the person who committed the offense giving rise to forfeiture, and the owner
uses the property as a primary residence, an otherwise
valid innocent owner claim shall not be denied because
the owner acquired his interest in it not through a purchase but through dissolution of marriage or by operation of law (in the case of a spouse) or as an inheritance
upon the death of a parent (in the case of a minor
child). However, to be considered an innocent owner,
67

The Committee has heard testimony from the executor of
an estate who was placed, along with the beneficiaries of a house,
in the position of having to fight a seizure based on “an unnamed
person in prison [having] told an unnamed government agent that
an unnamed vessel was used by unnamed persons to offload cocaine at the home of the decedent . . . on an unspecified date in
December 1988.” 1997 Hearing at 38 (testimony of Susan Davis).

App. 103
the spouse or minor child must have been reasonably
[17] without cause to believe that the property was
subject to forfeiture at the time of the acquisition of his
interest in the property.
4.

RETURN OF PROPERTY UPON
SHOWING OF HARDSHIP

Even should a property owner prevail in a civil forfeiture proceeding, irreparable damage may have been
done to the owner’s interests. For instance, if property
is used as a business, its lack of availability for the
time necessary to win a victory in court could have
forced its owner into bankruptcy. If the property is a
car, the owner might not have been able to commute to
work until it was won back. If the property is a house,
the owner may have been left temporarily homeless
(unless the government let the owner rent the house
back). In cases such as this, even when the government’s case is extremely weak, the owner must often
settle with the government and lose a certain amount
of money in order to get the property back as quickly
as possible.
The case of Michael and Christine Sandsness is instructive:
Michael Sandsness and his wife, Christine,
owned two gardening supply stores called
“Rain & Shine” in Eugene and Portland, Oregon. Among the items sold were metal halide
grow lights, used for growing many indoor
plants. The grow lights also can be used to

App. 104
grow marijuana, but it is not illegal to sell
them. Because some area marijuana gardens
raided by [the Drug Enforcement Administration] had the lights, the agency began building
a case to seize the gardening supply businesses. [T]he DEA sent undercover agents to
the stores to try to get employees to give advice on growing marijuana. Unsuccessful in
those efforts, the agents then engaged an employee in conversation, asking advice on the
amount of heat or noise generated by the
lights, making oblique comments suggesting
that they wanted to avoid detection and commenting about High Times magazine. They
never actually mentioned marijuana. The employee then sold the agents grow lights. DEA
raided the two stores, seizing inventory and
bank accounts. Agents told the landlord of one
of the stores that if he did not evict Sandsness,
the government would seize his building. The
landlord reluctantly complied. While the forfeiture case was pending, the business was destroyed. Mr. Sandsness was forced to sell the
remaining unseized inventory in order to pay
off creditors.68
Current law does allow for the release of property
pending final disposition of a case upon payment of a
full bond.69 However, most property owners do not
have the resources to make use of this provision.
Therefore, in order to alleviate hardship, H.R. 1658
provides that a property owner is entitled to release of
68
69

Forfeiting Our Property Rights at 13.
See 19 U.S.C. S 1614.

App. 105
seized property if a court determines that its continued
possession by the government pending the final disposition of forfeiture proceedings will likely cause substantial hardship to the owner and that this hardship
outweighs the risk that the property will be destroyed,
damaged, lost, concealed, or transferred it if is returned during the pendency [18] of the proceedings.
The court may place such conditions on release of the
property as it finds are appropriate to preserve the
property’s availability for forfeiture.
5.

COMPENSATION FOR DAMAGE
TO PROPERTY WHILE IN THE
GOVERNMENT’S POSSESSION

The federal government is exempted from liability
under the Federal Tort Claims Act for damage to property while detained by law enforcement officers.70
Seized property awaiting forfeiture can be quickly
damaged:
Seized conveyances devalue from aging, lack
of care, inadequate storage, and other factors
while waiting forfeiture. They often deteriorate – engines freeze, batteries die, seals
shrink and leak oil, boats sink, salt air and
water corrode metal surfaces, barnacles accumulate on boat hulls, and windows crack from

70

26 U.S.C. S 2680(c).

App. 106
heat. On occasion, vandals steal or seriously
damage conveyances.71
It cannot be categorized as victory when a boat
owner gets back, for instance, a rusted and stripped
hulk of a vessel. The bill amends the Federal Tort
Claims Act to allow for tort claims against the United
States government based on the destruction, injury, or
loss of goods, merchandise, or other property while in
the possession of any law enforcement officer if the
property had been seized for the purpose of forfeiture.
Of course, if seized property is successfully forfeited, no
claim would be allowed.
6.

ELIMINATION OF COST BOND

Under current law, a property owner wanting to
contest a seizure of property under a civil forfeiture
statute must give the court a bond of the lessor of
$5,000 or ten percent of the value of the property
seized (but not less than $250).72
The bond is unconstitutional in cases involving indigents, because it would deprive such claimants of
hearings simply because of their inability to pay.73
Even in cases not involving indigents, the bond should
not be required. It “is simply an additional financial
71

U.S. Comptroller Gen., U.S. Gen. Accounting Office, Better
Care and Disposal of Seized Cars, Boats, and Planes Should Save
Money and Benefits Law Enforcement, at ii (GAO/PLRD-83-94,
1983).
72
See 19 U.S.C. S 1608.
73
See Wiren v. Eide, 542 F.2d 757, 763 (9th Cir. 1976).

App. 107
burden on the claimant and an added deterrent to contesting the forfeiture.”74 H.R. 1658 eliminates the requirement.
7. ADEQUATE TIME TO
CONTEST FORFEITURE
Currently, a property owner has 20 days (from the
date of the first publication of the notice of seizure) to
file a claim with the seizing agency challenging the
government’s administrative forfeiture of property.75
To challenge a judicial forfeiture, the property [19]
owner has an exceedingly short 10 days (after process
has been executed):76
Even assuming that notice is published the
next day after process is executed, the reader
of the notice will have a mere nine days to
file a timely claim. Most local rules require
that notice be published for three successive
weeks, on the assumption that interested parties will not necessarily see the first published
notice. But by the time the second notice is
published, more than ten days will have
elapsed from the date process is executed.
Thus anyone who misses the first published
74

Letter from David Smith to Kathleen Clark, Senate Judiciary Committee, at 5 (Aug. 19, 1992).
75
19 U.S.C. S 1608.
76
Fed. R. Civ. P. C(6) (Supplemental Rules for Certain Admiralty and Maritime Claims) (This is the date when a U.S. court
takes possession of the property through “arrest” by a federal
marshal. It is not the date when it is initially seized by a law enforcement officer).

App. 108
notice will be unable to comply with the exceedingly short time limitation for filing a
claim. . . .77
Even though these time limits sometimes are ignored in the interests of justice, failure to file a timely
claim often results in judgment in favor of the government.78
The bill provides a property owner 30 days to file
a claim following both administrative and judicial forfeiture actions.
8.

INTEREST

Under current law, even if a property owner prevails in a forfeiture action, he may receive no interest
for the time period in which he lost use of his property.79 In cases where money or other negotiable instruments were seized, or money is awarded a property
owner, this is manifestly unfair.
H.R. 1658 provides that upon entry of judgment
for the owner in a forfeiture proceeding, the United
77

David Smith, Prosecution and Defense of Forfeiture Cases,
S 9.03[1], at 9-45 (1998).
78
See, e.g., United States v. Beechcraft Queen Airplane, 789
F.2d 627, 630 (8th Cir. 1986).
79
The courts are divided on whether the government must
pay interest to a successful claimant. Compare United States v.
$515,060.42 in U.S. Currency, 152 F.3d 491, 504-06 (6th Cir.
1998) (awarding interest) with United States v. $7,990 in U.S.
Currency, 170 F.3d 843 (8th Cir. 1999) (sovereign immunity bars
awarding of interest).

App. 109
States shall be liable for post-judgment interest on any
money judgement. The United States shall generally
not be liable for pre-judgment interest. However, in
cases involving currency, proceeds of an interlocutory
sale, or other negotiable instruments, the government
must disgorge any funds representing interest actually
paid to the United States that resulted from the investment of the property or an imputed amount that would
have been earned had it been invested.
HEARINGS
While no hearings were held in the 106th Congress, the Committee held one day of hearings on civil
asset forfeiture reform legislation on June 11, 1997.
Testimony was received from Billy Munnerlyn, E.E.
(Bo) Edwards III, F. Lee Bailey, Susan Davis, Gerald B.
Lefcourt, Stefan D. Cassella, Deputy Chief, Asset Forfeiture and Money Laundering Section, Criminal Division, U.S. Department of Justice, Jan P. Blanton,
Director, Executive Office for Asset Forfeiture, Department of the Treasury, Bobby Moody, Chief of Police,
Marietta, Georgia, and 1st Vice President, International Association of Chiefs of Police, and David Smith.
Additional material [20] was submitted by Nadine
Strossen, President, American Civil Liberties Organization, and Roger Pilon, Director, Center for Constitutional Studies, CATO Institute.

App. 110
COMMITTEE CONSIDERATION
On June 15, 1999, the Committee met in open session and ordered reported favorably the bill H.R. 1658
without amendment by a recorded vote of 27-3, a
quorum being present.
VOTE OF THE COMMITTEE
Vote on final passage: Adopted 27 to 3.
AYES

NAYS

Mr. Sensenbrenner

Mr. Bryant

Mr. Gekas

Mr. Hutchinson

Mr. Coble

Mr. Weiner

Mr. Smith (TX)
Mr. Gallegly
Mr. Canady
Mr. Goodlatte
Mr. Chabot
Mr. Barr
Mr. Jenkins
Mr. Cannon
Mr. Rogan
Mr. Graham
Mr. Scarborough
Mr. Conyers
Mr. Frank

App. 111
Mr. Berman
Mr. Nadler
Mr. Scott
Mr. Watt
Ms. Lofgren
Ms. Jackson Lee
Mr. Delahunt
Mr. Wexler
Mr. Rothman
Ms. Baldwin
Mr. Hyde
COMMITTEE OVERSIGHT FINDINGS
In compliance with clause 3(c)(1) of Rule XIII of
the Rules of the House of Representatives, the Committee reports that the findings and recommendations
of the Committee, based on oversight activities under
clause 2(b)(1) of Rule X of the Rules of the House of
Representatives, are incorporated in the descriptive
portions of this report.
[21] COMMITTEE ON GOVERNMENT
REFORM FINDINGS
No findings or recommendations of the Committee
on Government Reform were received as referred to in
clause 3(c)(4) of Rule XIII of the Rules of the House of
Representatives.

App. 112
NEW BUDGET AUTHORITY
AND TAX EXPENDITURES
Clause 3(c)(2) of House Rule XIII is inapplicable
because this legislation does not provide new budgetary authority or increased tax expenditures.
COMMITTEE COST ESTIMATE
In compliance with clause 3(d)(2) of Rule XIII of
the Rules of the House of Representatives, the Committee believes that the bill will have no cost for the
current fiscal year, and that the cost incurred in carrying out H.R.1658 would be $52 million for the next five
fiscal years.
The Congressional Budget Office did not have an
independent cost estimate prepared by the time of filing of this report. However, CBO did prepare a cost estimate in 1997 of H.R. 1965, another bill reforming
federal forfeiture laws. While the two bills have significant differences, H.R. 1965 did contain versions of the
eight fundamental reforms of civil forfeiture laws contained in H.R. 1658. The CBO estimated that over the
period 1998-2002, implementation of H.R. 1965 would
cost $52 million and that any changes to direct spending and governmental receipts would be less than
$500,000 a year.80

80

H.R. Rep. No. 105-358, pt. 1, at 38-41 (1997).

App. 113
CONSTITUTIONAL AUTHORITY STATEMENT
Pursuant to clause 3(d)(1) of Rule XIII of the Rules
of the House of Representatives, the Committee finds
the authority for this legislation in Article I, section 8
of the Constitution.
SECTION-BY-SECTION ANALYSIS
AND DISCUSSION
Section 1. Short title.
Section 1 contains the Short Title of the bill.
Section 2. Creation of general rules relating to civil
forfeiture proceedings.
Section 2 creates new subsections (j) and (k) of section 981 of title 18 of the United States Code (and redesignates subsection (j) as subsection (l)) that contain
revised procedures which are to govern all administrative and judicial civil forfeiture actions brought pursuant to federal law (except as specified in subsection
(j)(8)). To the extent these procedures are inconsistent
with any preexisting federal law, these procedures apply and supercede preexisting law.
Subparagraph (A) of paragraph (1) of subsection
(j) provides that in any nonjudicial civil forfeiture proceeding under a civil forfeiture statute, with respect to
which the agency conducting a seizure of property
must give written notice to interested parties, such notice [22] shall be given as soon as practicable and in no
case more than 60 days after the later of the date of

App. 114
the seizure or the date the identity of the interested
party is first known or discovered by the agency, except
that the court may extend the period for filing a notice
for good cause shown.
Subparagraph (B) of paragraph (1) provides that a
person entitled to written notice in such proceeding to
whom written notice is not given may on motion void
the forfeiture with respect to that person’s interest in
the property, unless the agency show either good cause
for the failure to give notice to that person or that the
person otherwise had actual notice of the seizure.
Subparagraph (C) of paragraph (1) provides that
if the government does not provide notice of a seizure
of property in accordance with subparagraph (A), it
shall return the property and may not take any further
action to effect the forfeiture of such property. If the
government has made a mistake or administrative error in providing notice, a court may consider good
cause to have been shown pursuant to subparagraph
(A). In such case, the government may take further action to effect the forfeiture.
Subparagraph (A) of paragraph (2) provides that
any person claiming property seized in a nonjudicial
forfeiture proceeding may file a claim with the appropriate official after the seizure.
Subparagraph (B) of paragraph (2) provides that a
claim under subparagraph (A) may not be filed later
than 30 days after either the date of final publication
of notice of seizure or, in the case of a person entitled
to written notice, the date that notice was received.

App. 115
Subparagraph (C) of paragraph (2) provides that
the claim shall state the claimant’s interest in the
property.
Subparagraph (D) of paragraph (2) provides that
not later than 90 days after a claim has been filed, the
Attorney General shall file a complaint for forfeiture in
the appropriate court or return the property, except
that a court in the district in which the complaint will
be filed may extend the period for filing a complaint for
good cause shown or upon agreement of the parties.
Subparagraph (E) of paragraph (2) provides that
if the government does not file a complaint for forfeiture of property in accordance with subparagraph (D),
it shall return the property and may not take any further action to effect the forfeiture of such property.
Subparagraph (F) of paragraph (2) provides that
any person may bring a claim under subparagraph (A)
without posting bond with respect to the property
which is the subject of the claim.
Subparagraph (A) of paragraph (3) provides that
in any case where the government files in the appropriate United States district court a complaint for forfeiture of property, any person claiming an interest in
the seized property may file a claim asserting such person’s interest in the property within 30 days of service
of the government’s complaint or, where applicable,
within 30 days of alternative publication notice.
Subparagraph (B) of paragraph (3) provides that
a person asserting an interest in seized property in

App. 116
accordance with subparagraph (A) shall file an answer
to the government’s complaint for forfeiture within 20
days of the filing of the claim.
[23] Subparagraph (A) of paragraph (4) provides
that if the person filing a claim is financially unable to
obtain representation by counsel, the court may appoint counsel to represent that person with respect to
the claim.
Subparagraph (B) of paragraph (4) provides that
in determining whether to appoint counsel to represent the person filing the claim, the court shall take
into account such factors as the claimant’s standing to
contest the forfeiture and whether the claim appears
to be made in good faith or to be frivolous.
Subparagraph (C) of paragraph (4) provides that
the court shall set the compensation for that representation, which shall be equivalent to that provided for
court-appointed representation under section 3006A of
title 18 of the United States Code (for federal criminal
defendants), and to pay such cost there are authorized
to be appropriated such sums as are necessary as an
addition to the funds otherwise appropriated for the
appointment of counsel under that section.
Paragraph (5) provides that in all suits or actions
brought under any civil forfeiture statute for the civil
forfeiture of any property, the burden of proof is on the
United States government to establish, by clear and
convincing evidence, that the property is subject to forfeiture.

App. 117
Subparagraph (A) of paragraph (6) provides that
an innocent owner’s interest in property shall not be
forfeited under any civil forfeiture statute.
Subparagraph (B) of paragraph (6) provides that
with respect to a property interest in existence at the
time the illegal conduct giving rise to forfeiture took
place, the term “innocent owner” means an owner who
either did not know of the conduct giving rise to the
forfeiture or, upon learning of the conduct giving rise
to the forfeiture, did all that reasonably could be expected under the circumstances to terminate such use
of the property. To meet the requirements of the last
clause of the preceding sentence, the property owner is
not required to take every conceivable action which
could be considered reasonable, but only to take actions which are in total a reasonable response to the
conduct giving rise to the forfeiture. In determining
what is a reasonable response, the economic situation
of the property owner (and his business, if applicable)
should be taken into account.
Subparagraph (C) of paragraph (6) provides that
with respect to a property interest acquired after the
conduct giving rise to the forfeiture has taken place,
the term “innocent owner” means a person who, at the
time that person acquired the interest in the property,
was reasonably without cause to believe that the property was subject to forfeiture and was either a bona fide
purchaser or seller for value (including a purchaser or
seller of goods or services for value) or a person who
acquired an interest in property through probate or inheritance.

App. 118
A property owner is considered to have acquired
an interest in property through probate or inheritance
at the time of the death of the previous property owner,
not at the time of final, permanent, distribution of the
property.
The use of the term inheritance recognizes that
property interests often pass at the death of previous
owners outside of formal [24] probate proceedings. For
instance, property interests are routinely inherited in
community property states (such as California and
Texas) without a testamentary device. Likewise, standard property law in many states recognizes transfers
of interests through mechanisms such as remainder
interests, and “tenancy-in-entireties” (which cause
property interests in the whole res to pass virtually automatically upon the death of one “tenant”/owner to
the surviving “tenant”/owner). This is often true of
partnership property, including family business partnerships. In short, the use of the term recognizes that
non-probate assets might be acquired by truly innocent owners through all manner of standard, legitimate state and commercial law mechanisms, for
fundamental tax and estate planning reasons. For example, assets commonly inherited but not subject to
probate administration in many states include the following: joint bank accounts with right of survivorship,
property held in joint tenancy, property subject to a
community property agreement (in community property states), property held in an inter vivos (living)
trust, life insurance (unless all beneficiaries are dead
or proceeds are payable to the estate), and assets

App. 119
governed by dispositive provisions in an insurance policy, employment contract, bond, mortgage, promissory
note, deposit agreement, pension plan, conveyance, or
other non-testamentary written instrument effective
as a contract, gift, conveyance or trust.
Subparagraph (D) of paragraph (6) provides that
where the property subject to forfeiture is real property, and the claimant uses the property as the claimant’s primary residence (i.e., homestead) and is the
spouse or minor child of the person who committed the
offense giving rise to the forfeiture, an otherwise valid
innocent owner claim shall not be denied on the ground
that the claimant acquired the interest in the property
not through a purchase but through dissolution of marriage or by operation of law (in the case of a spouse) or
as an inheritance upon the death of a parent (in the
case of a minor child81). The claimant must establish
that at the time of the acquisition of the property interest, the claimant was reasonably without cause to
believe that the property was subject to forfeiture.
This provision recognizes that one spouse might
acquire an innocent, legitimate ownership interest in
a residence through formal “dissolution” of marriage
(divorce) – without any reasonable cause to believe
that the property is tainted by the other spouse’s conduct. Some states recognize separate property interests between spouses after a certain period of
separation, even without formal marriage “dissolution”
81

The time of acquisition of a minor child’s interest is at the
time of the parent’s death.

App. 120
proceedings. An annulment, too, may not be regarded
as a “dissolution” of marriage, per se, but rather, an official pronouncement that no legitimate marriage ever
existed between the “spouses.” A community property
agreement between spouses, in community property
states like California and Texas, is another common
example of how one spouse could innocently acquire an
interest in his or her primary residence by operation of
(state) law, other than dissolution of marriage. Such
standard agreements exist during the life of a marriage, after marriage, and indeed, serve as a non-probate asset after death of a spouse. The [25] provision
for acquisition by an innocent spouse “by operation of
law”, as well as “dissolution of marriage”, is intended
to cover all of the similarly innocent situations regarding spousal acquisition of a primary residence under
various, legitimate operations of state and commercial
laws.
Paragraph (7) provides that (for purposes of paragraph (6)) one way in which a person may show that
he did all that reasonably could be expected would be
to demonstrate that he, to the extent permitted by law,
gave timely notice to an appropriate law enforcement
agency of information that led him to know the conduct
giving rise to a forfeiture would occur or has occurred
while in a timely fashion revoking or attempting to revoke permission for those engaging in such conduct to
use the property or taking reasonable actions in consultation with a law enforcement agency to discourage
or prevent the illegal use of the property. To meet the
requirements of the last clause of the preceding

App. 121
sentence, the person is not required to take every conceivable action which could be considered reasonable,
but only to take actions which are in total a reasonable
response to the conduct giving rise to the forfeiture. In
determining what is a reasonable response, the economic situation of the property owner (and his business, if applicable) should be taken into account.
Paragraph (7) also provides that in order to do all that
could reasonably be expected (for purposes of paragraph (6)), a person is not required to take steps that
the person reasonably believes would be likely to subject any person (other than the person whose conduct
gave rise to the forfeiture) to physical danger.
Paragraph (8) provides definitions of terms for
purposes of subsection (j). The term “civil forfeiture
statute” means any provision of federal law (other than
the Tariff Act of 1930 or the Internal Revenue Code of
1986) providing for the forfeiture of property other
than as a sentence imposed upon conviction of a criminal offense. The term “owner” means a person with an
ownership interest in the specific property sought to be
forfeited, including a leasehold, lien, mortgage, recorded security device, or valid assignment of an ownership interest; it does not include a person with only
a general unsecured interest in (or claim against) the
property or estate of another, a bailee (unless the bailor
is identified and the bailee shows a colorable legitimate interest in the property seized), or a nominee who
exercises no dominion or control over the property.
Paragraph (1) of subsection (k) provides that a
claimant under subsection (j) is entitled to immediate

App. 122
release of seized property if the court determines that
(1) the claimant has a possessory interest in the property, (2) the continued possession by the United States
government pending the final disposition of forfeiture
proceedings will cause substantial hardship to the
claimant (such as preventing the functioning of a business, preventing an individual from working, or leaving an individual homeless), and (3) the claimant’s
likely hardship from the continued possession by the
United States government of the seized property outweighs the risk that the property will be destroyed,
damaged, lost, concealed, or transferred if it is returned to the claimant during the pendency of the proceeding.
Paragraph (2) provides that a claimant seeking release of property under subsection (k) must request
possession of the property [26] from the appropriate official, and the request must set forth the basis on which
the requirements of paragraph (1) are met.
Paragraph (3) provides that if within 10 days after
the date of the request the property has not been released, the claimant may file a motion or complaint in
any district court that would have jurisdiction of forfeiture proceedings relating to the property setting
forth the basis on which the requirements of paragraph (1) are met and the steps the claimant has taken
to secure release of the property from the appropriate
official.
Paragraph (4) provides that if a motion or complaint is filed under paragraph (3), the district court

App. 123
shall order that the property be returned to the claimant, pending completion of proceedings by the United
States government to obtain forfeiture of the property,
if the claimant shows that the requirements of paragraph (1) have been met. The court may place such conditions on release of the property as it finds are
appropriate to preserve the availability of the property
or its equivalent for forfeiture.
Paragraph (5) provides that the district court shall
render a decision on a motion or complaint filed under
paragraph (3) no later than 30 days after the date of
the filing, unless such 30 day limitation is extended by
consent of the parties or by the court for good cause
shown.
Section 3. Conforming amendment to the Controlled
Substances Act.
Section 3 repeals section 518 of the Controlled
Substances Act (21 U.S.C. S 888). Section 518 provides
for expedited forfeiture procedures in the cases of
seized conveyances.
Section 4. Compensation for damage to seized property.
Subsection (a) of section 4 amends the Federal
Tort Claims Act, which currently does not allow a claim
for damages to be brought against the United States in
respect of the assessment or collection of any tax or
customs duty, or the detention of any goods or merchandise by any officer of customs or excise or any

App. 124
other law enforcement officer (see 28 U.S.C. S 2680(c)).
The subsection provides that claims can be brought
that are based on the destruction, injury, or loss of
goods, merchandise, or other property, while in the possession of any officer of customs or excise or any other
law enforcement officer, if the property was seized for
the purpose of forfeiture but the interest of the claimant is not forfeited.
Subsection (b) of section 4 provides that with respect to a claim that cannot be settled under the Tort
Claims Act, the Attorney General may settle, for not
more than $50,000 in any case, a claim for damage to,
or loss of, privately owned property caused by an investigative or law enforcement officer who is employed by
the Department of Justice and acting within the scope
of his or her employment. However, the Attorney General may not pay a claim that is presented more than
1 year after it occurs or is presented by an officer or
employee of the United States government and arose
within the scope of employment.
Section 5. Prejudgment and postjudgment interest.
Section 5 amends section 2465 of title 28 of the
United States Code to provide that upon entry of judgment for the claimant in [27] any proceeding to condemn or forfeit property seized or arrested under any
Act of Congress, the United States shall be liable for
post-judgment interest as set forth in section 1961 of
title 28 of the United States Code. The United States
shall not be liable for prejudgment interest, except that

App. 125
in cases involving currency, other negotiable instruments, or the proceeds of an interlocutory sale, the
United States shall disgorge to the claimant any funds
representing interest actually paid to the United
States from the date of seizure or arrest of the property
that resulted from the investment of the property in an
interest-bearing account or instrument, and for any
period during which no interest is actually paid, an imputed amount of interest that such currency, instruments, or proceeds would have earned at the rate
described in section 1961. The United States shall not
be required to disgorge the value of any intangible benefits nor make any other payments to the claimant not
specifically authorized by this subsection.
Section 6. Applicability.
Section 6 provides that unless otherwise specified
in this Act, the amendments made by this Act apply
with respect to claims, suits, and action filed on or after
the date of the enactment of this Act. However, the
standard for the required burden of proof shall apply
in cases pending on the date of the enactment of this
Act and the amendment made by section 5 shall apply
to any judgment entered after the date of enactment of
this Act.
CHANGES IN EXISTING LAW
MADE BY THE BILL, AS REPORTED
In compliance with clause 3(e) of rule XIII of the
Rules of the House of Representatives, changes in

App. 126
existing law made by the bill, as reported, are shown
as follows (existing law proposed to be omitted is enclosed in black brackets, new matter is printed in italics, existing law in which no change is proposed is
shown in roman):
SECTION 981 OF TITLE 18,
UNITED STATES CODE
S 981. Civil forfeiture
(a)

***
*******

(j)(1)(A) In any nonjudicial civil forfeiture proceeding under a civil forfeiture statute, with respect
to which the agency conducting a seizure of property
must give written notice to interested parties, such notice shall be given as soon as practicable and in no case
more than 60 days after the later of the date of the seizure or the date the identity of the interested party is
first known or discovered by the agency, except that the
court may extend the period for filing a notice for good
cause shown.
(B) A person entitled to written notice in such
proceeding to whom written notice is not given may on
motion void the forfeiture with respect to that person’s
interest in the property, unless the agency shows –
(i) good cause for the failure to give notice to that
person; or

App. 127
[28] (ii) that the person otherwise had actual notice of the seizure.
(C) If the government does not provide notice of
a seizure of property in accordance with subparagraph
(A), it shall return the property and may not take any
further action to effect the forfeiture of such property.
(2)(A) Any person claiming property seized in a
nonjudicial forfeiture proceeding may file a claim with
the appropriate official after the seizure.
(B) A claim under subparagraph (A) may not be
filed later than 30 days after –
(i) the date of final publication of notice of seizure; or
(ii) in the case of a person entitled to written notice, the date that notice is received.
(C) The claim shall state the claimant’s interest
in the property.
(D) Not later than 90 days after a claim has been
filed, the Attorney General shall file a complaint for
forfeiture in the appropriate court or return the property, except that a court in the district in which the
complaint will be filed may extend the period for filing
a complaint for good cause shown or upon agreement
of the parties.
(E) If the government does not file a complaint
for forfeiture of property in accordance with subparagraph (D), it shall return the property and may not

App. 128
take any further action to effect the forfeiture of such
property.
(F) Any person may bring a claim under subparagraph (A) without posting bond with respect to the
property which is the subject of the claim.
(3)(A) In any case where the Government files in
the appropriate United States district court a complaint for forfeiture of property, any person claiming an
interest in the seized property may file a claim asserting such person’s interest in the property within 30
days of service of the Government’s complaint or,
where applicable, within 30 days of alternative publication notice.
(B) A person asserting an interest in seized property in accordance with subparagraph (A) shall file an
answer to the Government’s complaint for forfeiture
within 20 days of the filing of the claim.
(4)(A) If the person filing a claim is financially
unable to obtain representation by counsel, the court
may appoint counsel to represent that person with respect to the claim.
(B) In determining whether to appoint counsel to
represent the person filing the claim, the court shall
take into account such factors as –
(i) the claimant’s standing to contest the forfeiture; and
(ii) whether the claim appears to be made in good
faith or to be frivolous.

App. 129
(C) The court shall set the compensation for
that representation, which shall be equivalent to that
provided for court-appointed representation under
section 3006A of this title, and to pay such cost there
are authorized to be appropriated such sums as are
necessary as an addition to the funds otherwise appropriated for the appointment of counsel under such section.
(5) In all suits or actions brought under any civil
forfeiture statute for the civil forfeiture of any property, the burden of proof is on [29] the United States
Government to establish, by clear and convincing evidence, that the property is subject to forfeiture.
(6)(A) An innocent owner’s interest in property
shall not be forfeited under any civil forfeiture statute.
(B) With respect to a property interest in existence at the time the illegal conduct giving rise to forfeiture took place, the term “innocent owner” means an
owner who –
(i) did not know of the conduct giving rise to forfeiture; or
(ii) upon learning of the conduct giving rise to
the forfeiture, did all that reasonably could be expected
under the circumstances to terminate such use of the
property.
(C) With respect to a property interest acquired
after the conduct giving rise to the forfeiture has taken
place, the term “innocent owner” means a person who,

App. 130
at the time that person acquired the interest in the
property, was –
(i)(I) a bona fide purchaser or seller for value (including a purchaser or seller of goods or services for
value); or
(II) a person who acquired an interest in property through probate or inheritance; and
(ii) at the time of the purchase or acquisition reasonably without cause to believe that the property was
subject to forfeiture.
(D) Where the property subject to forfeiture is
real property, and the claimant uses the property as
the claimant’s primary residence and is the spouse or
minor child of the person who committed the offense
giving rise to the forfeiture, an otherwise valid innocent owner claim shall not be denied on the ground
that the claimant acquired the interest in the property –
(i) in the case of a spouse, through dissolution of
marriage or by operation of law, or
(ii) in the case of a minor child, as an inheritance
upon the death of a parent, and not through a purchase. However, the claimant must establish, in accordance with subparagraph (C), that at the time of the
acquisition of the property interest, the claimant was
reasonably without cause to believe that the property
was subject to forfeiture.

App. 131
(7)

For the purposes of paragraph (6) –

(A) ways in which a person may show that such
person did all that reasonably can be expected may include demonstrating that such person, to the extent
permitted by law –
(i) gave timely notice to an appropriate law enforcement agency of information that led the person to
know the conduct giving rise to a forfeiture would occur or has occurred; and
(ii) in a timely fashion revoked or attempted to
revoke permission for those engaging in such conduct
to use the property or took reasonable actions in consultation with a law enforcement agency to discourage
or prevent the illegal use of the property; and
(B) in order to do all that can reasonably be expected, a person is not required to take steps that the
person reasonably believes would be likely to subject
any person (other than the person whose conduct gave
rise to the forfeiture) to physical danger.
[30] (8)

As used in this subsection:

(1) The term “civil forfeiture statute” means any
provision of Federal law (other than the Tariff Act of
1930 or the Internal Revenue Code of 1986) providing
for the forfeiture of property other than as a sentence
imposed upon conviction of a criminal offense.
(2) The term “owner” means a person with an
ownership interest in the specific property sought to
be forfeited, including a leasehold, lien, mortgage,

App. 132
recorded security device, or valid assignment of an
ownership interest. Such term does not include –
(i) a person with only a general unsecured interest in, or claim against, the property or estate of another;
(ii) a bailee unless the bailor is identified and the
bailee shows a colorable legitimate interest in the
property seized; or
(iii) a nominee who exercises no dominion or control over the property.
(k)(1) A claimant under subsection (j) is entitled
to immediate release of seized property if –
(A) the claimant has a possessory interest in the
property;
(B) the continued possession by the United
States Government pending the final disposition of forfeiture proceedings will cause substantial hardship to
the claimant, such as preventing the functioning of a
business, preventing an individual from working, or
leaving an individual homeless; and
(C) the claimant’s likely hardship from the continued possession by the United States Government
of the seized property outweighs the risk that the
property will be destroyed, damaged, lost, concealed,
or transferred if it is returned to the claimant during
the pendency of the proceeding.
(2) A claimant seeking release of property under
this subsection must request possession of the property

App. 133
from the appropriate official, and the request must set
forth the basis on which the requirements of paragraph (1) are met.
(3) If within 10 days after the date of the request
the property has not been released, the claimant may
file a motion or complaint in any district court that
would have jurisdiction of forfeiture proceedings relating to the property setting forth –
(A) the basis on which the requirements of paragraph (1) are met; and
(B) the steps the claimant has taken to secure release of the property from the appropriate official.
(4) If a motion or complaint is filed under paragraph (3), the district court shall order that the property be returned to the claimant, pending completion
of proceedings by the United States Government to obtain forfeiture of the property, if the claimant shows
that the requirements of paragraph (1) have been met.
The court may place such conditions on release of the
property as it finds are appropriate to preserve the
availability of the property or its equivalent for forfeiture.
(5) The district court shall render a decision on a
motion or complaint filed under paragraph (3) no later
than 30 days after the [31] date of the filing, unless
such 30-day limitation is extended by consent of the
parties or by the court for good cause shown.

App. 134
[(j)] (l)

For purposes of this section –

(1) the term “Attorney General” means the Attorney General or his delegate; and
(2) the term “Secretary of the Treasury” means
the Secretary of the Treasury or his delegate.
SECTION 518 OF THE
CONTROLLED SUBSTANCES ACT
[EXPEDITED PROCEDURES FOR
SEIZED CONVEYANCES
[Sec. 518. (a)(1) The owner of a conveyance may
petition the Attorney General for an expedited decision
with respect to the conveyance, if the conveyance is
seized for a drug-related offense and the owner has
filed the requisite claim and cost bond in the manner
provided in section 608 of the Tariff Act of 1930. The
Attorney General shall make a determination on a petition under this section expeditiously, including a determination of any rights or defenses available to the
petitioner. If the Attorney General does not grant or
deny a petition under this section within 20 days after
the date on which the petition is filed, the conveyance
shall be returned to the owner pending further forfeiture proceedings.
[(2) With respect to a petition under this section,
the Attorney General may –
[(A) deny the petition and retain possession of
the conveyance;

App. 135
[(B) grant the petition, move to dismiss the forfeiture action, if filed, and promptly release the conveyance to the owner; or
[(C) advise the petitioner that there is not adequate information available to determine the petition
and promptly release the conveyance to the owner.
[(3) Release of a conveyance under subsection
(a)(1) or (a)(2)(C) does not affect any forfeiture action
with respect to the conveyance.
[(4) The Attorney General shall prescribe regulations to carry out this section.
[(b) At the time of seizure, the officer making the
seizure shall furnish to any person in possession of the
conveyance a written notice specifying the procedures
under this section. At the earliest practicable opportunity after determining ownership of the seized conveyance, the head of the department or agency that
seizes the conveyance shall furnish a written notice to
the owner and other interested parties (including
lienholders) of the legal and factual basis of the seizure.
[(c) Not later than 60 days after a claim and cost
bond have been filed under section 608 of the Tariff Act
of 1930 regarding a conveyance seized for a drug-related offense, the Attorney General shall file a complaint for forfeiture in the appropriate district court,
except that the court may extend the period for filing
for good cause shown or on agreement of the parties. If
the Attorney General does not file a complaint as

App. 136
specified in the preceding sentence, the court shall order the return of the conveyance to the owner and the
forfeiture may not take place.
[32] [(d) Any owner of a conveyance seized for a
drug-related offense may obtain release of the conveyance by providing security in the form of a bond to the
Attorney General in an amount equal to the value of
the conveyance unless the Attorney General determines the conveyance should be retained (1) as contraband, (2) as evidence of a violation of law, or (3)
because, by reason of design or other characteristic, the
conveyance is particularly suited for use in illegal activities.]
TITLE 28, UNITED STATES CODE
*******
PART VI – PARTICULAR PROCEEDINGS
*******
CHAPTER 163 – FINES, PENALTIES
AND FORFEITURES
*******
S 2465. Return of property to claimant; certificate of
reasonable cause; liability for wrongful seizure
(a) Upon the entry of judgment for the claimant
in any proceeding to condemn or forfeit property seized
under any Act of Congress, such property shall be returned forthwith to the claimant or his agent; but if
it appears that there was reasonable cause for the

App. 137
seizure, the court shall cause a proper certificate
thereof to be entered and the claimant shall not, in
such case, be entitled to costs, nor shall the person who
made the seizure, nor the prosecutor, be liable to suit
or judgment on account of such suit or prosecution.
(b)

Interest. –

(1) Post-judgment. – Upon entry of judgment for
the claimant in any proceeding to condemn or forfeit
property seized or arrested under any Act of Congress,
the United States shall be liable for post-judgment interest as set forth in section 1961 of this title.
(2) Pre-judgment. – The United States shall not
be liable for prejudgment interest, except that in
cases involving currency, other negotiable instruments, or the proceeds of an interlocutory sale, the
United States shall disgorge to the claimant any funds
representing –
(A) interest actually paid to the United States
from the date of seizure or arrest of the property that
resulted from the investment of the property in an interest-bearing account or instrument; and
(B) for any period during which no interest is actually paid, an imputed amount of interest that such
currency, instruments, or proceeds would have earned
at the rate described in section 1961.
(3) Limitation on other payments. – The United
States shall not be required to disgorge the value of
any intangible [33] benefits nor make any other

App. 138
payments to the claimant not specifically authorized
by this subsection.
*******
CHAPTER 171 – TORT CLAIMS PROCEDURE
*******
S 2680. Exceptions
The provisions of this chapter and section 1346(b)
of this title shall not apply to –
(a)

***
*******

(c) Any claim arising in respect of the assessment or collection of any tax or customs duty, or the
detention of any goods or merchandise by any officer of
customs or excise or any other [law-enforcement] law
enforcement officer, except that the provisions of this
chapter and section 1346(b) of this title do apply to any
claim based on the destruction, injury, or loss of goods,
merchandise, or other property, while in the possession
of any officer of customs or excise or any other law enforcement officer, if the property was seized for the purpose of forfeiture but the interest of the claimant is not
forfeited.
*******
[34] DISSENTING VIEWS
While we support the general concept of reforming
our asset forfeiture laws and believe it is important
to ensure that innocent citizens do not have their

App. 139
property taken away by an over-zealous government,
we oppose this particular legislation as it tilts the balance too far in favor of the alleged criminal.
During the 105th Congress, this Committee overwhelmingly approved compromise legislation accomplishing the desired end of reforming our asset
forfeiture laws so that individuals are not deprived of
their rights, but doing so in a way that ensures that
drug dealers, money launderers and organized crime
syndicates are not able to exploit loopholes in the system. Unfortunately, the House did not have the opportunity to debate that bill and we find ourselves here
today in a situation where that balanced approach has
been discarded.
While our specific concerns regarding H.R. 1658
vary, we agree that in six fundamental ways, the bill
denies law enforcement the tools they need to make
sure that criminals are not able to enjoy the proceeds
of their illegal activity.
BURDEN OF PROOF
Current law requires that the government only
have probable cause to seize property, but requires citizens to prove by a preponderance of the evidence that
the property or proceeds were not used in illegal activity. H.R. 1658 shifts the burden of proof to the government and requires that the government prove by clear
and convincing evidence that the property was used
in an illegal manner. While we support shifting the
burden of proof to the government, the clear and

App. 140
convincing standard is too high. The standard of proof
in these cases should be the same as in all civil cases –
that of preponderance of the evidence.
APPOINTMENT OF COUNSEL
H.R. 1658 allows the court to appoint counsel for
“any person claiming an interest in the seized property” who is “financially unable to obtain representation.” The only factors that the court must consider in
determining this are (1) the claimant’s standing to contest the forfeiture and (2) whether the claim appears
to be made in good faith.
The Department of Justice undertakes 30,000 seizures a year, most of them in drug and alien smuggling
cases. H.R. 1658 authorizes the appointment of free
counsel in all of those cases for anyone who asserts an
interest in the seized property. The potential for abuse
is great and there are no safeguards in the bill to prevent it. It is also important to note that those who successfully challenge civil forfeiture decisions already
are able to recover attorneys fees under the Equal Access to Justice Act.
[35] INNOCENT OWNER DEFENSE
H.R. 1658 provides that certain individuals are de
facto innocent owners, including those who receive
property through probate. In these cases, the property
would forever be protected against forfeiture.

App. 141
We fully support the notion of protecting innocent
owners who legitimately may not be aware that someone else has used the property illegally. But we do not
think that the wives, family members and friends of
criminals should be able to claim that they are “innocent” owners of the proceeds of crimes. In particular,
the “probate” provision of H.R. 1658 allows a drug
dealer to amass a large fortune in drug proceeds and
pass it on to his girlfriend, wife or children should he
be killed in a shoot-out with police or rival narcotraffickers.
RETURN OF PROPERTY FOR HARDSHIP
H.R. 1658 allows a claimant to recover his property pending trial if he can show that the forfeiture will
cause substantial hardship, such as preventing the
functioning of a business, preventing an individual
from working or leaving an individual homeless. The
only burden that must be met to allow the transfer is
a determination that the hardship outweighs any risk
that the property will be destroyed, damaged, lost, concealed or transferred. The bill does not even ask judges
to consider the likelihood of whether the property will
be maintained and used in the continued commission
of crime. No provisions are included to ensure that the
government can recover the property once a judicial
determination is made that the property is subject to
forfeiture. Certain instruments of alleged illegal activity are not appropriate to be returned while the forfeiture is pending, but the bill makes no distinction
between legitimate business assets and contraband,

App. 142
currency and other property that is likely to be used to
commit additional crime if returned.
NOTIFICATION TO CLAIMANT
H.R. 1658 requires that actual notice be given to a
potential claimant within 60 days or the forfeiture action is nullified and may never be activated against
that property again. The bill includes no exceptions for
administrative errors, such as a misaddressed letter to
a jail or prison.
So, under the bill, if the government arrests a drug
dealer, puts him in jail, and sends him notice of the forfeiture of his drug proceeds, but misdirects the notice
to the wrong jail, the Attorney General would have to
return the money to the prisoner. Morever, based on
case law, prisoners would have eleven years in which
to raise such claims. The proper remedy for such administrative errors is to give the prisoner proper notice
and allow him the normal period of time in which to
file a claim contesting the forfeiture.
EFFECTIVE DATE
H.R. 1658 applies its new standard of proof (that
of clear and convincing evidence) to cases pending at
the time of the bill’s enactment. This provision has
the potential for reeking havoc on on-[36]going cases
and cases on appeal. We believe that any change in the
standard of proof should apply prospectively.

App. 143
For these and other reasons, we opposed H.R. 1658
when it was considered by the Committee. We urge the
Committee and Members of the full House to consider
these issues as the bill moves through the legislative
process.
Asa Hutchinson.
Ed Bryant.
Anthony Weiver.
H.R. REP. 106-192, H.R. Rep. No. 192, 106TH Cong.,
1ST Sess. 1999, 1999 WL 406892 (Leg.Hist.)

App. 144
Fed. R. Civ. P. Rule 41. Dismissal of Actions
(a)

Voluntary Dismissal.
(1)

By the Plaintiff
(A) Without a Court Order Subject to Rules
23(e), 23.1(c), 23.2, and 66 and any applicable
federal statute, the plaintiff may dismiss an
action without a court order by filing:
(i) a notice of dismissal before the opposing party serves either an answer or a
motion for summary judgment; or
(ii) a stipulation of dismissal signed by
all parties who have appeared.

(B) Effect Unless the notice or stipulation states
otherwise, the dismissal is without prejudice. But
if the plaintiff previously dismissed any federal- or
state-court action based on or including the same
claim, a notice of dismissal operates as an adjudication on the merits.
(2) By Court Order; Effect. Except as provided
in Rule 41(a)(1), an action may be dismissed at the
plaintiffs request only by court order, on terms
that the court considers proper. If a defendant has
pleaded a counterclaim before being served with
the plaintiff ’s motion to dismiss, the action may be
dismissed over the defendant’s objection only if
the counterclaim can remain pending for independent adjudication. Unless the order states otherwise, a dismissal under this paragraph (2) is
without prejudice.

App. 145
(b) Involuntary Dismissal; Effect. If the plaintiff
fails to prosecute or to comply with these rules or a
court order, a defendant may move to dismiss the action or any claim against it. Unless the dismissal order
states otherwise, a dismissal under this subdivision (b)
and any dismissal not under this rule – except one for
lack of jurisdiction, improper venue, or failure to join a
party under Rule 19 – operates as an adjudication on
the merits.
(c) Dismissing a Counterclaim, Crossclaim, or
Third-Party Claim. This rule applies to a dismissal
of any counterclaim, crossclaim, or third-party claim.
A claimant’s voluntary dismissal under Rule 41(a)(1)(A)(i)
must be made:
(1)

before a responsive pleading is served; or

(2) if there is no responsive pleading, before evidence is introduced at a hearing or trial.
(d) Costs of a Previously Dismissed Action. If a
plaintiff who previously dismissed an action in any
court files an action based on or including the same
claim against the same defendant, the court:
(1) may order the plaintiff to pay all or part of
the costs of that previous action., and
(2) may stay the proceedings until the plaintiff
has complied.

App. 146
PL 106–185, April 25, 2000, 114 Stat 202
UNITED STATES PUBLIC LAWS
106th Congress - Second Session
Convening January 24, 2000
Additions and Deletions are
not identified in this database.
Vetoed provisions within tabular
material are not displayed
PL 106-185 (HR 1658)
April 25, 2000
CIVIL ASSET FORFEITURE
REFORM ACT OF 2000
An Act To provide a more just and uniform procedure
for Federal civil forfeitures, and for other purposes.
Be it enacted by the Senate and House of Representatives of the United States of America in Congress
assembled, SECTION 1. SHORT TITLE; TABLE OF
CONTENTS.
<< 18 USCA § 981 NOTE >>
(a) SHORT TITLE.—This Act may be cited as
the “Civil Asset Forfeiture Reform Act of 2000”.
(b) TABLE OF CONTENTS.—The table of contents for this Act is as follows:
Sec. 1.

Short title; table of contents.

Sec. 2. Creation of general rules relating to civil forfeiture proceedings.

App. 147
Sec. 3.

Compensation for damage to seized property.

Sec. 4.

Attorney fees, costs, and interest.

Sec. 5.

Seizure warrant requirement.

Sec. 6. Use of forfeited funds to pay restitution to crime
victims.
Sec. 7.

Civil forfeiture of real property.

Sec. 8.

Stay of civil forfeiture case.

Sec. 9.

Civil restraining orders.

Sec. 10.

Cooperation among Federal prosecutors.

Sec. 11.
tions.

Statute of limitations for civil forfeiture ac-

Sec. 12. Destruction or removal of property to prevent seizure.
Sec. 13.

Fungible property in bank accounts.

Sec. 14.

Fugitive disentitlement.

Sec. 15.

Enforcement of foreign forfeiture judgment.

Sec. 16. Encouraging use of criminal forfeiture as an
alternative to civil forfeiture.
Sec. 17.
tions.

Access to records in bank secrecy jurisdic-

Sec. 18.

Application to alien smuggling offenses.

Sec. 19. Enhanced visibility of the asset forfeiture
program.
Sec. 20.

Proceeds.

App. 148
Sec. 21.

Effective date.

SEC. 2. CREATION OF GENERAL RULES RELATING TO CIVIL FORFEITURE PROCEEDINGS.
(a) IN GENERAL.—Chapter 46 of title 18, United
States Code, is amended by inserting after section 982
the following:
<< 18 USCA § 983 >>
“§ 983.
“(a)

General rules for civil forfeiture proceedings
NOTICE; CLAIM; COMPLAINT.—

“(1)(A)(i) Except as provided in clauses (ii)
through (v), in any nonjudicial civil forfeiture proceeding under a civil forfeiture statute, with respect to which the Government is required to send
written notice to interested parties, such notice
shall be sent in a manner to achieve proper notice
as soon as practicable, and in no case more than
60 days after the date of the seizure.
“(ii) No notice is required if, before the 60–
day period expires, the Government files a civil judicial forfeiture action against the property and
provides notice of that action as required by law.
“(iii) If, before the 60–day period expires, the
Government does not file a civil judicial forfeiture
action, but does obtain a criminal indictment containing an allegation that the property is subject
to forfeiture, the Government shall either—

App. 149
“(I) send notice within the 60 days and
continue the nonjudicial civil forfeiture proceeding under this section; or
“(II) terminate the nonjudicial civil forfeiture proceeding, and take the steps necessary to preserve its right to maintain custody
of the property as provided in the applicable
criminal forfeiture statute.
“(iv) In a case in which the property is seized
by a State or local law enforcement agency and
turned over to a Federal law enforcement agency
for the purpose of forfeiture under Federal law, notice shall be sent not more than 90 days after the
date of seizure by the State or local law enforcement agency.
“(v) If the identity or interest of a party is
not determined until after the seizure or turnover
but is determined before a declaration of forfeiture
is entered, notice shall be sent to such interested
party not later than 60 days after the determination by the Government of the identity of the party
or the party’s interest.
“(B) A supervisory official in the headquarters
office of the seizing agency may extend the period for
sending notice under subparagraph (A) for a period not
to exceed 30 days (which period may not be further extended except by a court), if the official determines that
the conditions in subparagraph (D) are present.
“(C) Upon motion by the Government, a court
may extend the period for sending notice under subparagraph (A) for a period not to exceed 60 days, which

App. 150
period may be further extended by the court for 60–day
periods, as necessary, if the court determines, based on
a written certification of a supervisory official in the
headquarters office of the seizing agency, that the conditions in subparagraph (D) are present.
“(D) The period for sending notice under this
paragraph may be extended only if there is reason to
believe that notice may have an adverse result, including—
“(i) endangering the life or physical safety of
an individual;
“(ii)
“(iii)
dence;
“(iv)

flight from prosecution;
destruction of or tampering with eviintimidation of potential witnesses; or

“(v) otherwise seriously jeopardizing an investigation or unduly delaying a trial.
“(E) Each of the Federal seizing agencies conducting nonjudicial forfeitures under this section shall
report periodically to the Committees on the Judiciary
of the House of Representatives and the Senate the
number of occasions when an extension of time is
granted under subparagraph (B).
“(F) If the Government does not send notice of a
seizure of property in accordance with subparagraph
(A) to the person from whom the property was seized,
and no extension of time is granted, the Government
shall return the property to that person without

App. 151
prejudice to the right of the Government to commence
a forfeiture proceeding at a later time. The Government shall not be required to return contraband or
other property that the person from whom the property was seized may not legally possess.
“(2)(A) Any person claiming property seized in a
nonjudicial civil forfeiture proceeding under a civil forfeiture statute may file a claim with the appropriate
official after the seizure.
“(B) A claim under subparagraph (A) may be
filed not later than the deadline set forth in a personal
notice letter (which deadline may be not earlier than
35 days after the date the letter is mailed), except that
if that letter is not received, then a claim may be filed
not later than 30 days after the date of final publication of notice of seizure.
“(C)

A claim shall—

“(i) identify the specific property being
claimed;
“(ii) state the claimant’s interest in such
property (and provide customary documentary evidence of such interest if available) and state that
the claim is not frivolous; and
“(iii) be made under oath, subject to penalty
of perjury.
“(D) A claim need not be made in any particular
form. Each Federal agency conducting nonjudicial forfeitures under this section shall make claim forms

App. 152
generally available on request, which forms shall be
written in easily understandable language.
“(E) Any person may make a claim under subparagraph (A) without posting bond with respect to the
property which is the subject of the claim.
“(3)(A) Not later than 90 days after a claim has
been filed, the Government shall file a complaint for
forfeiture in the manner set forth in the Supplemental
Rules for Certain Admiralty and Maritime Claims or
return the property pending the filing of a complaint,
except that a court in the district in which the complaint will be filed may extend the period for filing a
complaint for good cause shown or upon agreement of
the parties.
“(B)

If the Government does not—

“(i) file a complaint for forfeiture or return
the property, in accordance with subparagraph
(A); or
“(ii) before the time for filing a complaint
has expired—
“(I) obtain a criminal indictment containing an allegation that the property is subject to forfeiture; and
“(II) take the steps necessary to preserve its right to maintain custody of the property as provided in the applicable criminal
forfeiture statute,
the Government shall promptly release the property
pursuant to regulations promulgated by the Attorney

App. 153
General, and may not take any further action to effect
the civil forfeiture of such property in connection with
the underlying offense.
“(C) In lieu of, or in addition to, filing a civil forfeiture complaint, the Government may include a forfeiture allegation in a criminal indictment. If criminal
forfeiture is the only forfeiture proceeding commenced
by the Government, the Government’s right to continued possession of the property shall be governed by the
applicable criminal forfeiture statute.
“(D) No complaint may be dismissed on the
ground that the Government did not have adequate evidence at the time the complaint was filed to establish
the forfeitability of the property.
“(4)(A) In any case in which the Government files
in the appropriate United States district court a complaint for forfeiture of property, any person claiming an
interest in the seized property may file a claim asserting such person’s interest in the property in the manner set forth in the Supplemental Rules for Certain
Admiralty and Maritime Claims, except that such
claim may be filed not later than 30 days after the date
of service of the Governments complaint or, as applicable, not later than 30 days after the date of final publication of notice of the filing of the complaint.
“(B) A person asserting an interest in seized
property, in accordance with subparagraph (A), shall
file an answer to the Government’s complaint for forfeiture not later than 20 days after the date of the filing
of the claim.

App. 154
“(b)

REPRESENTATION.—

“(1)(A) If a person with standing to contest
the forfeiture of property in a judicial civil forfeiture proceeding under a civil forfeiture statute is
financially unable to obtain representation by
counsel, and the person is represented by counsel
appointed under section 3006A of this title in connection with a related criminal case, the court may
authorize counsel to represent that person with
respect to the claim.
“(B) In determining whether to authorize
counsel to represent a person under subparagraph
(A), the court shall take into account such factors
as—
“(i) the person’s standing to contest the
forfeiture; and
“(ii) whether the claim appears to be
made in good faith.
“(2)(A) If a person with standing to contest
the forfeiture of property in a judicial civil forfeiture proceeding under a civil forfeiture statute is
financially unable to obtain representation by
counsel, and the property subject to forfeiture is
real property that is being used by the person as a
primary residence, the court, at the request of the
person, shall insure that the person is represented
by an attorney for the Legal Services Corporation
with respect to the claim.
“(B)(i) At appropriate times during a representation under subparagraph (A), the Legal Services Corporation shall submit a statement of
reasonable attorney fees and costs to the court.

App. 155
“(ii) The court shall enter a judgment in favor of the Legal Services Corporation for reasonable attorney fees and costs submitted pursuant to
clause (i) and treat such judgment as payable under section 2465 of title 28, United States Code,
regardless of the outcome of the case.
“(3) The court shall set the compensation for
representation under this subsection, which shall
be equivalent to that provided for court-appointed
representation under section 3006A of this title.
“(c) BURDEN OF PROOF.—In a suit or action
brought under any civil forfeiture statute for the civil
forfeiture of any property—
“(1) the burden of proof is on the Government to establish, by a preponderance of the evidence, that the property is subject to forfeiture;
“(2) the Government may use evidence gathered after the filing of a complaint for forfeiture to
establish, by a preponderance of the evidence, that
property is subject to forfeiture; and
“(3) if the Government’s theory of forfeiture
is that the property was used to commit or facilitate the commission of a criminal offense, or was
involved in the commission of a criminal offense,
the Government shall establish that there was a
substantial connection between the property and
the offense.
“(d)

INNOCENT OWNER DEFENSE.—

“(1) An innocent owner’s interest in property
shall not be forfeited under any civil forfeiture
statute. The claimant shall have the burden of

App. 156
proving that the claimant is an innocent owner by
a preponderance of the evidence.
“(2)(A) With respect to a property interest in
existence at the time the illegal conduct giving rise
to forfeiture took place, the term ‘innocent owner”
means an owner who“(i) did not know of the conduct giving
rise to forfeiture; or
“(ii) upon learning of the conduct giving
rise to the forfeiture, did all that reasonably
could be expected under the circumstances to
terminate such use of the property.
“(B)(i) For the purposes of this paragraph,
ways in which a person may show that such person did all that reasonably could be expected may
include demonstrating that such person, to the extent permitted by law—
“(I) gave timely notice to an appropriate
law enforcement agency of information that
led the person to know the conduct giving rise
to a forfeiture would occur or has occurred;
and
“(II) in a timely fashion revoked or
made a good faith attempt to revoke permission for those engaging in such conduct to use
the property or took reasonable actions in consultation with a law enforcement agency to
discourage or prevent the illegal use of the
property.
“(ii) A person is not required by this subparagraph to take steps that the person reasonably

App. 157
believes would be likely to subject any person
(other than the person whose conduct gave rise to
the forfeiture) to physical danger.
“(3)(A) With respect to a property interest
acquired after the conduct giving rise to the forfeiture has taken place, the term ‘innocent owner”
means a person who, at the time that person acquired the interest in the property—
“(i) was a bona fide purchaser or seller
for value (including a purchaser or seller of
goods or services for value); and
“(ii) did not know and was reasonably
without cause to believe that the property was
subject to forfeiture.
“(B) An otherwise valid claim under subparagraph (A) shall not be denied on the ground that
the claimant gave nothing of value in exchange for
the property if—
“(i) the property is the primary residence of the claimant;
“(ii) depriving the claimant of the property would deprive the claimant of the means
to maintain reasonable shelter in the community for the claimant and all dependents residing with the claimant;
“(iii) the property is not, and is not
traceable to, the proceeds of any criminal offense; and
“(iv) the claimant acquired his or her interest in the property through marriage, divorce, or legal separation, or the claimant was

App. 158
the spouse or legal dependent of a person
whose death resulted in the transfer of the
property to the claimant through inheritance
or probate,
except that the court shall limit the value of any real
property interest for which innocent ownership is recognized under this subparagraph to the value necessary to maintain reasonable shelter in the community
for such claimant and all dependents residing with the
claimant.
“(4) Notwithstanding any provision of this
subsection, no person may assert an ownership interest under this subsection in contraband or
other property that it is illegal to possess.
“(5) If the court determines, in accordance
with this section, that an innocent owner has a
partial interest in property otherwise subject to
forfeiture, or a joint tenancy or tenancy by the entirety in such property, the court may enter an appropriate order—
“(A)

severing the property;

“(B) transferring the property to the
Government with a provision that the Government compensate the innocent owner to
the extent of his or her ownership interest
once a final order of forfeiture has been entered and the property has been reduced to
liquid assets; or
“(C) permitting the innocent owner to
retain the property subject to a lien in favor of

App. 159
the Government to the extent of the forfeitable interest in the property.
“(6)

In this subsection, the term ‘owner’—

“(A) means a person with an ownership interest in the specific property sought to be forfeited, including a leasehold, lien, mortgage,
recorded security interest, or valid assignment of
an ownership interest; and
“(B)

does not include—

“(i) a person with only a general unsecured interest in, or claim against, the property or estate of another;
“(ii) a bailee unless the bailor is identified and the bailee shows a colorable legitimate interest in the property seized; or
“(iii) a nominee who exercises no dominion or control over the property.
“(e)

MOTION TO SET ASIDE FORFEITURE.—

“(1) Any person entitled to written notice in
any nonjudicial civil forfeiture proceeding under a
civil forfeiture statute who does not receive such
notice may file a motion to set aside a declaration
of forfeiture with respect to that person’s interest
in the property, which motion shall be granted if—
“(A) the Government knew, or reasonably should have known, of the moving party’s
interest and failed to take reasonable steps to
provide such party with notice; and

App. 160
“(B) the moving party did not know or
have reason to know of the seizure within sufficient time to file a timely claim.
“(2)(A) Notwithstanding the expiration of
any applicable statute of limitations, if the court
grants a motion under paragraph (1), the court
shall set aside the declaration of forfeiture as to
the interest of the moving party without prejudice
to the right of the Government to commence a subsequent forfeiture proceeding as to the interest of
the moving party.
“(B) Any proceeding described in subparagraph (A) shall be commenced—
“(i) if nonjudicial, within 60 days of the
entry of the order granting the motion; or
“(ii) if judicial, within 6 months of the
entry of the order granting the motion.
“(3) A motion under paragraph (1) may be
filed not later than 5 years after the date of final
publication of notice of seizure of the property.
“(4) If, at the time a motion made under paragraph (1) is granted, the forfeited property has
been disposed of by the Government in accordance
with law, the Government may institute proceedings against a substitute sum of money equal to
the value of the moving party’s interest in the
property at the time the property was disposed of.
“(5) A motion filed under this subsection
shall be the exclusive remedy for seeking to set
aside a declaration of forfeiture under a civil forfeiture statute.

App. 161
“(f )

RELEASE OF SEIZED PROPERTY.—

“(1) A claimant under subsection (a) is entitled to immediate release of seized property if—
“(A) the claimant has a possessory interest in the property;
“(B) the claimant has sufficient ties to
the community to provide assurance that the
property will be available at the time of the
trial;
“(C) the continued possession by the
Government pending the final disposition of
forfeiture proceedings will cause substantial
hardship to the claimant, such as preventing
the functioning of a business, preventing an
individual from working, or leaving an individual homeless;
“(D) the claimant’s likely hardship from
the continued possession by the Government
of the seized property outweighs the risk that
the property will be destroyed, damaged, lost,
concealed, or transferred if it is returned to
the claimant during the pendency of the proceeding; and
“(E) none of the conditions set forth in
paragraph (8) applies.
“(2) A claimant seeking release of property
under this subsection must request possession of
the property from the appropriate official, and the
request must set forth the basis on which the requirements of paragraph (1) are met.

App. 162
“(3)(A) If not later than 15 days after the
date of a request under paragraph (2) the property
has not been released, the claimant may file a petition in the district court in which the complaint
has been filed or, if no complaint has been filed, in
the district court in which the seizure warrant was
issued or in the district court for the district in
which the property was seized.
“(B) The petition described in subparagraph
(A) shall set forth—
“(i) the basis on which the requirements
of paragraph (1) are met; and
“(ii) the steps the claimant has taken to
secure release of the property from the appropriate official.
“(4) If the Government establishes that the
claimant’s claim is frivolous, the court shall deny
the petition. In responding to a petition under this
subsection on other grounds, the Government may
in appropriate cases submit evidence ex parte in
order to avoid disclosing any matter that may adversely affect an ongoing criminal investigation or
pending criminal trial.
“(5) The court shall render a decision on a
petition filed under paragraph (3) not later than
30 days after the date of the filing, unless such 30day limitation is extended by consent of the parties or by the court for good cause shown
“(6)

If—

“(A)
(3); and

a petition is filed under paragraph

App. 163
“(B) the claimant demonstrates that the
requirements of paragraph (1) have been met,
the district court shall order that the property be
returned to the claimant, pending completion of
proceedings by the Government to obtain forfeiture of the property.
“(7) If the court grants a petition under paragraph (3)—
“(A) the court may enter any order necessary to ensure that the value of the property
is maintained while the forfeiture action is
pending, including—
“(i) permitting the inspection, photographing, and inventory of the property;
“(ii) fixing a bond in accordance
with rule E(5) of the Supplemental Rules
for Certain Admiralty and Maritime
Claims; and
“(iii) requiring the claimant to obtain or maintain insurance on the subject
property; and
“(B) the Government may place a lien
against the property or file a lis pendens to
ensure that the property is not transferred to
another person.
“(8) This subsection shall not apply if the
seized property—
“(A) is contraband, currency, or other
monetary instrument, or electronic funds

App. 164
unless such currency or other monetary instrument or electronic funds constitutes the
assets of a legitimate business which has been
seized;
“(B) is to be used as evidence of a violation of the law;
“(C) by reason of design or other characteristic, is particularly suited for use in illegal
activities; or
“(D) is likely to be used to commit additional criminal acts if returned to the claimant.
“(g)

PROPORTIONALITY.—

“(1) The claimant under subsection (a)(4)
may petition the court to determine whether the
forfeiture was constitutionally excessive.
“(2) In making this determination, the court
shall compare the forfeiture to the gravity of the
offense giving rise to the forfeiture.
“(3) The claimant shall have the burden of
establishing that the forfeiture is grossly disproportional by a preponderance of the evidence at a
hearing conducted by the court without a jury.
“(4) If the court finds that the forfeiture is
grossly disproportional to the offense it shall reduce or eliminate the forfeiture as necessary to
avoid a violation of the Excessive Fines Clause of
the Eighth Amendment of the Constitution.

App. 165
“(h)

CIVIL FINE.—

“(1) In any civil forfeiture proceeding under
a civil forfeiture statute in which the Government
prevails, if the court finds that the claimant’s assertion of an interest in the property was frivolous,
the court may impose a civil fine on the claimant
of an amount equal to 10 percent of the value of
the forfeited property, but in no event shall the fine
be less than $250 or greater than $5,000.
“(2) Any civil fine imposed under this subsection shall not preclude the court from imposing
sanctions under rule 11 of the Federal Rules of
Civil Procedure.
“(3) In addition to the limitations of section
1915 of title 28, United States Code, in no event
shall a prisoner file a claim under a civil forfeiture
statute or appeal a judgment in a civil action or
proceeding based on a civil forfeiture statute if the
prisoner has, on three or more prior occasions,
while incarcerated or detained in any facility,
brought an action or appeal in a court of the
United States that was dismissed on the grounds
that it is frivolous or malicious, unless the prisoner
shows extraordinary and exceptional circumstances.
“(i)

CIVIL FORFEITURE STATUTE DEFINED.—

In this section, the term ‘civil forfeiture statute’—
“(1) means any provision of Federal law
providing for the forfeiture of property other than
as a sentence imposed upon conviction of a criminal offense; and

App. 166
“(2)

does not include—

“(A) the Tariff Act of 1930 or any other
provision of law codified in title 19;
“(B)

the Internal Revenue Code of 1986;

“(C) the Federal Food, Drug, and Cosmetic Act (21 U.S.C. 301 et seq.);
“(D) the Trading with the Enemy Act
(50 U.S.C. App. 1 et seq.); or
“(E) section 1 of title VI of the Act of
June 15, 1917 (40 Stat. 233; 22 U.S.C. 401).”.
<< 18 USCA prec.§ 981 >>
(b) TECHNICAL AND CONFORMING AMENDMENT.—The analysis for chapter 46 of title 18, United
States Code, is amended by inserting after the item relating to section 982 the following:
“983.
(c)

General rules for civil forfeiture proceedings.”.
STRIKING SUPERSEDED PROVISIONS.—
<< 18 USCA § 981 >>

(1) CIVIL FORFEITURE.—Section 981(a) of title 18, United States Code, is amended.—
(A) in paragraph (1), by striking “Except as
provided in paragraph (2), the” and inserting
“The”; and
(B)

by striking paragraph (2).

App. 167
<< 21 USCA § 881 >>
(2) DRUG FORFEITURES.—Paragraphs (4), (6),
and (7) of section 511(a) of the Controlled Substances
Act (21 U.S.C. 881(a)(4), (6), and (7)) are each amended
by striking ”, except that” and all that follows before
the period at the end.
<< 21 USCA § 888 >>
(3) AUTOMOBILES.—Section 518 of the Controlled Substances Act (21 U.S.C. 888) is repealed.
<< 18 USCA § 2254 >>
(4) FORFEITURES IN CONNECTION WITH
SEXUAL EXPLOITATION OF CHILDREN.—Paragraphs (2) and (3) of section 2254(a) of title 18, United
States Code, are each amended by striking ”, except
that” and all that follows before the period at the end.
<< 42 USCA § 2996f >>
(d) LEGAL SERVICES CORPORATION REPRESENTATION.—Section 1007(a) of the Legal Services Corporation Act (42 U.S.C. 2996f(a)) is amended—
(1) in paragraph (9), by striking “and” after
the semicolon;
(2) in paragraph (10), by striking the period
and inserting “; and”; and
(3)

by adding at the end the following:

App. 168
“(11) ensure that an indigent individual whose
primary residence is subject to civil forfeiture is represented by an attorney for the Corporation in such civil
action.”.
SEC. 3. COMPENSATION FOR DAMAGE TO SEIZED
PROPERTY
<< 28 USCA § 2680 >>
(a) TORT CLAIMS ACT.—Section 2680(c) of title 28,
United States Code, is amended—
(1) by striking “any goods or merchandise” and
inserting “any goods, merchandise, or other property”;
(2) by striking “law-enforcement” and inserting
“law enforcement”; and
(3) by inserting before the period at the end the
following: ”, except that the provisions of this chapter
and section 1346(b) of this title apply to any claim
based on injury or loss of goods, merchandise, or other
property, while in the possession of any officer of customs or excise or any other law enforcement officer, if—
“(1) the property was seized for the purpose of
forfeiture under any provision of Federal law providing
for the forfeiture of property other than as a sentence
imposed upon conviction of a criminal offense;
“(2)
feited;

the interest of the claimant was not for-

App. 169
“(3) the interest of the claimant was not remitted
or mitigated (if the property was subject to forfeiture);
and
“(4) the claimant was not convicted of a crime for
which the interest of the claimant in the property was
subject to forfeiture under a Federal criminal forfeiture law.”.
<<31 USCA § 3724 NOTE >>
(b)

DEPARTMENT OF JUSTICE.—

(1) IN GENERAL.—With respect to a claim that
cannot be settled under chapter 171 of title 28, United
States Code, the Attorney General may settle, for not
more than $50,000 in any case, a claim for damage to,
or loss of, privately owned property caused by an investigative or law enforcement officer (as defined in section 2680(h) of title 28, United States Code) who is
employed by the Department of Justice acting within
the scope of his or her employment.
(2) LIMITATIONS.—The Attorney General may
not pay a claim under paragraph (1) that—
(A) is presented to the Attorney General
more than 1 year after it accrues; or
(B) is presented by an officer or employee of
the Federal Government and arose within the
scope of employment.
SEC. 4.
EST.

ATTORNEY FEES, COSTS, AND INTER-

App. 170
<< 28 USCA § 2465 >>
(a) IN GENERAL.—Section 2465 of title 28,
United States Code, is amended to read as follows:
“§ 2465. Return of property to claimant; liability for
wrongful seizure; attorney fees, costs, and interest
“(a) Upon the entry of a judgment for the claimant in any proceeding to condemn or forfeit property
seized or arrested under any provision of Federal law—
“(1) such property shall be returned forthwith to
the claimant or his agent; and
“(2) if it appears that there was reasonable cause
for the seizure or arrest, the court shall cause a proper
certificate thereof to be entered and, in such case, neither the person who made the seizure or arrest nor
the prosecutor shall be liable to suit or judgment on
account of such suit or prosecution, nor shall the claimant be entitled to costs, except as provided in subsection (b).
“(b)(1) Except as provided in paragraph (2), in
any civil proceeding to forfeit property under any provision of Federal law in which the claimant substantially prevails, the United States shall be liable for—
“(A) reasonable attorney fees and other litigation costs reasonably incurred by the claimant;
“(B) post-judgment interest, as set forth in
section 1961 of this title; and

App. 171
“(C) in cases involving currency, other negotiable instruments, or the proceeds of an interlocutory sale—
“(i) interest actually paid to the United
States from the date of seizure or arrest of the
property that resulted from the investment of the
property in an interest-bearing account or instrument; and
“(ii) an imputed amount of interest that
such currency, instruments, or proceeds would
have earned at the rate applicable to the 30-day
Treasury Bill, for any period during which no interest was paid (not including any period when the
property reasonably was in use as evidence in an
official proceeding or in conducting scientific tests
for the purpose of collecting evidence), commencing 15 days after the property was seized by a Federal law enforcement agency, or was turned over to
a Federal law enforcement agency by a State or local law enforcement agency.
“(2)(A) The United States shall not be required
to disgorge the value of any intangible benefits nor
make any other payments to the claimant not specifically authorized by this subsection.
“(B) The provisions of paragraph (1) shall not apply if the claimant is convicted of a crime for which the
interest of the claimant in the property was subject to
forfeiture under a Federal criminal forfeiture law.
“(C) If there are multiple claims to the same
property, the United States shall not be liable for costs

App. 172
and attorneys fees associated with any such claim if
the United States—
“(i)

promptly recognizes such claim;

“(ii) promptly returns the interest of the
claimant in the property to the claimant, if the
property can be divided without difficulty and
there are no competing claims to that portion of
the property;
“(iii) does not cause the claimant to incur additional, reasonable costs or fees; and
“(iv) prevails in obtaining forfeiture with respect to one or more of the other claims.
“(D) If the court enters judgment in part for the
claimant and in part for the Government, the court
shall reduce the award of costs and attorney fees accordingly.”.
<< 28 USCA prec. § 2461 >>
(b) TECHNICAL AND CONFORMING AMENDMENT.—The analysis for chapter 163 of title 28,
United States Code, is amended by striking the item
relating to section 2465 and inserting the following:
“2465. Return of property to claimant; liability for
wrongful seizure; attorney fees, costs, and interest.”.
SEC. 5.

SEIZURE WARRANT REQUIREMENT.

App. 173
<< 18 USCA § 981 >>
(a) IN GENERAL.—Section 981(b) of title 18,
United States Code, is amended to read as follows:
“(b)(1) Except as provided in section 985, any
property subject to forfeiture to the United States under subsection (a) may be seized by the Attorney General and, in the case of property involved in a violation
investigated by the Secretary of the Treasury or the
United States Postal Service, the property may also be
seized by the Secretary of the Treasury or the Postal
Service, respectively.
“(2) Seizures pursuant to this section shall be
made pursuant to a warrant obtained in the same
manner as provided for a search warrant under the
Federal Rules of Criminal Procedure, except that a seizure may be made without a warrant if—
“(A) a complaint for forfeiture has been filed
in the United States district court and the court
issued an arrest warrant in rem pursuant to the
Supplemental Rules for Certain Admiralty and
Maritime Claims;
“(B) there is probable cause to believe that
the property is subject to forfeiture and—
“(i) the seizure is made pursuant to a lawful
arrest or search; or
“(ii) another exception to the Fourth Amendment warrant requirement would apply; or

App. 174
“(C) the property was lawfully seized by
a State or local law enforcement agency and transferred to a Federal agency.
“(3) Notwithstanding the provisions of rule 41(a)
of the Federal Rules of Criminal Procedure, a seizure
warrant may be issued pursuant to this subsection by
a judicial officer in any district in which a forfeiture
action against the property may be filed under section
1355(b) of title 28, and may be executed in any district
in which the property is found, or transmitted to the
central authority of any foreign state for service in accordance with any treaty or other international agreement. Any motion for the return of property seized
under this section shall be filed in the district court in
which the seizure warrant was issued or in the district
court for the district in which the property was seized.
“(4)(A) If any person is arrested or charged in a
foreign country in connection with an offense that
would give rise to the forfeiture of property in the
United States under this section or under the Controlled Substances Act, the Attorney General may apply to any Federal judge or magistrate judge in the
district in which the property is located for an ex parte
order restraining the property subject to forfeiture for
not more than 30 days, except that the time may be
extended for good cause shown at a hearing conducted
in the manner provided in rule 43(e) of the Federal
Rules of Civil Procedure.
“(B) The application for the restraining order
shall set forth the nature and circumstances of the foreign charges and the basis for belief that the person

App. 175
arrested or charged has property in the United States
that would be subject to forfeiture, and shall contain a
statement that the restraining order is needed to preserve the availability of property for such time as is
necessary to receive evidence from the foreign country
or elsewhere in support of probable cause for the seizure of the property under this subsection.”.
<< 21 USCA § 881 >>
(b) DRUG FORFEITURES.—Section 511(b) of
the Controlled Substances Act (21 U.S.C. 881(b)) is
amended to read as follows:
“(b) SEIZURE PROCEDURES.—Any property
subject to forfeiture to the United States under this
section may be seized by the Attorney General in the
manner set forth in section 981(b) of title 18, United
States Code.”.
<< 18 USCA § 981 >>
SEC. 6. USE OF FORFEITED FUNDS TO PAY RESTITUTION TO CRIME VICTIMS.
Section 981(e) of title 18, United States Code, is amended
by striking paragraph (6) and inserting the following:
“(6) as restoration to any victim of the offense
giving rise to the forfeiture, including, in the case of a
money laundering offense, any offense constituting the
underlying specified unlawful activity; or”.
SEC. 7.

CIVIL FORFEITURE OF REAL PROPERTY

App. 176
<< 18 USCA § 985 >>
(a) IN GENERAL.—Chapter 46 of title 18,
United States Code, is amended by inserting after section 984 the following:
“§ 985.

Civil forfeiture of real property

“(a) Notwithstanding any other provision of law,
all civil forfeitures of real property and interests in real
property shall proceed as judicial forfeitures.
“(b)(1)

Except as provided in this section—

“(A) real property that is the subject of a
civil forfeiture action shall not be seized before entry of an order of forfeiture; and
“(B) the owners or occupants of the real
property shall not be evicted from, or otherwise deprived of the use and enjoyment of, real property
that is the subject of a pending forfeiture action.
“(2) The filing of a lis pendens and the execution
of a writ of entry for the purpose of conducting an inspection and inventory of the property shall not be considered a seizure under this subsection.
“(c)(1) The Government shall initiate a civil forfeiture action against real property by—
“(A)

filing a complaint for forfeiture;

“(B) posting a notice of the complaint on the
property; and
“(C) serving notice on the property owner,
along with a copy of the complaint.

App. 177
“(2) If the property owner cannot be served with
the notice under paragraph (1) because the owner—
“(A)

is a fugitive;

“(B) resides outside the United States and
efforts at service pursuant to rule 4 of the Federal
Rules of Civil Procedure are unavailing; or
“(C) cannot be located despite the exercise of
due diligence, constructive service may be made in
accordance with the laws of the State in which the
property is located.
“(3) If real property has been posted in accordance with this subsection, it shall not be necessary for
the court to issue an arrest warrant in rem, or to take
any other action to establish in rem jurisdiction over
the property.
“(d)(1) Real property may be seized prior to the
entry of an order of forfeiture if—
“(A) the Government notifies the court that
it intends to seize the property before trial; and
“(B)

the court—

“(i) issues a notice of application for
warrant, causes the notice to be served on the
property owner and posted on the property,
and conducts a hearing in which the property
owner has a meaningful opportunity to be
heard; or
“(ii) makes an ex parte determination
that there is probable cause for the forfeiture
and that there are exigent circumstances that

App. 178
permit the Government to seize the property
without prior notice and an opportunity for
the property owner to be heard. “(2) For purposes of paragraph (1)(B)(ii), to establish exigent circumstances, the Government shall
show that less restrictive measures such as a
lis pendens, restraining order, or bond would
not suffice to protect the Government’s interests in preventing the sale, destruction, or
continued unlawful use of the real property.
“(e) If the court authorizes a seizure of real property under subsection (d)(1)(B)(ii), it shall conduct a
prompt post-seizure hearing during which the property owner shall have an opportunity to contest the basis for the seizure.
“(f )

This section—

“(1) applies only to civil forfeitures of real
property and interests in real property;
“(2) does not apply to forfeitures of the proceeds of the sale of such property or interests, or of
money or other assets intended to be used to acquire such property or interests; and
“(3) shall not affect the authority of the court
to enter a restraining order relating to real property.”.

App. 179
<< 18 USCA prec. § 981 >>
(b) TECHNICAL AND CONFORMING AMENDMENT.—The analysis for chapter 46 of title 18, United
States Code, is amended by inserting after the item relating to section 984 the following:
“985.

Civil forfeiture of real property.”.

SEC. 8.

STAY OF CIVIL FORFEITURE CASE.
<< 18 USCA § 981 >>

(a) IN GENERAL.—Section 981(g) of title 18,
United States Code, is amended to read as follows:
“(g)(1) Upon the motion of the United States, the
court shall stay the civil forfeiture proceeding if the
court determines that civil discovery will adversely affect the ability of the Government to conduct a related
criminal investigation or the prosecution of a related
criminal case.
“(2) Upon the motion of a claimant, the court
shall stay the civil forfeiture proceeding with respect
to that claimant if the court determines that—
“(A) the claimant is the subject of a related
criminal investigation or case;
“(B) the claimant has standing to assert a
claim in the civil forfeiture proceeding; and
“(C) continuation of the forfeiture proceeding will burden the right of the claimant against
self-incrimination in the related investigation or
case.

App. 180
“(3) With respect to the impact of civil discovery
described in paragraphs (1) and (2), the court may determine that a stay is unnecessary if a protective order
limiting discovery would protect the interest of one
party without unfairly limiting the ability of the opposing party to pursue the civil case. In no case, however,
shall the court impose a protective order as an alternative to a stay if the effect of such protective order would
be to allow one party to pursue discovery while the
other party is substantially unable to do so.
“(4) In this subsection, the terms ‘related criminal case” and ‘related criminal investigation” mean an
actual prosecution or investigation in progress at the
time at which the request for the stay, or any subsequent motion to lift the stay is made. In determining
whether a criminal case or investigation is ‘related” to
a civil forfeiture proceeding, the court shall consider
the degree of similarity between the parties, witnesses,
facts, and circumstances involved in the two proceedings, without requiring an identity with respect to any
one or more factors.
“(5) In requesting a stay under paragraph (1),
the Government may, in appropriate cases, submit evidence ex parte in order to avoid disclosing any matter
that may adversely affect an ongoing criminal investigation or pending criminal trial.
“(6) Whenever a civil forfeiture proceeding is
stayed pursuant to this subsection, the court shall enter any order necessary to preserve the value of the
property or to protect the rights of lienholders or other

App. 181
persons with an interest in the property while the stay
is in effect.
“(7) A determination by the court that the claimant has standing to request a stay pursuant to paragraph (2) shall apply only to this subsection and shall
not preclude the Government from objecting to the
standing of the claimant by dispositive motion or at the
time of trial.”.
<< 21 USCA § 881 >>
(b) DRUG FORFEITURES.—Section 511(i) of
the Controlled Substances Act (21 U.S.C. 881(i)) is
amended to read as follows:
“(i) The provisions of section 981(g) of title 18,
United States Code, regarding the stay of a civil forfeiture proceeding shall apply to forfeitures under this
section.”.
<< 18 USCA § 983 >>
SEC. 9.

CIVIL RESTRAINING ORDERS.

Section 983 of title 18, United States Code, as
added by this Act, is amended by adding at the end the
following:
“(j) RESTRAINING ORDERS; PROTECTIVE
ORDERS.—
“(1) Upon application of the United States,
the court may enter a restraining order or injunction, require the execution of satisfactory

App. 182
performance bonds, create receiverships, appoint
conservators, custodians, appraisers, accountants,
or trustees, or take any other action to seize, secure, maintain, or preserve the availability of
property subject to civil forfeiture—
“(A) upon the filing of a civil forfeiture complaint alleging that the property with respect to
which the order is sought is subject to civil forfeiture; or
“(B) prior to the filing of such a complaint, if,
after notice to persons appearing to have an interest in the property and opportunity for a hearing,
the court determines that—
“(i) there is a substantial probability
that the United States will prevail on the issue of forfeiture and that failure to enter the
order will result in the property being destroyed, removed from the jurisdiction of the
court, or otherwise made unavailable for forfeiture; and
“(ii) the need to preserve the availability of the property through the entry of the requested order outweighs the hardship on any
party against whom the order is to be entered.
“(2) An order entered pursuant to paragraph
(1)(B) shall be effective for not more than 90 days,
unless extended by the court for good cause shown,
or unless a complaint described in paragraph
(1)(A) has been filed.
“(3) A temporary restraining order under
this subsection may be entered upon application of
the United States without notice or opportunity

App. 183
for a hearing when a complaint has not yet been
filed with respect to the property, if the United
States demonstrates that there is probable cause
to believe that the property with respect to which
the order is sought is subject to civil forfeiture and
that provision of notice will jeopardize the availability of the property for forfeiture. Such a temporary order shall expire not more than 10 days after
the date on which it is entered, unless extended for
good cause shown or unless the party against
whom it is entered consents to an extension for a
longer period. A hearing requested concerning an
order entered under this paragraph shall be held
at the earliest possible time and prior to the expiration of the temporary order.
“(4) The court may receive and consider, at a
hearing held pursuant to this subsection, evidence
and information that would be inadmissible under
the Federal Rules of Evidence.”.
<< 18 USCA § 3322 >>
SEC. 10. COOPERATION
PROSECUTORS.

AMONG

FEDERAL

Section 3322(a) of title 18, United States Code, is
amended—
(1) by striking “civil forfeiture under section 981
of title 18, United States Code, of property described in
section 981(a)(1) (C) of such title” and inserting “any
civil forfeiture provision of Federal law”; and
(2)
tion”.

by striking “concerning a banking law viola-

App. 184
<< 19 USCA § 1621 >>
SEC. 11. STATUTE OF LIMITATIONS FOR CIVIL
FORFEITURE ACTIONS.
Section 621 of the Tariff Act of 1930 (19 U.S.C.
1621) is amended by inserting ”, or in the case of forfeiture, within 2 years after the time when the involvement of the property in the alleged offense was
discovered, whichever was later” after “within five
years after the time when the alleged offense was discovered”.
<< 18 USCA § 2232 >>
SEC. 12. DESTRUCTION OR REMOVAL OF
PROPERTY TO PREVENT SEIZURE.
Section 2232 of title 18, United States Code, is
amended—
(1)

by striking subsections (a) and (b);

(2) by inserting “(e) FOREIGN INTELLIGENCE SURVEILLANCE.—” before “Whoever,
having knowledge that a Federal officer”;
(3) by redesignating subsection (c) as subsection (d); and
(4) by inserting before subsection (d), as redesignated, the following:
“(a) DESTRUCTION OR REMOVAL OF PROPERTY TO PREVENT SEIZURE.—Whoever, before,
during, or after any search for or seizure of property by
any person authorized to make such search or seizure,

App. 185
knowingly destroys, damages, wastes, disposes of,
transfers, or otherwise takes any action, or knowingly
attempts to destroy, damage, waste, dispose of, transfer, or otherwise take any action, for the purpose of
preventing or impairing the Governments lawful authority to take such property into its custody or control
or to continue holding such property under its lawful
custody and control, shall be fined under this title or
imprisoned not more than 5 years, or both.
“(b) IMPAIRMENT OF IN REM JURISDICTION.—Whoever, knowing that property is subject to
the in rem jurisdiction of a United States court for purposes of civil forfeiture under Federal law, knowingly
and without authority from that court, destroys, damages, wastes, disposes of, transfers, or otherwise takes
any action, or knowingly attempts to destroy, damage,
waste, dispose of, transfer, or otherwise take any action, for the purpose of impairing or defeating the
court’s continuing in rem jurisdiction over the property, shall be fined under this title or imprisoned not
more than 5 years, or both.
“(c) NOTICE OF SEARCH OR EXECUTION OF
SEIZURE WARRANT OR WARRANT OF ARREST IN
REM.—Whoever, having knowledge that any person
authorized to make searches and seizures, or to execute a seizure warrant or warrant of arrest in rem, in
order to prevent the authorized seizing or securing of
any person or property, gives notice or attempts to give
notice in advance of the search, seizure, or execution of
a seizure warrant or warrant of arrest in rem, to any

App. 186
person shall be fined under this title or imprisoned not
more than 5 years, or both”.
<< 18 USCA § 984 >>
SEC. 13. FUNGIBLE PROPERTY IN BANK ACCOUNTS.
(a) IN GENERAL.—Section 984 of title 18,
United States Code, is amended—
(1) by striking subsection (a) and redesignating subsections (b), (c), and (d) as subsections (a), (b), and (c), respectively;
(2)

in subsection (a), as redesignated—

(A) by striking “or other fungible
property” and inserting “or precious metals”; and
(B) in paragraph (2), by striking
“subsection (c)” and inserting “subsection
(b)”;
(3)

in subsection (c), as redesignated—

(A) by striking paragraph (1) and
inserting the following: “(1) Subsection (a)
does not apply to an action against funds
held by a financial institution in an interbank account unless the account holder
knowingly engaged in the offense that is
the basis for the forfeiture.”; and
(B) in paragraph (2), by striking
“(2) As used in this section, the term” and
inserting the following:

App. 187
“(2)

In this subsection—

“(A) the term “financial institution” includes
a foreign bank (as defined in section 1(b)(7) of the
International Banking Act of 1978 (12 U.S.C.
3101(b)(7))); and
“(B)
(4)

the term”; and
by adding at the end the following:

“(d) Nothing in this section may be construed to
limit the ability of the Government to forfeit property
under any provision of law if the property involved in
the offense giving rise to the forfeiture or property
traceable thereto is available for forfeiture.”.
SEC. 14.

FUGITIVE DISENTITLEMENT.
<< 28 USCA § 2466 >>

(a) IN GENERAL.—Chapter 163 of title 28,
United States Code, is amended by adding at the end
the following:
“§ 2466.

Fugitive disentitlement

A judicial officer may disallow a person from using
the resources of the courts of the United States in furtherance of a claim in any related civil forfeiture action
or a claim in third party proceedings in any related
criminal forfeiture action upon a finding that such person—
“(1) after notice or knowledge of the fact
that a warrant or process has been issued for his

App. 188
apprehension, in order to avoid criminal prosecution—
“(A) purposely leaves the jurisdiction of the
United States;
“(B) declines to enter or reenter the
United States to submit to its jurisdiction; or
“(C) otherwise evades the jurisdiction of
the court in which a criminal case is pending
against the person; and
“(2) is not confined or held in custody in any
other jurisdiction for commission of criminal conduct in that jurisdiction.".
<< 28 USCA prec. § 2461 >>
(b) CONFORMING AMENDMENT.—The analysis for chapter 163 of title 28, United States Code, is
amended by adding at the end the following:
“2466.

Fugitive disentitlement.”.
<< 28 USCA § 2466 NOTE >>

(c) EFFECTIVE DATE.—The amendments
made by this section shall apply to any case pending
on or after the date of the enactment of this Act.
SEC. 15. ENFORCEMENT OF FOREIGN FORFEITURE JUDGMENT.

App. 189
<< 28 USCA § 2467 >>
(a) IN GENERAL.—Chapter 163 of title 28,
United States Code, is amended by adding at the end
the following:
“§ 2467.
“(a)

Enforcement of foreign judgment

DEFINITIONS.—In this section—

“(1) the term ‘foreign nation’ means a country that has become a party to the United Nations
Convention Against Illicit Traffic in Narcotic
Drugs and Psychotropic Substances (referred to in
this section as the ‘United Nations Convention’)
or a foreign jurisdiction with which the United
States has a treaty or other formal international
agreement in effect providing for mutual forfeiture assistance; and
“(2) the term ‘forfeiture or confiscation judgment’ means a final order of a foreign nation compelling a person or entity—
“(A) to pay a sum of money representing
the proceeds of an offense described in Article
3, Paragraph 1, of the United Nations Convention, or any foreign offense described in section 1956(c)(7)(B) of title 18, or property the
value of which corresponds to such proceeds;
or
“(B) to forfeit property involved in or
traceable to the commission of such offense.

App. 190
“(b)

REVIEW BY ATTORNEY GENERAL.—

“(1) IN GENERAL.—A foreign nation seeking to have a forfeiture or confiscation judgment
registered and enforced by a district court of the
United States under this section shall first submit
a request to the Attorney General or the designee
of the Attorney General, which request shall include—
“(A) a summary of the facts of the case
and a description of the proceedings that resulted in the forfeiture or confiscation judgment;
“(B) certified copy of the forfeiture or
confiscation judgment;
“(C) an affidavit or sworn declaration
establishing that the defendant received notice of the proceedings in sufficient time to enable the defendant to defend against the
charges and that the judgment rendered is in
force and is not subject to appeal; and
“(D) such additional information and
evidence as may be required by the Attorney
General or the designee of the Attorney General.
“(2) CERTIFICATION OF REQUEST.—The Attorney General or the designee of the Attorney General
shall determine whether, in the interest of justice, to
certify the request, and such decision shall be final and
not subject to either judicial review or review under
subchapter II of chapter 5, or chapter 7, of title 5 (commonly known as the ‘Administrative Procedure Act’).

App. 191
“(c)

JURISDICTION AND VENUE.—

“(1) IN GENERAL.—If the Attorney General or
the designee of the Attorney General certifies a request
under subsection (b), the United States may file an application on behalf of a foreign nation in district court
of the United States seeking to enforce the foreign forfeiture or confiscation judgment as if the judgment had
been entered by a court in the United States.
“(2) PROCEEDINGS.—In a proceeding filed under paragraph (1)—
“(A) the United States shall be the applicant
and the defendant or another person or entity affected by the forfeiture or confiscation judgment
shall be the respondent;
“(B) venue shall lie in the district court for
the District of Columbia or in any other district in
which the defendant or the property that may be
the basis for satisfaction of a judgment under this
section may be found; and
“(C) the district court shall have personal jurisdiction over a defendant residing outside of the
United States if the defendant is served with process in accordance with rule 4 of the Federal Rules
of Civil Procedure.
“(d) ENTRY AND ENFORCEMENT OF JUDGMENT.—
“(1) IN GENERAL.—The district court shall enter such orders as may be necessary to enforce the

App. 192
judgment on behalf of the foreign nation unless the
court finds that—
“(A) the judgment was rendered under a system that provides tribunals or procedures incompatible with the requirements of due process of
law;
“(B) the foreign court lacked personal jurisdiction over the defendant;
“(C) the foreign court lacked jurisdiction
over the subject matter;
“(D) the defendant in the proceedings in the
foreign court did not receive notice of the proceedings in sufficient time to enable him or her to defend; or
“(E)

the judgment was obtained by fraud.

“(2) PROCESS.—Process to enforce a judgment
under this section shall be in accordance with rule
69(a) of the Federal Rules of Civil Procedure.
“(e) FINALITY OF FOREIGN FINDINGS.—In
entering orders to enforce the judgment, the court
shall be bound by the findings of fact to the extent that
they are stated in the foreign forfeiture or confiscation
judgment.
“(f ) CURRENCY CONVERSION.—The rate of
exchange in effect at the time the suit to enforce is filed
by the foreign nation shall be used in calculating the
amount stated in any forfeiture or confiscation judgment requiring the payment of a sum of money submitted for registration.”.

App. 193
<< 28 USCA prec. § 2461 >>
(b) CONFORMING AMENDMENT.—The analysis for chapter 163 of title 28, United States Code, is
amended by adding at the end the following:
“2467.

Enforcement of foreign judgment”.
<< 28 USCA § 2461 >>

SEC. 16. ENCOURAGING USE OF CRIMINAL FORFEITURE AS AN ALTERNATIVE TO CIVIL FORFEITURE.
Section 2461 of title 28, United States Code, is
amended by adding at the end the following:
“(c) If a forfeiture of property is authorized in
connection with a violation of an Act of Congress, and
any person is charged in an indictment or information
with such violation but no specific statutory provision
is made for criminal forfeiture upon conviction, the
Government may include the forfeiture in the indictment or information in accordance with the Federal
Rules of Criminal Procedure, and upon conviction, the
court shall order the forfeiture of the property in accordance with the procedures set forth in section 413
of the Controlled Substances Act (21 U.S.C. 853), other
than subsection (d) of that section.”.

App. 194
<< 18 USCA § 986 >>
SEC. 17. ACCESS TO RECORDS IN BANK SECRECY
JURISDICTIONS.
Section 986 of title 18, United States Code, is
amended by adding at the end the following:
“(d) ACCESS TO RECORDS IN BANK SECRECY JURISDICTIONS.—
“(1) IN GENERAL.—In any civil forfeiture
case, or in any ancillary proceeding in any criminal forfeiture case governed by section 413(n) of
the Controlled Substances Act (21 U.S.C. 853(n)),
in which—
“(A) financial records located in a foreign country may be material—
“(i) to any claim or to the ability of
the Government to respond to such claim;
or
“(ii) in a civil forfeiture case, to the
ability of the Government to establish the
forfeitability of the property; and
“(B) it is within the capacity of the
claimant to waive the claimant’s rights under
applicable financial secrecy laws, or to obtain
the records so that such records can be made
available notwithstanding such secrecy laws,
the refusal of the claimant to provide the records in response to a discovery request or to
take the action necessary otherwise to make
the records available shall be grounds for

App. 195
judicial sanctions, up to and including dismissal of the claim with prejudice.
“(2) PRIVILEGE.—This subsection shall not affect the right of the claimant to refuse production on
the basis of any privilege guaranteed by the Constitution of the United States or any other provision of Federal law.”.
SEC. 18. APPLICATION TO ALIEN SMUGGLING
OFFENSES.
<< 8 USCA § 1324 >>
(a) AMENDMENT OF THE IMMIGRATION
AND NATIONALITY ACT.—Section 274(b) of the Immigration and Nationality Act (8 U.S.C. 1324(b)) is
amended to read as follows:
“(b)

SEIZURE AND FORFEITURE.—

“(1) IN GENERAL.—Any conveyance, including any vessel, vehicle, or aircraft, that has
been or is being used in the commission of a violation of subsection (a), the gross proceeds of such
violation, and any property traceable to such conveyance or proceeds, shall be seized and subject to
forfeiture.
“(2) APPLICABLE PROCEDURES.—Seizures
and forfeitures under this subsection shall be governed by the provisions of chapter 46 of title 18,
United States Code, relating to civil forfeitures, including section 981(d) of such title, except that
such duties as are imposed upon the Secretary of
the Treasury under the customs laws described in

App. 196
that section shall be performed by such officers,
agents, and other persons as may be designated
for that purpose by the Attorney General.
“(3) PRIMA FACIE EVIDENCE IN DETERMINATIONS OF VIOLATIONS.—In determining
whether a violation of subsection (a) has occurred,
any of the following shall be prima facie evidence
that an alien involved in the alleged violation had
not received prior official authorization to come to,
enter, or reside in the United States or that such
alien had come to, entered, or remained in the
United States in violation of law:
“(A) Records of any judicial or administrative proceeding in which that alien’s status was an
issue and in which it was determined that the alien had not received prior official authorization to
come to, enter, or reside in the United States or
that such alien had come to, entered, or remained
in the United States in violation of law.
“(B) Official records of the Service or of the
Department of State showing that the alien had
not received prior official authorization to come to,
enter, or reside in the United States or that such
alien had come to, entered, or remained in the
United States in violation of law.
“(C) Testimony, by an immigration officer
having personal knowledge of the facts concerning
that alien’s status, that the alien had not received
prior official authorization to come to, enter, or reside in the United States or that such alien had
come to, entered, or remained in the United States
in violation of law.”.

App. 197
<< 18 USCA § 982 >>
(b) TECHNICAL CORRECTIONS TO EXISTING
CRIMINAL FORFEITURE AUTHORITY.—Section
982(a)(6) of title 18, United States Code, is amended—
(1)

in subparagraph (A)—

(A) by inserting “section 274(a), 274A(a)(1),
or 274A(a)(2) of the Immigration and Nationality Act or” before “section 1425” the first
place it appears;
(B) in clause (i), by striking “a violation
of, or a conspiracy to violate, subsection (a)”
and inserting “the offense of which the person
is convicted”; and
(C) in subclauses (I) and (II) of clause
(ii), by striking “a violation of, or a conspiracy
to violate, subsection (a)” and all that follows
through “of this title” each place it appears
and inserting “the offense of which the person
is convicted”;
(2)

by striking subparagraph (B); and

(3)

in the second sentence—

(A) by striking “The court, in imposing
sentence on such person” and inserting the
following:
“(B) The court, in imposing sentence on
a person described in subparagraph (A)”; and
(B) by striking “this subparagraph” and
inserting “that subparagraph”.

App. 198
<< 28 USCA § 524 >>
SEC. 19. ENHANCED VISIBILITY OF THE ASSET
FORFEITURE PROGRAM.
Section 524(c)(6) of title 28, United States Code, is
amended to read as follows:
“(6)(A) The Attorney General shall transmit to
Congress and make available to the public, not later
than 4 months after the end of each fiscal year, detailed
reports for the prior fiscal year as follows:
“(i) A report on total deposits to the Fund by
State of deposit.
“(ii) A report on total expenses paid from the
Fund, by category of expense and recipient agency,
including equitable sharing payments.
“(iii) A report describing the number, value,
and types of properties placed into official use by
Federal agencies, by recipient agency.
“(iv) A report describing the number, value,
and types of properties transferred to State and
local law enforcement agencies, by recipient
agency.
“(v) A report, by type of disposition, describing the number, value, and types of forfeited property disposed of during the year.
“(vi) A report on the year-end inventory of
property under seizure, but not yet forfeited, that
reflects the type of property, its estimated value,
and the estimated value of liens and mortgages
outstanding on the property.

App. 199
“(vii) A report listing each property in the
year-end inventory, not yet forfeited, with an outstanding equity of not less than $1,000,000.
“(B) The Attorney General shall transmit to Congress and make available to the public, not later than
2 months after final issuance, the audited financial
statements for each fiscal year for the Fund.
“(C) Reports under subparagraph (A) shall include information with respect to all forfeitures under
any law enforced or administered by the Department
of Justice.
“(D) The transmittal and publication requirements in subparagraphs (A) and (B) may be satisfied
by—
“(i) posting the reports on an Internet website maintained by the Department of Justice for
a period of not less than 2 years; and
“(ii) notifying the Committees on the Judiciary of the House of Representatives and the Senate when the reports are available electronically.”.
SEC. 20. PROCEEDS.
<< 18 USCA § 981 >>
(a) FORFEITURE OF PROCEEDS.—Section
981(a)(1)(C) of title 18, United States Code, is amended
by striking “or a violation of section 1341” and all that
follows and inserting “or any offense constituting
“specified unlawful activity” (as defined in section

App. 200
1956(c)(7) of this title), or a conspiracy to commit such
offense.”.
<< 18 USCA § 981 >>
(b) DEFINITION OF PROCEEDS.—Section 981(a)
of title 18, United States Code, is amended by adding
at the end the following:
“(2) For purposes of paragraph (1), the term ‘proceeds” is defined as follows:
“(A) In cases involving illegal goods, illegal
services, unlawful activities, and telemarketing
and health care fraud schemes, the term ‘proceeds”
means property of any kind obtained directly or
indirectly, as the result of the commission of the
offense giving rise to forfeiture, and any property
traceable thereto, and is not limited to the net gain
or profit realized from the offense.
“(B) In cases involving lawful goods or lawful services that are sold or provided in an illegal
manner, the term ‘proceeds” means the amount of
money acquired through the illegal transactions
resulting in the forfeiture, less the direct costs incurred in providing the goods or services. The
claimant shall have the burden of proof with respect to the issue of direct costs. The direct costs
shall not include any part of the overhead expenses of the entity providing the goods or services, or any part of the income taxes paid by the
entity.
“(C) In cases involving fraud in the process
of obtaining a loan or extension of credit, the court

App. 201
shall allow the claimant a deduction from the forfeiture to the extent that the loan was repaid, or
the debt was satisfied, without any financial loss
to the victim.”.
<< 8 USCA § 1324 NOTE >>
SEC. 21.

EFFECTIVE DATE.

Except as provided in section 14(c), this Act and
the amendments made by this Act shall apply to any
forfeiture proceeding commenced on or after the date
that is 120 days after the date of the enactment of this
Act.
Approved April 25, 2000.
PL 106-185, 2000 HR 1658

App. 202
28 U.S.C. § 2465. Return of property to
claimant; liability for wrongful seizure;
attorney fees, costs, and interest
Currentness
(a) Upon the entry of a judgment for the claimant in
any proceeding to condemn or forfeit property seized or
arrested under any provision of Federal law—
(1) such property shall be returned forthwith to
the claimant or his agent; and
(2) if it appears that there was reasonable cause
for the seizure or arrest, the court shall cause a
proper certificate thereof to be entered and, in
such case, neither the person who made the seizure or arrest nor the prosecutor shall be liable to
suit or judgment on account of such suit or prosecution, nor shall the claimant be entitled to costs,
except as provided in subsection (b).
(b)(1) Except as provided in paragraph (2), in any
civil proceeding to forfeit property under any provision
of Federal law in which the claimant substantially prevails, the United States shall be liable for—
(A) reasonable attorney fees and other litigation
costs reasonably incurred by the claimant;
(B) post-judgment interest, as set forth in section 1961 of this title; and
(C) in cases involving currency, other negotiable
instruments, or the proceeds of an interlocutory
sale—

App. 203
(i) interest actually paid to the United
States from the date of seizure or arrest of the
property that resulted from the investment of
the property in an interest-bearing account or
instrument; and
(ii) an imputed amount of interest that such
currency, instruments, or proceeds would
have earned at the rate applicable to the 30day Treasury Bill, for any period during which
no interest was paid (not including any period
when the property reasonably was in use as
evidence in an official proceeding or in conducting scientific tests for the purpose of collecting evidence), commencing 15 days after
the property was seized by a Federal law enforcement agency, or was turned over to a Federal law enforcement agency by a State or
local law enforcement agency.
(2)(A) The United States shall not be required to
disgorge the value of any intangible benefits nor make
any other payments to the claimant not specifically authorized by this subsection.
(B) The provisions of paragraph (1) shall not apply if the claimant is convicted of a crime for which
the interest of the claimant in the property was
subject to forfeiture under a Federal criminal forfeiture law.
(C) If there are multiple claims to the same
property, the United States shall not be liable for
costs and attorneys fees associated with any such
claim if the United States—

App. 204
(i)

promptly recognizes such claim;

(ii) promptly returns the interest of the
claimant in the property to the claimant, if the
property can be divided without difficulty and
there are no competing claims to that portion
of the property;
(iii) does not cause the claimant to incur additional, reasonable costs or fees; and
(iv) prevails in obtaining forfeiture with respect to one or more of the other claims.
(D) If the court enters judgment in part for the
claimant and in part for the Government, the
court shall reduce the award of costs and attorney
fees accordingly.

